<html>
<title> - HEARING ON: H.R. 2496, TO REAUTHORIZE THE JUNIOR DUCK STAMP CONSERVATION AND DESIGN PROGRAM ACT OF 1994 H.R. 2821, NORTH AMERICAN WETLAND CONSERVATION COUNCIL EXPANSION ACT, H.R. 1775, ESTUARY HABITAT RESTORATION PARTNERSHIP ACT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




      HEARING ON: H.R. 2496, TO REAUTHORIZE THE JUNIOR DUCK STAMP 
   CONSERVATION AND DESIGN PROGRAM ACT OF 1994 AND H.R. 2821, NORTH 
  AMERICAN WETLAND CONSERVATION COUNCIL EXPANSION ACT, AND H.R. 1775, 
              ESTUARY HABITAT RESTORATION PARTNERSHIP ACT

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                   SEPTEMBER 23, 1999, WASHINGTON DC

                               __________

                           Serial No. 106-63

                               __________

           Printed for the use of the Committee on Resources


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
           Committee address: http://www.house.gov/resources

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
63-806CC <l-ar/r-ar>        WASHINGTON : 1999
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
      Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
                         DC area (202) 512-1800 
     Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                NICK J. RAHALL II, West Virginia
JIM SAXTON, New Jersey               BRUCE F. VENTO, Minnesota
ELTON GALLEGLY, California           DALE E. KILDEE, Michigan
JOHN J. DUNCAN, Jr., Tennessee       PETER A. DeFAZIO, Oregon
JOEL HEFLEY, Colorado                ENI F.H. FALEOMAVAEGA, American 
JOHN T. DOOLITTLE, California            Samoa
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
KEN CALVERT, California              SOLOMON P. ORTIZ, Texas
RICHARD W. POMBO, California         OWEN B. PICKETT, Virginia
BARBARA CUBIN, Wyoming               FRANK PALLONE, Jr., New Jersey
HELEN CHENOWETH-HAGE, Idaho          CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         ROBERT A. UNDERWOOD, Guam
WILLIAM M. (MAC) THORNBERRY, Texas   PATRICK J. KENNEDY, Rhode Island
CHRIS CANNON, Utah                   ADAM SMITH, Washington
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA MC CHRISTENSEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  JAY INSLEE, Washington
MARK E. SOUDER, Indiana              GRACE F. NAPOLITANO, California
GREG WALDEN, Oregon                  TOM UDALL, New Mexico
DON SHERWOOD, Pennsylvania           MARK UDALL, Colorado
ROBIN HAYES, North Carolina          JOSEPH CROWLEY, New York
MIKE SIMPSON, Idaho                  RUSH D. HOLT, New Jersey
THOMAS G. TANCREDO, Colorado

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       ENI F.H. FALEOMAVAEGA, American 
JAMES V. HANSEN, Utah                    Samoa
WAYNE T. GILCHREST, Maryland         BRUCE F. VENTO, Minnesota
RICHARD W. POMBO, California         PETER A. DeFAZIO, Oregon
WALTER B. JONES, Jr., North          NEIL ABERCROMBIE, Hawaii
    Carolina                         SIMON P. ORTIZ, Texas
MARK E. SOUDER, Indiana              FRANK PALLONE, Jr., New Jersey
ROBIN HAYES, North Carolina          CARLOS A. ROMERO-BARCELO, Puerto 
MIKE SIMPSON, Idaho                      Rico
                                     ADAM SMITH, Washington
                    Harry Burroughs, Staff Director
                     Dave Whaley, Legislative Staff
               Jean Flemma, Democratic Legislative Staff




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 23, 1999..................................     1

Statement of Members:
    Dingell, Honorable John D., a Representative in Congress from 
      the State of Michigan......................................     6
        Prepared statement of....................................     8
    Faleomavaega, Hon. Eni F. H., a Delegate in Congress from the 
      Territory of American Samoa...............................3,23,75
    Gilchrest, Hon. Wayne, a Representative in Congress from the 
      State of Maryland..........................................    20
        Prepared statement of................................2,19,25,74
    Saxton, Hon. Jim, a Representative in Congress from the State 
      of New Jersey..............................................     1
        Prepared statement of..................................2,53,108
    Ortiz, Hon. Solomon, a Representative in Congress from the 
      State of Texas.............................................     6
        Prepared statement of....................................     8
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey, prepared statement of.............    73
        Prepared statement of....................................    19
    Hon. Carlos A. Romero-Barcelo, a Commissioner in Congress 
      from the Commonwealth of Puerto Rico.......................    23

Statement of Witnesses:
    Davis, Michael L., Deputy Assistant Secretary of the Army for 
      Civil Works, Department of the Army........................    32
        Prepared statement of....................................    34
    Davis, Grant, Assistant Secretary, Executive Director, the 
      Bay Institute of San Francisco.............................   119
        Prepared statement of....................................   122
    Frazer, Gary D., Assistant Director for Ecological Services, 
      U.S. Fish and Wildlife Service,............................    44
        Prepared statement of....................................    99
    Hirshfield, Michael, Senior Vice President, Chesapeake Bay 
      Foundation.................................................   117
    Melius, Tom, Assistant Director for External Affairs, Fish 
      and Wildlife Service, U.S. Department of the Interior......    11
        Prepared statement of....................................    13
    Ribb, Richard, Narragansett Bay Estuary Program, Rhode Island 
      Department of Environmental Management.....................    60
        Prepared statement of....................................    62
    Yozell, Sally, Deputy Assistant Secretary for Oceans and 
      Atmosphere, National Oceanic and Atmospheric Administration    24
        Prepared statement of....................................    27

Additional material supplied:
    From the Sierra to the Sea, The Ecological History of the San 
      Francisco Bay-Delta Watershed..............................   168
    Letter to Mr. Saxton, from David R. Anderson, Director of 
      Federal Affairs, Chesapeake Bay Foundation.................   167
    Text of H.R. 1775............................................   134
    Text of H.R. 2821............................................   163
    Text of H.R. 2496............................................   165

 
      HEARING ON: H.R. 2496, TO REAUTHORIZE THE JUNIOR DUCK STAMP 
 CONSERVATION AND DESIGN PROGRAM ACT OF 1994 H.R. 2821, NORTH AMERICAN 
WETLAND CONSERVATION COUNCIL EXPANSION ACT, H.R. 1775, ESTUARY HABITAT 
                      RESTORATION PARTNERSHIP ACT

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 1999

              House of Representatives,    
        Subcommittee on Fisheries Conservation,    
                                   Wildlife and Oceans,    
                                    Committee on Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10 a.m., in Room 
1334, Longworth House Office Building, before the Honorable Jim 
Saxton, Chair, presiding.

STATEMENT OF HON. JIM SAXTON, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Saxton. The Subcommittee on Fisheries Conservation, 
Wildlife and Oceans will come to order.
    Today we are discussing H.R. 2496, the reauthorization of 
the Junior Duck Stamp Conservation and Design Program Act of 
1994; H.R. 2821, the North American Wetlands Conservation 
Council Expansion Act; and, H.R. 1775, Estuary habitat 
Restoration Partnership Act.
    The first bill, H.R. 2496, has been introduced by a friend 
and colleague, Congressman Solomon Ortiz, from Texas. This bill 
would reauthorize the Junior Duck Stamp Conservation and Design 
Program Act. This innovative idea was first enacted in 1994 and 
it has allowed thousands of school children, from kindergarten 
through high school, to participate in the nationwide wildlife 
art contest.
    This program has also motivated students to take an active 
role in learning about and conserving our nation's wildlife 
resources. This measure does not make any significant changes 
in the underlying Act, but it will extend the annual 
competition, the marketing of these stamps, and the awards 
program for an additional five years.
    The second bill, H.R. 2821, has been recently introduced by 
two House members who serve with great distinction on the 
Migratory Bird Conservation Commission.
    This proposal, by our colleagues, Congressmen John Dingell 
and Curt Weldon, would increase from three to five the number 
of non-governmental representatives that may serve on the North 
American Wetlands Conservation Council.
    This Council has been instrumental in approving hundreds of 
worthwhile conservation projects that have saved over 32 
million acres of essential wetlands in Canada, Mexico and the 
United States.
    Finally, H.R. 1775, to catalyze estuary restoration and 
coordinate Federal estuarine activities. This is an excellent 
bill and this action is long overdue from the Federal 
Government. I am the co-sponsor of the measure and I commend 
Mr. Gilchrest for his leadership on this issue.
    I remain committed to attacking the problems facing this 
nation's estuaries and to restoring downgraded coastal habitat. 
Over a decade ago, Congress created the national estuary 
program to address serious environmental problems in estuaries 
of national significance. These problems include polluted 
runoff, habitat loss, development pressure, and harmful algal 
blooms.
    Unfortunately, despite a significant amount of planning, 
very little effort has been made to implement comprehensive 
conservation management plans or to actively restore the most 
seriously degraded estuarine areas.
    I am pleased that today we are taking positive steps to 
improve this unacceptable situation.
    I would now like to recognize Mr. Faleomavaega for his 
statement.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    The Subcommittee on Fisheries Conservation, Wildlife and 
Oceans will come to order. Today we are discussing H.R. 2496, 
to reauthorize the Junior Duck Stamp Conservation and Design 
Program Act of 1994, H.R. 2821, the North American Wetlands 
Conservation Council Expansion Act and H.R. 1775, Estuary 
Habitat Restoration Partnership Act.
    The first bill, H.R. 2496, has been introduced by our 
friend and Subcommittee Colleague, Congressman Solomon Ortiz of 
Texas. This bill would reauthorize the Junior Duck Stamp 
Conservation and Design Program Act. This innovative idea was 
first enacted in 1994 and it has allowed thousands of school 
children from kindergarten to high school to participate in a 
nationwide wildlife art contest. This program has also 
motivated students to take an active role in learning about and 
conserving our nation's wildlife resources. This measure does 
not make any significant changes in the underlying Act but it 
will extend the annual competition, the marketing of these 
stamps and the awards program for an additional five years.
    The second bill, H.R. 2821, has been recently introduced by 
the two House Members who serve with great distinction on the 
Migratory Bird Conservation Commission. This proposal by our 
colleagues, Congressmen John Dingell and Curt Weldon, would 
increase from three to five the number of non-governmental 
representatives that may serve on the North American Wetlands 
Conservation Council. This Council has been instrumental in 
approving hundreds of worthwhile conservation projects that 
have saved over 32 million acres of essential wetlands in 
Canada, Mexico and the United States.
    Finally, H.R. 1775, to catalyze estuary restoration and 
coordinate Federal estuarine activities. This is an excellent 
bill, and this action is long overdue from the Federal 
Government. I am a cosponsor of this measure, and I commend Mr. 
Gilchrest for his leadership on this issue. I remain committed 
to attacking the problems facing this nation's estuaries and to 
restoring degraded coastal habitat.
    Over a decade ago, Congress created the National Estuary 
Program to address serious environmental problems in estuaries 
of national significance. These problems include polluted 
runoff, habitat loss, development pressure, and harmful algal 
blooms. Unfortunately, despite a significant amount of 
planning, very little effort has been made to implement 
comprehensive conservation and management plans or to actively 
restore the most seriously degraded estuarine areas. I am 
pleased that today we are taking positive steps to improve this 
unacceptable situation.

    Mr. Saxton. Without objection.
    Mr.  Faleomavaega. Thank you, Mr. Chairman.
    Mr. Chairman, again, I want to thank and commend you for 
holding the hearings to consider the bills that are now before 
the Subcommittee.
    I certainly look forward this morning to the hearing and 
especially appreciate that you have rescheduled for two days of 
hearing on H.R. 1775, a bill introduced by our colleague from 
Maryland, Mr. Gilchrest, to facilitate estuary habitat 
restoration. That was postponed last week due to Hurricane 
Floyd.
    Mr. Chairman, consequently, we certainly have a busy agenda 
this morning. To keep things moving along, I will defer at this 
time from formally commenting on H.R. 2496, to reauthorize the 
Junior Duck Stamp Program. Actually, I do approve and support 
very much the proposed bill by our good friend and member of 
this Subcommittee from Texas, Mr. Ortiz, as well as the 
expanding the North American Wetlands Conservation Council by 
two seats.
    I enjoy and welcome our distinguished colleague, Mr. 
Dingell, who is not here yet, but I certainly welcome him for 
hearing and I'm looking forward to his testimony and certainly 
look forward to hearing from our friend from Texas, Mr. Ortiz, 
on his bill.
    Mr. Chairman, on H.R. 1775, again, I commend my good friend 
from Maryland for introducing this legislation. I share his 
overarching concern regarding the continued loss of estuary 
habitats across our nation. Ecologists and researchers estimate 
that we have lost well over 90 percent of the estuary wetlands 
that existed when European explorers first discovered--and I'd 
like to change that word and say the European explorers never 
discovered this part of the world. They landed here on this 
continent 400 years ago. Even though Columbus got lost, Mr. 
Chairman, but they came here nevertheless.
    The estuaries, such as San Francisco Bay, Puget Sound, Long 
Island Sound and Chesapeake Bay, once renowned for their high 
ecological productivity, are now mere vestiges of their former 
selves.
    To restore past ecological abundance is to begin to 
understand how much we have all lost and, most importantly, how 
far we must go to restore what has been despoiled.
    Mr. Chairman, the decline in estuary habitat has been well 
documented in the scientific and resource management literature 
for over 30 years. We are now beginning to see what this loss 
means to the environment, expressed through the declines in 
commercial fisheries, saltwater intrusion, coastal aquifers, 
and shoreline erosion and subsidence threatened, even private 
property.
    A loss of estuary wetlands also has contributed to a 
declining water quality in these areas and these habitats serve 
as natural filters for pollutants.
    Mr. Chairman, the impacts are real and should surprise no 
one.
    What does remain surprising is the stubborn insistence of 
some critics in the development and resource extraction 
industries who believe that we can continue to fill in and pave 
over our estuary habitats, somehow believing the ecosystem is 
left unaltered and that our human environment is not 
diminished.
    Simply a charade to contend that this loss of estuary 
habitat, Mr. Chairman, has not had a pernicious impact on both 
our environment and the economy.
    Just ask any unemployed commercial fisherman or an angler 
who has lost his favorite fishing area and he will tell you 
otherwise, or just ask the economists who recently estimated 
the dollar value of services provided at no cost to us by 
various natural environments.
    Estuaries weigh in at $56,000 per acre per year for a 
global total of $4 trillion per year.
    Mr. Chairman, after reviewing the bill, I believe H.R. 1775 
would provide a reasonable balanced approach to help preserve 
remaining estuary habitats and would stimulate practical and 
effective environmental restoration on the local level.
    Particularly, I am pleased that the legislation 
incorporates an administrative structure similar to the model 
currently authorized under the North American Wetlands 
Conservation Act, or NAWCA.
    I believe that the NAWCA model can be adapted successfully 
to administer a national estuary habitat restoration program 
and I will be interested to hear if our other witnesses share 
this view.
    One very important concern that I do have with the 
legislation is that it would exclude the Great Lakes States 
from participation. Plainly stated, Mr. Chairman, the exclusion 
is unwarranted, unnecessary, and perhaps even, I might say, 
unfair. But I do hope, Mr. Chairman and our good friend from 
Maryland, your support of this would add the Great Lakes, as 
well as the other areas that are part of our great nation.
    This bill proposes an artificial distinction that is 
inconsistent within the statutes. For example, the Great Lakes 
are fully recognized under the Coastal Zone Management Act. 
Furthermore, degraded wetlands habitats, wherever they are 
located, are worthy of restoration and should receive equal 
consideration, regardless of whether they are salty or 
freshwater.
    With that said, I would say that my good from Maryland, Mr. 
Gilchrest's legislation is a very good step. I believe that 
with some pragmatic modifications, that maybe we can make it 
even more effective.
    I look forward to working together with the gentleman from 
Maryland and look forward to hearing from our witnesses this 
morning.
    [The prepared statement of Mr. Faleomavaega follows:]

 Statement of Hon. the Honorable Eni F. H. Faleomavaega, a Delegate in 
             Congress from the Territory of American Samoa

    Thank you Mr. Chairman. I look forward to this morning's 
hearing. I especially appreciate that you have rescheduled for 
today the hearing regarding H.R. 1775, Mr. Gilchrest's bill to 
facilitate estuary habitat restoration, that was postponed last 
week due to Hurricane Floyd.
    Consequently, we certainly have a busy agenda this morning. 
To keep things moving along, I will defer at this time from 
formally commenting on either H.R. 2496, which would 
reauthorize the Junior Duck Stamp Program, or H.R. 2821, which 
would expand the North American Wetlands Conservation Council 
by two seats. Mr. Chairman, I join you in welcoming our 
esteemed colleague and avid sportsman from Michigan, Mr. 
Dingell, and I await with interest his comments regarding this 
legislation.
    I do have some brief remarks regarding H.R. 1775, and I 
commend my good friend from Maryland for again introducing this 
legislation.
    I share his overarching concern regarding the continued 
loss of estuary habitats across our Nation. Ecologists and 
researchers estimate that we have lost well over 90 percent of 
the estuarine wetlands that existed when European explorers 
first discovered this continent 400 years ago. Estuaries such 
as San Francisco Bay, Puget Sound, Long Island Sound and 
Chesapeake Bay--once renowned for their high ecological 
productivity--are now mere vestiges of their former selves. To 
read historical accounts of past ecological abundance is to 
begin to understand how much we have all lost, and most 
importantly, how far we must go to restore what has been 
despoiled.
    The decline in estuary habitat has been well-documented in 
the scientific and resource management literature for over 30 
years. Worse, we are now beginning to see what this loss means 
to the environment expressed through declines in commercial 
fisheries, salt water intrusion ruining coastal aquifers, and 
shoreline erosion and subsidence threatening public and private 
property. Loss of estuarine wetlands also has contributed to 
declining water quality in these areas, as these habitats serve 
as natural filters for pollutants. Mr. Chairman, the impacts 
are real and should surprise no one.
    What does remain surprising is the stubborn insistence of 
some critics in the development and resource extraction 
industries who believe that we can continue to fill in and pave 
over our estuary habitats and somehow believe that the 
ecosystem is left unaltered, and that our human environment is 
not diminished.
    It is simply a charade to contend that this loss of estuary 
habitat has not had a pernicious impact on both our environment 
and economy. Just ask any unemployed commercial fishermen, or 
an angler who's lost a favorite fishing area, and they will 
tell you otherwise. Or just ask the economists who recently 
estimated the dollar value of services provided--at no cost to 
us--by various natural environments. Estuaries weigh in at 
$56,000 per acre per year, for a global total of $4 trillion 
per year.
    After reviewing the legislation, I believe that H.R. 1775 
would provide a reasonable, balanced approach to help preserve 
remaining estuarine habitats and would stimulate practical and 
effective environmental restoration on the local level. 
Particularly, I am pleased that the legislation incorporates an 
administrative structure similar to the model currently 
authorized under the North American Wetlands Conservation Act, 
or NAWCA. I believe that the NAWCA model can be adapted 
successfully to administer a national estuary habitat 
restoration program, and I will be interested to hear if of our 
witnesses share this view.
    One very important concern that I do have with this 
legislation is that it would exclude the Great Lakes States and 
insular areas from participation. Plainly stated, this 
exclusion is unwarranted, unnecessary and unfair, and I hope 
the Chairman and the sponsor will support the addition of these 
areas.
    This bill proposes an artificial distinction that is 
inconsistent with other statutes. For example, the Great Lakes 
States and insular areas are fully recognized under the Coastal 
Zone Management Act. Furthermore, degraded wetland habitats--
wherever they are located--are worthy of restoration and should 
receive equal consideration, regardless of whether they are 
saline or freshwater.
    With that said, Mr. Gilchrest's legislation is a good first 
step, and I believe with some pragmatic modifications, that it 
can be made even more effective. I look forward to working with 
the gentleman from Maryland, and of course with you Mr. 
Chairman, to move this important legislation forward in the 
process.

    Mr. Saxton. I thank the gentleman for a very thoughtful 
statement. Just to amplify on what the gentleman just said, it 
was just a day or so ago that we were successful in adding 
several thousand more acres to the Coastal Barriers Resources 
system and we thank you for your cooperation, and I say that 
from the bottom of my heart, as you know.
    Mr. Ortiz.

 STATEMENT OF HON. SOLOMON ORTIZ, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman. I want to thank you and 
the Ranking Member for having this hearing today and for 
including the Junior Duck Stamp legislation on the agenda.
    I had the honor of sponsoring the Junior Duck Stamp 
Conservation and Design Program Act back in the 103rd Congress, 
when I was a Subcommittee chairman of the Merchant Marine and 
Fisheries Committee.
    The purpose of the program, as specified in the law, is to 
provide elementary and secondary school students with 
educational opportunities relating to the conservation and 
management of migratory birds. The program is also intended to 
increase the capacity for schools, states and other educational 
programs to conduct conservation and education programs.
    As I was preparing for this hearing, I was pleased to hear 
the progress that has been made with this program. I am sure I 
am not the only person here who knows the importance of 
programs of this type to the future of our nation.
    As economic and population growth continues and 
increasingly impacts our environment and natural resources, we 
have to work harder to find ways to preserve both our world and 
our standard of living. I would agree, solutions to these types 
of problems begin with knowledge and understanding and these 
begin with, of course, education.
    This is where the benefits of programs such as the Junior 
Duck Stamp Program will be embraced by society. I am proud to 
be a part of the program that reaches out to grade school 
students to teach an appreciation for environmental science and 
habitat conservation, while also rewarding hard work and effort 
with support for continuing education.
    I can see how this is a great tool to help educate students 
who have not had the opportunities that some of my colleagues 
and I have had to spend time in nature and develop an 
appreciation of our resources and their management.
    I thank our witnesses for being with us today and look 
forward to hearing their testimony. Again, Mr. Chairman, I 
thank you.
    Mr. Saxton. I thank the gentleman. I would now like to 
introduce someone who truly needs no introduction, Mr. John 
Dingell, one of our most outstanding conservationists in the 
House, who is here to discuss the North American Wetlands 
Conservation Council Act of 1999.
    My good friend, John Dingell, if you would take your place 
and proceed as you are comfortable, sir.

  STATEMENT OF HONORABLE JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. I thank you, Mr. Chairman, for the outstanding 
work of this Subcommittee. I feel very comfortable because I've 
spent a lot of time here in this room, both as a member of the 
Merchant Marine Fisheries Committee, which was just referred to 
by my good friend Mr. Ortiz, and, also, as a member of the 
Commerce Committee.
    This is indeed the home of great conservation legislation 
and it has a proud history both in earlier days and also under 
your leadership, and I'd like to say how pleased I am to see my 
old friend Mr. Faleomavaega here and to have an opportunity to 
listen to him and to you, and, also, to my friend Mr. Ortiz.
    I have a lengthy statement, Mr. Chairman, which I, with 
your permission, would like to insert into the record. It is on 
H.R. 2821, and I will try to summarize briefly the purposes 
behind that particular legislation.
    You might be inquiring as to why it is I suggest a change 
be made. The legislation is a surprisingly important piece of 
legislation. In fact, NAWCA has been an enormous success. It's 
funded 629 projects between 1991 and 1999.
    It's helped to restore, enhance or help approximately 34 
million acres across this continent to achieve higher levels of 
conservation and wildlife use values.
    It's triggered a ratio of partner-to-government 
contributions in which $2.50 of private money have matched 
every public dollar that has been spent. This investment is 
triggered by something which tends to indicate success. The 
Council which handles this is a nine-member panel. This 
legislation would increase it to 11.
    The reason is, of course, that we're finding that in 
success and in matters where conservation is vitally concerned, 
there is a desire for a large number of organizations to 
participate and a desire on the part of the Administration to 
see to it that--and that would be true of any Administration--
that the benefits are achieved by sharing the participation in 
the business of the Council and representation on that Council 
rather broadly.
    Two very distinguished organizations which have worked very 
hard on this panel were scheduled to be dropped, the Ducks 
Unlimited and also the Nature Conservancy. These are two 
institutions that put hundreds of thousands, indeed millions of 
dollars into this program and into other land conservation and 
wildlife conservation programs.
    I think that it would be unwise to drop them. I'm told that 
now Ducks Unlimited is going to be reappointed, although I've 
not heard of this, but officially, and that the other 
organization is not seeking at this time particular membership 
on the Council.
    Very frankly, it seems to me that if we need additional 
representation on the Council and additional participation to 
expand not only the membership, but the opportunity of 
different organizations to serve here and to become 
participants and enthusiastic participants in the program, it 
would appear that we should, however, at the same time, keep 
both the Nature Conservancy and Ducks Unlimited, because of the 
sterling reputation they have and because of the superb work 
they have done in participation in particularly the 
conservation of lands, but also conservation of wildlife and 
specifically in areas involving wetlands, migratory birds and 
things of that sort.
    So the legislation is really very simple. It will ease the 
pressure in the Administration to cut off those who are serving 
well and very, very effectively, in the best traditions of 
wildlife conservation, while, at the same time, affording them 
the opportunity to appoint several new members to the 
Commission, which would be, in that fashion, very beneficial to 
all.
    I would observe that my good friend, Mr. Weldon, who serves 
with me on the Migratory Bird Commission, which works very 
closely with this panel and indeed approves the projects that 
they recommend, or disapproves, and we haven't disapproved any, 
is also a co-sponsor of the legislation and feels, as I do, 
that we need to move forward to expand the capability of the 
Commission to do the things that it needs to do in terms of 
encouraging public participation by private citizens and 
private organizations in the conservation of wetlands under the 
North American Wetlands Conservation Council Expansion Act of 
1999.
    I want to commend this Committee and you, Mr. Chairman, for 
the fine leadership you've shown in matters of this kind. I 
hope that you will not consider that I'm wasting the time of 
this Committee by bringing to you a relatively piddly matter. I 
would observe that small matters oft times are very important 
to greater successes and this appears to fall into that area.
    So with those remarks, Mr. Chairman, I thank you for your 
courtesy, the great work that you and the Committee are doing, 
and for permitting me to appear here this morning to share 
these thoughts with you and for your consideration of this 
bill.
    [The prepared statement of Mr. Dingell follows:]

 Statement of Hon. Hon. John D. Dingell, a Representative in Congress 
                       from the State of Michigan

    Mr. Chairman, I recently introduced H.R. 2821, the ``North 
American Wetlands Conservation Council Expansion Act of 
1999.''I want to thank you and your Subcommittee staff for your 
generosity in granting a hearing on this legislation so 
quickly. I hope that H.R. 2821 might remain on a swift course 
so that the great benefits of the North American Wetlands 
Conservation Act (NAWCA) will be fully employed to conserve 
more wildlife habitat.
    This legislation would make a modest improvement to a 
conservation law that has successfully saved wetlands 
throughout the United States, Canada, and Mexico during the 
past decade. The North American Wetlands Conservation Act was 
signed into law in 1989 in response to the finding that more 
than half of the original wetlands in the United States had 
been lost during the past two centuries. Congress recognized 
that protection of migratory birds and their habitats required 
long-term planning and coordination so that our treaty 
obligations to conserve these precious species would be met.
    The purpose of NAWCA is to encourage partnerships among 
public and non-public interests to protect, enhance, restore 
and manage wetlands for migratory birds and other fish and 
wildlife in North America. NAWCA has been a tremendous success, 
funding 629 projects between 1991 and 1999, helping to restore, 
enhance or help approximately 34 million acres across our 
continent. Most impressive has been the ratio of partner-to-
government contributions, which has been about $2.50 for every 
public dollar invested.
    A little more than one year ago I first learned of the Fish 
and Wildlife Service's desire to promote change in the NAWCA 
program when the agency announced its intent not to reappoint 
two non-governmental organizations that played key roles in 
making NAWCA a cornerstone of American conservation success. I 
was greatly concerned that any replacement of Council members 
under NAWCA should not serve as a disincentive to continued 
active participation in meeting the Act's goals.
    I inquired of the Fish and Wildlife Service why it was 
attempting to replace existing Council members. The Fish and 
Wildlife Service informed me that it sought to ensure more 
diversity on the Council. One organization chose to leave the 
Council, I was informed. The other chose to continue to seek 
reappointment. Recently my office region's quality of life and 
recreational value. The Bay Area economy is driven by 
industries that are located in the Bay Area because they choose 
to be here--and they choose this reason because valuable 
employees appreciate the quality of life in the Bay Area.
    As species such as the Delta smelt and the winter run 
Chinook salmon have been protected under the Endangered Species 
Act, water users, including the East Bay Municipal Utilities 
District and the Contra Costa Water District have faced 
increasing restrictions on their ability to take water from the 
Delta. Restoring habitat is not the entire answer to this 
fisheries and ESA crisis, but it is a part of the solution. If 
we can restore habitat and ecosystem health, it will have 
direct benefits for local residents and the state's economy.
The Region and the State of California Understand the Need For 
Estuary Restoration

    There is a regional consensus in California that the 
restoration of habitat in the Bay-Delta Estuary should be a 
major priority. The state is already making funding available 
for the restoration of habitat in the Estuary, through 
Proposition 204, in 1996. This year, Governor Davis just signed 
a budget with $10 million for a new San Francisco Bay 
Conservancy--with a major focus on habitat restoration.
    Save The Bay is taking a leadership role to restore 
wetlands habitat, working with other regional and local 
environmental organizations, private and public conservancies, 
farmers, landowners and other constituency groups, promoting 
policies that encourage restoration, and building alliances and 
partnerships to advance restoration throughout the region.
    We have also learned in the Bay Area that habitat 
restoration can help solve some of our dredging needs. Several 
years ago, for example, the Port of Oakland, with the support 
of environmentalists, fishermen and state and Federal agencies, 
used millions of cubic yards of clean mud dredged from its 
channels to restore wetlands at a site called Sonoma Baylands. 
This project has been cited as a national model of cost-
effective sustainable development. However, restoration does 
cost somewhat more than the old practice of dumping all of this 
material in the Central Bay. There are several other similar 
projects under development. Funding from H.R. 1775 could be 
invaluable for advancing this work.
    Last year, another wetland restoration project was 
dedicated in the North Bay, affecting 300 acres of wetlands at 
Tolay Creek in the North Bay. What made this project 
particularly interesting was its broad support from 
environmentalists and farmers. Environmentalists and farmers in 
California often fight over water and wetlands issues. However, 
this restoration project helped farmers resolve permitting 
issues that had troubled their levee maintenance work. H.R. 
1775 would provide for cooperation with private land owners to 
solve environmental problems that, if left unaddressed, could 
threaten the environmental and economic health of the Bay Area 
and many other coastal areas around the nation.
    This legislation can be a catalyst for estuary restoration, 
eventually providing over $75 million per year of new Federal 
resources to achieve an actual increase of one million acres of 
habitat by 2010. It will also give local communities and our 
organizations a real voice in shaping restoration projects 
through voluntary efforts and public-private partnerships. It 
recognizes the value of watershed planning efforts and 
voluntary efforts by citizens groups helping with actual, on-
the-ground restoration, and makes these a priority for funding. 
It will also improve coordination among Federal programs and 
agencies, and streamline their efforts to collaborate.
    H.R. 1775 provides funding through the Army Corps of 
Engineers--and this bill could be one of the most important 
statutory efforts to reform the Corps' practices and shift its 
mandate and mission toward restoration. The Corps itself has 
said that it wants one third of its budget devoted to 
restoration within five years.
    In case anyone wonders why we need funding through this 
bill, given the existing Federal funding for CALFED, it is 
important to underscore that CALFED's funding authorization 
expires this year. The CALFED Ecosystem Restoration Program 
also does not include the entire Bay, instead emphasizing the 
Delta and upstream areas. The lower reach of the estuary needs 
more attention, and this bill would help meet that need. While 
we work to renew the CALFED funding authorization, we need H.R. 
1775 to help build a national constituency for estuarine 
restoration. Not only is that appropriate, but it will help 
maintain the Federal presence and effort to restore our estuary 
over the long term.
    All of these factors explain for the bill's broad support 
among local organizations around the nation, and among the 
Federal agencies themselves.
    We deeply appreciate the efforts of Representatives 
Gilchrest and Tauscher to work for preservation and restoration 
of our nation's estuaries, and we encourage you and all members 
of the House to swiftly pass this legislation.
    Thank you for your consideration.

    Mr. Saxton. Thank you very much. And, believe me, we don't 
think that you are wasting our time in any way, shape or form. 
When we have a program that works as well as this one does, 
where we appropriate a dollar and it turns into two or three 
because of contributions that interested parties make, 
certainly this is in no way, shape or form a waste of time, and 
we thank you for being here.
    I would just say that my inclination is just to say, at 
this point, that people who are involved in this program make 
these contributions and if we can get more people interested 
and involved in the program to make more contributions, so much 
the better.
    So I don't have any questions at this time, but I would 
like to commend you for your forethought and bringing this 
matter to our attention, and we intend to move forward with it 
as expeditiously as possible.
    Mr. Dingell. Thank you, Mr. Chairman.
    Mr. Saxton. Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I, too, would 
like to associate myself with your comments made earlier 
concerning Mr. Dingell's statement. Perhaps, just for the 
record, to my good friend from Michigan, my own personal 
welcome for him to testify this morning.
    As you well know, Mr. Dingell, the Department of the 
Interior did something very funny last year and, perhaps for 
the record, if you could explain to the members of the 
Committee, this rotation consecutive appointment seems to have 
done something to the way the law had originally constituted 
the membership of the Council.
    Can you share with the members of the Committee how this 
has affected your decision, with Mr. Weldon, to introduce this 
legislation, to increase the membership?
    Mr. Dingell. Yes, I will, and I thank you for that 
question. Originally, there were to be three private 
organizational members, which would be generally representative 
of the conservation community.
    It was to derive the benefit of their expertise, to achieve 
the benefit of their support, and also to encourage their 
participation and that of others in the conservation community 
and program, which, as mentioned by the Chair, has been 
enormously successful because it brings in about $2.50 worth of 
private money for every dollar we spend of Federal money, and 
people are confident that this program is saving money because 
the areas are held under long-term contract and have the 
prestige of being denominated as essentially government or 
quasi-governmental undertakings. So people are comfortable 
giving money to carry these programs forward.
    What has transpired is that the success of this has led the 
Secretary, and I think in a proper exercise of his judgment, to 
say, well, we want to spread the opportunity for responsible 
organizations around, to permit them to serve on this panel.
    This would have the practical effect, and I agree with it, 
of increasing the support that is out there in the society 
generally, particularly in the organized conservation 
community.
    Having said that, at the same time, however, we drop the 
two organizations that participate most extensively and in 
terms of the largest contributions, in terms of money and time 
and manpower and so forth: Ducks Unlimited, which is an 
extraordinary organization, a great treasure, and the Nature 
Conservancy.
    Their purposes are slightly different, but they're all 
geared to buying land and at conserving and preserving the 
wildlife resources and the other environmental values.
    So I find that the two purposes, the purpose of seeing to 
it that we encourage the participation by those who do the 
most, is somewhat at war with the idea of spreading it around 
to attract greater public attention and greater public support.
    This is an attempt to meet the concerns of the Department, 
to see to it that we do keep the big givers and the people who 
do the most in a position where they can continue to do that 
and enthusiastically support it, while, at the same time, 
affording the Secretary the opportunity to provide some 
additional recruitment of public support for the program.
    I think that in that particular, this is a pretty good 
compromising resolution for the difficulty that we confront and 
it doesn't make it so big that we run into social problems 
inside the institution.
    Mr. Faleomavaega. I thank the gentleman for a very 
comprehensive explanation, and I do support the gentleman's 
bill, by the way. Thank you.
    Mr. Dingell. I thank my good friend and I would say to him 
hoya ah.
    Mr. Faleomavaega. I think the Chairman probably doesn't 
know what that means, but maybe one day when you come see the 
South Pacific, we will share with him the meaning of those 
words.
    Mr. Dingell. We will sing him a song.
    Mr. Faleomavaega. Thank you.
    Mr. Saxton. Thank you very much. Mr. Ortiz.
    Mr. Ortiz. Mr. Chairman, all I can say is that it's an 
honor to have the dean of the House with us this morning, and I 
think that you have a good bill and I'll support it. Thank you, 
Mr. Dingell.
    Mr. Dingell. I thank you. I'm honored to be here, Mr. 
Chairman. You are three distinguished members and we all have 
large reason to be grateful to all of you for your leadership 
and for your hard work in these matters. Thank you.
    Mr. Ortiz. Thank you. Thank you, Mr. Chairman.
    Mr. Saxton. We want to thank you for being here this 
morning, John. Your testimony is much appreciated.
    We will now move on. I will now introduce the second panel. 
We have with us Tom Melius, the Assistant Director of External 
Affairs at the U.S. Fish and Wildlife Service.
    I just would like to say, as a reminder, that the five-
minute rule, of course, is in effect. Your testimony will be 
included in its entirety for the written record, and I now 
recognize Tom for his statement.

   STATEMENT OF TOM MELIUS, ASSISTANT DIRECTOR FOR EXTERNAL 
  AFFAIRS, FISH AND WILDLIFE SERVICE, U.S. DEPARTMENT OF THE 
                            INTERIOR

    Mr. Melius. Thank you, Mr. Chairman. My name is Tom Melius, 
Assistant Director for External Affairs for the Fish and 
Wildlife Service, and I appreciate the opportunity to appear 
today to discuss the first two bills at this hearing.
    The Fish and Wildlife Service strongly supports H.R. 2496, 
the reauthorization of the Junior Duck Stamp Conservation and 
Design Program, which was introduced by Congressman Ortiz. H.R. 
2496 would reauthorize the administrative expenses for the 
Junior Duck Stamp Program at $25,000 for Fiscal Years 2001 
through 2005.
    In 1989, the Junior Duck Stamp Program was developed 
initially by the Service with a grant from the National Fish 
and Wildlife Foundation. The program was sanctioned and 
expanded by Congress in 1994.
    This program is designed to offer young people from 
kindergarten to high school the opportunity to learn about 
wetlands, water fowl and wildlife conservation through their 
participation in an integrated curriculum of environmental 
science and the arts.
    The highlight of the program is the annual Junior Duck 
Stamp contest. All 50 states and the District of Columbia 
participate. The Service owes a great deal of appreciation to 
the volunteers who assist with this program. These volunteers 
are responsible for many activities, such as receiving and 
recording the art and selecting the contest sites annually.
    The Service believes the Junior Duck Stamp Conservation and 
Design Program plays an important role in the education of our 
youth, for it instills in them a strong environmental 
conservation ethic. Currently, over 100,000 young people in the 
public, private and home-school programs participate. The 
Service strongly supports adoption of H.R. 2496.
    The next bill, H.R. 2821, the North American Wetland 
Council Expansion Act, introduced by Congressman Dingell and 
co-sponsored by Congressman Weldon, amends the North American 
Wetland Conservation Act to expand the Wetlands Council by 
adding two additional non-governmental organizations to the 
nine-member group.
    The North American Wetland Conservation Act provides 
matching grants to private and public organizations and 
individuals who have developed partnerships to carry out 
wetland conservation projects in the United States, Canada and 
Mexico.
    From 1991 through March 1999, over 900 partners have been 
involved in 684 projects, supported with over $287 million in 
Federal funding and total partner contribution exceeding the 
$272 million figure, a ratio of $2.5 for every one dollar of 
Federal funding, a very great leverage.
    The North American Wetland Conservation Act also directs 
the Secretary of the Interior to appoint state and non-
government agencies to the nine-member council, with permanent 
seats for the Director of the Fish and Wildlife Service and a 
representative from the National Fish and Wildlife Foundation. 
The states are represented by state directors from four of the 
states representing the four flyways.
    The three NGO organizations are required to be active 
participants in wetland conservation projects. Both the states 
and non-governmental members are appointed to serve three-year 
terms.
    The North American Wetland Conservation Act is one of the 
most successful and non-controversial Federal conservation 
laws, mainly due to the partnerships that have been formed for 
on-the-ground restoration efforts. The Council embodies these 
successful partnerships and represents the broad-based 
coalition of interests committed to the protection of wetlands 
and migratory birds.
    For these reasons, the Service does not believe the Council 
needs to be expanded to meet its current mission. However, 
should Congress expand the mission of the Council, as has been 
discussed, in conjunction with the debate on the Neotropical 
Migratory Bird Conservation Act, then the addition of two 
members may bring additional new expertise and perspective to 
the Council.
    The Neotropical Migratory Bird Conservation Act, which the 
Senate passed in April of 1999, and is awaiting floor action in 
the House, as well as a bill very similar that was passed out 
of the Resources Committee, establishes a grant program to 
provide assistance in the conservation of neotropical migratory 
birds.
    The legislation encourages the Secretary of the Interior to 
establish an advisory group to provide guidance in implementing 
a grants program. If that legislation is enacted, the Service 
intends to designate the North American Wetland Council as the 
advisory group for that program.
    This program would bring the expertise and experience of 
the Council to the full range of needs of neotropical migratory 
birds. Recognizing this opportunity, the Service believes that 
if the Neotropical Migratory Bird Conservation Act were 
enacted, expanding the Council to include additional non-
governmental groups with expertise in Latin America and the 
Caribbean and neotropical migratory bird conservation, it would 
make sense to enhance the Council's current expertise and 
representation.
    The Service looks forward to working with Congressman 
Dingell and the Subcommittee to explore these opportunities to 
fulfill all needs of migratory birds, including neotropical 
migrants, water fowl and others.
    This concludes my statement and I would be pleased to 
answer any questions the Committee may have.
    [The prepared statement of Mr. Melius follows:]

Statement of Thomas O. Melius, Assistant Director for External Affairs, 
       U.S. Fish and Wildlife Service, Department of the Interior

    Mr. Chairman, I am Tom Melius, Assistant Director for 
External Affairs for the U.S. Fish and Wildlife Service. I 
appreciate the opportunity to appear today to discuss these two 
Fish and Wildlife Service bills the Subcommittee is 
considering.

H.R. 2496, Reauthorization of the Junior Duck Stamp 
Conservation and Design Program

    The Fish and Wildlife Service strongly supports H.R. 2496, 
which was introduced by Congressman Solomon P. Ortiz. We would 
like to thank Mr. Ortiz for introducing this bill and for his 
continued support of this program.
    H.R. 2496 would reauthorize administrative expenses for the 
Junior Duck Stamp Conservation and Design Program at $250,000 
for fiscal year 2001 through fiscal year 2005. Funds 
appropriated under this program are used for various purposes, 
including salary and travel expenses for the Junior Duck Stamp 
Manager, travel expenses for the Junior Duck Stamp winners and 
their teachers and parents, mailing contest information and 
scholarships and ribbons for contest participants.
    In 1989, the Federal Junior Duck Stamp Conservation and 
Design Program was developed initially by the Service with a 
grant from the National Fish and Wildlife Foundation. The 
program was sanctioned and expanded by Congress in 1994, with 
the enactment of Public Law 103-340.
    This innovative program is designed to offer young people 
from kindergarten to high school the opportunity to learn about 
wildlife conservation through an integrated art and science 
curriculum. The primary focus of the wildlife conservation 
program, which complements the regular environmental education 
curriculum for students, is waterfowl and wetland education. 
The highlight of the program is the Junior Duck Stamp 
Conservation and Design art contest held annually and modeled 
after the successful Federal Duck Stamp. The Junior Duck Stamp 
program experienced a humble start with two states 
participating--California and Florida. Today, all fifty States 
and the District of Columbia participate.
    Each year, as part of their environmental education 
studies, students throughout the Nation submit their designs 
relating to conservation of migratory birds (waterfowl entries) 
to a designated site in their State to be judged by volunteers 
who are versed in art and wildlife. The ``Best of Show'' 
designs in the State are forwarded to Washington, DC, where 
they are judged by a panel of five judges. The first place 
design in the national contest becomes the Federal Junior Duck 
Stamp. The Junior Duck Stamp, which sells for $5, is a 
collectible and is not used for hunting.
    Because of the limited resources, States rely heavily on 
volunteers. These volunteers receive the art, record it, 
prepare the art for display and decide where in the State the 
contest will be held. Following the contest, they prepare the 
art for its return and prepare certificates of appreciation and 
ribbons for contest participants. Without these volunteers, the 
Junior Duck Stamp program could not be the success that it is.
    The Service believes the Junior Duck Stamp Conservation and 
Design Program plays an important role in the education of our 
youth and it instills in them an environmental conservation 
ethic. In 1998, over 42,000 students entered the art contest. 
Educators who have consulted with the Service on the 
development of the Program, estimate that for every student who 
enters the art contest ten other students actually participate 
in the curriculum. In addition, the winning designs are 
displayed at State Fairs, National Wildlife Refuges, art 
galleries, museums, and government buildings, encouraging and 
educating students and the public.
    The Service strongly supports H.R. 2496, and we encourage 
Congress to pass this important legislation to help the Service 
continue providing this educational program for young people.

H.R. 2821, North American Wetlands Council Expansion Act of 
1999

    The Service would like to thank Congressman Dingell and the 
Subcommittee for your continued interest in and support of the 
North American Wetlands Conservation Act (NAWCA) and the work 
of the North American Wetlands Council. H.R. 2821 would amend 
NAWCA to expand the Council by adding two additional non-
govemmental organizations to the nine-member group. While the 
Service does not oppose the bill, we believe it is unnecessary 
because the Council has been working successfully for ten years 
to advance the goals of wetlands and migratory bird 
conservation.

History of NAWCA

    NAWCA provides matching grants to private or public 
organizations and individuals who have developed partnerships 
to carry out wetlands conservation projects in the United 
States, Canada, and Mexico. The law was originally passed to 
support activities under the North American Waterfowl 
Management Plan, an international agreement that provides a 
strategy for the long-term protection of wetlands and 
associated upland habitats needed by waterfowl and other 
migratory birds in North America. NAWCA established a nine-
member Council to review grant proposals and recommend approval 
of qualifying projects to the Migratory Bird Conservation 
Commission (MBCC).
    In 1998, Congress reauthorized appropriations for NAWCA 
through fiscal year 2003, reflecting the strong support shared 
by Congress and the public for the Act's goals. The ceiling for 
appropriations for NAWCA is $30 million per year, and Congress 
has appropriated $15 million for projects in fiscal year 1999, 
the highest level appropriated to date.

Successes of NAWCA

    From 1991 through March 1999, over 900 partners, including 
environmental groups, sportsmen's groups, corporations, farmers 
and ranchers, small businesses, and private citizens have been 
involved in 684 projects under NAWCA. The law requires that 
U.S. and Canadian partners focus on protecting, restoring, and/
or enhancing important habitat for migratory waterfowl and 
other birds. In Mexico, partners may develop training and 
management programs and conduct studies on sustainable use, in 
addition to habitat protection. NAWCA has supported projects 
with a total of over $287 million in Federal funding, and total 
partner contributions have exceeded $727 million. The law 
requires non-Federal matching dollars of 1: 1; however, 
partners have averaged 2.5 dollars for every Federal dollar. 
This tremendous leveraging has enabled well over 8 million 
acres of wetlands and associated uplands to be acquired, 
restored, or enhanced in the United States and Canada, while 
over 26 million acres in Mexico's large biosphere reserves have 
been affected through conservation education and management 
planning projects.

Current Operations of the Council

    NAWCA directs the Secretary of the Interior to appoint 
State and non-governmental agencies to the nine-member Council, 
with permanent seats for the Director of the Fish and Wildlife 
Service and a representative from the National Fish and 
Wildlife Foundation. The States are represented by State 
Directors of Fish and Wildlife Agencies and represent the four 
migratory bird flyways. The three non-govermental organizations 
are required to be active participants in wetlands conservation 
projects. Both the States and non-governmental members are 
appointed by the Secretary to serve three-year terms. The 
Secretary is authorized to appoint one alternate member to the 
Council, who is able to vote if one of the nine seats is vacant 
or a voting member is absent from a meeting. The Secretary is 
also encouraged to appoint ex officio members to the Council, 
who are not voting members but able to participate actively in 
the selection process. Currently one non-governmental 
organization holds this status. Mexico and Canada also have ex 
officio membership and participate in the decisions of the 
Council. The Council meets three times a year to review and 
rank project proposals and is served by staff which provides 
extensive technical advice. The Council recommends projects to 
the MBCC, which has the authority to approve funding for 
projects.
    Over the past ten years, the current nine-member Council 
has successfully collaborated to select the most important 
projects to protect migratory birds and their habitats and 
further the goals of the North American Waterfowl Management 
Plan. Part of the success of NAWCA has been the fair, equitable 
and non-biased way in which the Council has formulated sound 
recommendations to the MBCC. The results speak for themselves. 
NAWCA is one of the most successful and non-controversial 
Federal conservation laws; mainly due to the partnerships that 
have been formed for on-the-ground restoration efforts. The 
Council embodies these successful partnerships and represents 
the broad-based coalition of interests committed to the 
protection of wetlands and migratory birds. For these reasons, 
the Service does not believe the Council needs to be expanded 
to meet its current mission. However, should Congress expand 
the mission of the Council as has been discussed in conjunction 
with debate on the Neotropical Migratory Bird Conservation Act, 
then the addition of new members may bring important new 
expertise and perspectives to the Council.

Neotropical Migratory Bird Conservation

    The Neotropical Migratory Bird Conservation Act, which the 
Senate passed in April 1999 and is awaiting floor action in the 
House, establishes a grants program to provide assistance in 
the conservation of neotropical migratory birds. The 
legislation encourages the Secretary of the Interior to 
establish an advisory group to provide guidance in implementing 
the grants program. If that legislation is enacted, the Service 
intends to designate the North American Wetlands Council as the 
advisory group for this program. This proposal would bring the 
expertise and experience of the Council to the full range of 
needs for neotropical birds that depend on healthy habitat 
throughout their migratory life cycles. Conservation of all 
migratory birds, not only in wetlands but in other important 
habitat areas as well, is already built into NAWCA. The Council 
is fully capable of carrying out this advisory role and has 
indicated its enthusiasm for doing so.
    Recognizing this opportunity, the Service believes that if 
the Neotropical Migratory Bird Conservation Act were enacted, 
expanding the Council to include two additional non-
governmental groups with expertise in Latin America, the 
Caribbean and neotropical migratory bird conservation would 
make sense to enhance the Council's current expertise. The 
Service looks forward to working with Congressman Dingell and 
the Subcommittee to explore these opportunities and fulfill the 
needs of all migratory birds including neotropical migrants, 
waterfowl and others.
    This concludes my written testimony, and I would be happy 
to answer any questions.

    Mr. Gilchrest [presiding]. Thank you, Mr. Melius. I just 
have a couple of questions.
    How much money did Congress appropriate for the Junior Duck 
Stamp Program?
    Mr. Melius. The Junior Duck Stamp Program receives an 
annual appropriation of $250,000 a year.
    Mr. Gilchrest. And how many schools currently receive 
copies or applications or information about the program, public 
and private, and do you target specific schools? Is the country 
blanketed with information? What kind of follow-up do you have?
    Mr. Melius. The latter, as you just mentioned, is more the 
approach that we have taken. We try to blanket the entire 
nation using the database provided to us from the educational 
organizations, so that every school in our nation will receive 
information about how to implement this type of a program.
    Mr. Gilchrest. Is it mailed to the individual schools?
    Mr. Melius. Yes.
    Mr. Gilchrest. Is it the school board that gets the 
information or the actual high school or middle school?
    Mr. Melius. I believe it's through the elementary schools, 
as well as including the high schools, so that we get as broad 
a distribution as we can, because this is a program that does 
involve elementary schools or elementary students, as well as 
high school students.
    Mr. Gilchrest. So it goes to the actual school or to the 
board in that county?
    Mr. Melius. To the actual school itself, I'm told.
    Mr. Gilchrest. So you send out tens of thousands of pieces 
of literature.
    Mr. Melius. A brochure that explains the program, as well 
as then in each state and all states participate, we have a 
state coordinator, a volunteer normally, and we will have 
instructor curriculum, as well as go out and conduct workshops 
to try to get more participation in this program.
    Mr. Gilchrest. How many schools participate, do you know? 
Throughout the country.
    Mr. Melius. I believe that we have approximately 5,212 
schools that are active participants at this time. We have 
approximately 42,000 students that are entering art into the 
contest to be judged annually in each one of the states. 
Winners of each one of these states then is submitted to 
Washington, DC for a national program, where we then judge a 
first and a second and a third place winner.
    Mr. Gilchrest. Is it mostly high school students that 
participate, middle school?
    Mr. Melius. It depends in each state on just where the 
enthusiasm lies with a lot of the volunteers and some of the 
instructors. We have had past state winners that are from 
elementary school, as well as from high schools. Last year, the 
winner was from Dearborn, Michigan and the winner of this 
year's contest, which was just announced a couple of months 
ago, was from Illinois.
    Mr. Gilchrest. Is there certain criteria, water colors, 
acrylic, oil, does that matter?
    Mr. Melius. The criteria of what type of medium they use is 
not really that important. It's more that they are learning 
about the whole water fowl and wildlife experience and 
incorporate some of that into the art that they are producing 
in each one of the states.
    Mr. Gilchrest. Thank you very much. I yield now to Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to thank 
Mr. Melius for his statement this morning.
    I was going through this very beautiful pamphlet or 
brochure about the national wildlife refuge system and I notice 
issues like Guam, like Baker Island, which I don't think 
anybody lives there, and Howland Island, even Rose Atoll, which 
is part of my jurisdiction.
    Is there any particular reason why these areas are not 
included in this legislation? I notice some in Puerto Rico and 
the 50 states are part of the participants of the program, but 
I don't see any reference made to these areas. Hawaii is an 
area, even though it's a state.
    Mr. Melius. I'm not certain of----
    Mr. Faleomavaega. Do you have to have ducks in order to 
qualify to be a participant?
    Mr. Melius. I'm not certain why it was not originally 
included in the '94 bill, as adopted by Congress. Since this is 
a reauthorization, that is something I'm sure could be looked 
into.
    Mr. Faleomavaega. Would the Administration have any 
objection if I do ask my good friend from Texas and others here 
to include the insular areas? Would it be an extra cost in the 
program?
    Mr. Melius. We feel that as many areas that we can get out 
this type of material and participation is just valuable to all 
of us.
    Mr. Faleomavaega. It's not so much the money. It's the 
program. It's the orientation. It's the getting the young 
people of America to appreciate what wildlife is all about, 
especially our appreciation for ducks.
    Am I correct in that?
    Mr. Melius. You're very correct, as well as all water fowl, 
not just only ducks.
    Mr. Faleomavaega. Mr. Melius, we had earlier the statement 
that was made by Congressman Dingell about the proposed bill to 
add two additional members to the North American Wetlands 
Conservation Council. I didn't get the gist of the 
Administrations position. Do you oppose the proposal made by 
the gentleman from Michigan to add two new members to the 
Council?
    Mr. Melius. While we are not opposed to the addition of two 
additional members to the Council, the Administration believes 
that, at this time, under the current mission of the Council, 
there is a very strong balance of representation and that with 
the current policy of trying to rotate members onto that 
Council, that the Council is working very effectively.
    Mr. Faleomavaega. But the Interior Department, when they 
took this position in '98, last year, was this part of the 
authorization of the legislation to allow the Secretary to do 
this consecutive term rotation, whatever it is?
    Mr. Melius. The rotation policy was an effort that I 
believe the Fish and Wildlife Service initiated a year ago to 
try to give better clarity on just how the Council and the 
membership on the Council is going to be implemented.
    Mr. Faleomavaega. Not wanting to put words in your mouth, 
Mr. Melius, but if I hear what you're saying, the 
Administration does not oppose, but really would prefer not 
having two additional members. Am I correct in that?
    Mr. Melius. If Congress is wanting to have two additional 
members, of course, we will work with that in every fashion we 
can. We just feel that the addition of some other areas to the 
Council may be a better thing to consider at this time.
    Mr. Faleomavaega. You say that we have a strong balance, 
but what Mr. Dingell is proposing would make it even better. 
Right?
    Mr. Melius. We're trying to work with the Council to make 
sure that there is a delicate balance kept. If the addition of 
two new members is what the Congress is wanting to do, I'm sure 
we will be able to accommodate that.
    Mr. Faleomavaega. Mr. Melius, you're very--I like that. 
Thank you very much.
    Mr. Gilchrest. Mr. Ortiz.
    Mr. Ortiz. Mr. Melius, thank you for being with us today. 
And I think that you gave a good explanation as to what H.R. 
2496 does. I think that there were some very good questions 
that were asked.
    I guess my question would be, what do you need for us, 
Congress, to do so that we can meet your plans? I know this is 
an exciting program. Many children in the middle schools and 
high schools take advantage of this program.
    What can we do to help you?
    Mr. Melius. Besides just adoption of this bill to keep the 
authorization flowing, I would like to thank you personally for 
the effort you have shown in this. I remember early in the '90s 
specifically having an opportunity to work in this body on the 
old Merchant Marine Fisheries Committee, when the 1994 bill was 
originally drafted, an issue that I was involved with at that 
time.
    So I appreciate your steadfast support of this. Obviously, 
the appropriations are the life blood in allowing us to 
continue and we're very pleased that Congress has been able to 
provide the full authorization or full appropriations at the 
authorization level.
    Mr. Ortiz. Thank you. And I can assure you that I will do 
everything, with my good friend from American Samoa, to 
accommodate him, to work with him, because he's bigger than I 
am.
    Thank you. Thank you very much, Mr. Chairman.
    Mr. Faleomavaega. Would the gentleman yield?
    Mr. Ortiz. I yield.
    Mr. Faleomavaega. Actually, Samoans are very small people. 
Just don't provoke them, that's all.
    Mr. Gilchrest. Thank you. The gentleman from Texas, or the 
gentleman from Puerto Rico.
    Mr. Romero-Barcelo Thank you, Mr. Chairman. I have no 
comments or questions.
    Mr. Gilchrest. We thank the agency, Fish and Wildlife, for 
coming and testifying here this morning. Thank you very much.
    Mr. Faleomavaega. Mr. Chairman.
    Mr. Gilchrest. Yes.
    Mr. Faleomavaega. I just want to ask unanimous consent to 
have the statement by Mr. Frank Pallone be made part of the 
record.
    Mr. Gilchrest. Without objection.
    Mr. Faleomavaega. Thank you very much.
    [The prepared statement of Mr. Pallone follows:]

Statement of Hon. Frank Pallone, Jr., a Representative in Congress from 
                        the State of New Jersey

    Mr. Chairman, thank you for holding this hearing today on 
H.R. 1775, the Estuary Habitat Restoration Partnership Act. I 
know both the Chairman and the sponsor of this legislation have 
a keen interest in seeing our estuaries preserved and protected 
and I commend them for their efforts.
    Estuaries are the richest part of our coastal areas, a 
wealth of biodiversity. They are havens for migrating shore 
birds and nurseries for essential fish habitat. They are 
critical to the survival of many species, which use estuaries 
as protective feeding areas for their young. Estuaries also 
offer vast scientific, educational, and recreational benefits. 
They are often the cultural centers of coastal communities. 
These fragile areas are also especially vulnerable to the 
impacts of over-development and pollution. At the same time, 
many estuary areas play a large role in local and regional 
economies. In New Jersey, the New York-New Jersey Harbor and 
Delaware Bay estuaries are important maritime commerce areas, 
and the Barnegat Bay estuary in the Chairman's district is a 
critical area for coastal recreation.
    H.R. 1775's goal of restoring one million acres of estuary 
habitat by the year 2010 follows the spirit of President 
Clinton's Clean Water Action Plan which calls for an increase 
of 100000 acres of wetlands annually. I would like to hear our 
witnesses' views on the bill's goal of one million restored 
estuary acres.
    I also hope our witnesses today will address the question 
of whether the bill should be expanded to include the Great 
Lakes and territories. I know many members of the Subcommittee 
would like to see the bill expanded, and I am interested in 
hearing what our panelists think about this proposal. Finally, 
I hope our panelists will comment on the council structure of 
the created by H.R. 1775 and the advantages to creating these 
types of partnerships.
    Again, I thank the Chairman and the sponsor of this 
legislation. I am pleased to see this bill move forward and I 
look forward to working with my colleagues to enact this 
legislation.

 Statement of Hon. Wayne Gilchrest, a Representative in Congress from 
                         the State of Maryland

    Good morning., Today the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will be hearing from various 
distinguished witnesses regarding the status of the nation's 
estuaries and, in particular, my bill H.R. 1775, the Estuary 
Habitat Restoration Partnership Act. This is a topic that has 
generated considerable interest this session of Congress, and 
it is my hope that we can come together to pass meaningful 
legislation to assist in the restoration of estuary habitat 
throughout the nation.
    Habitat in estuaries has been degraded or destroyed over 
the past 100 years with little regard for its many economic 
values and quality-of-life benefits. Population growth in 
coastal watersheds; dredging, draining, bulldozing and paving; 
pollution; dams; sewage discharges--these and other impacts 
from human activities have led to the extensive loss and 
continuing destruction of estuary habitat.
    For example, in our coastal states, more than half (roughly 
55 million acres) of wetlands have been destroyed. Specific 
examples include:

        In the Chesapeake Bay, 90 percent of sea grass meadows were 
        destroyed by 1990. Over the last 30 years (1959-89), oyster 
        harvest fell from 25 million pounds to less than one million.
        In San Francisco Bay, 95 percent of its original wetlands have 
        been destroyed and only 300 of the original 6,000 miles of 
        stream habitat in the central valley support spawning salmon.
        70 percent of salt marshes along Narragansett Bay are being cut 
        off from full tidal flow and 50 percent have been filled; and
        Louisiana estuaries continue to lose 25,000 acres annually of 
        coastal marshes, an area roughly the size of Washington, DC;
    For the most part, the loss in each estuary is an accumulation of 
small development projects and other impacts. The destruction cannot be 
blamed on one factor alone, but the cumulative effects of the 
destruction are surprising in extent and severity, amounting to tens of 
millions of acres.
    We can and must coordinate Federal, state and local management 
efforts to protect our estuaries. We must also provide sufficient 
resources for estuary restoration, without which all of our planning 
and coordination efforts are useless. Our estuaries are sick, and 
planning without implementation is like a diagnosis without any 
treatment. If we want to bring estuaries back to health, we need to 
commit the time, money, and creativity necessary to restore the vital 
organs that make estuaries live and breathe.
    H.R. 1775, the National Estuary Habitat Restoration Partnership 
Act, is not about a new layer of Federal bureaucracy--it is about 
coordination of existing estuary restoration efforts. H.R. 1775 will 
complement the efforts of programs like the National Estuary Program 
(N-E-P) and the Coastal Wetland Conservation Grants by providing 
direction to Federal agencies to work together with the states, local 
governments, N-E-Ps, conservation groups, and others to address a most 
critical need--habitat restoration.
    My bill, which has 45 cosponsors, creates a national estuary 
habitat restoration council that will be responsible for reviewing and 
approving project proposals and developing a national strategy to 
identify restoration priorities. The council will consist of the 
Federal agencies that have some responsibility for estuary management--
the Army Corp of Engineers, EPA, NOAA, the Fish and Wildlife Service, 
the Department of Agriculture, and the Department of Transportation.
    The council will also include state government 
representatives from six regional councils from around the 
country. The six regional councils will be responsible for 
identifying restoration priorities for their member states and 
forwarding project applications that address those priorities 
to the national council. Each regional council is made up of 
the governor of each state in the region.
    The Federal agencies will be expected to provide technical 
support to these regional councils in the development of their 
project applications. H.R. 1775 will engage the Federal 
agencies in new capacities to manage and restore this nation's 
estuaries. My bill gives the Army Corps of Engineers the 
responsibility for managing the operations of the national and 
regional councils, and for providing technical assistance on 
project development and implementation. NOAA is charged with 
collecting monitoring data on projects and maintaining a 
database of both successful and not-so-successful projects. All 
of the agencies are called upon to work together to coordinate 
their efforts and target those estuaries that are identified by 
the regional councils as priorities.
    Despite our best efforts, the restoration of estuary 
habitat remains a roadblock to healthy ecosystems in many areas 
of the country. H.R. 1775 proposes a way to focus our efforts 
and to begin targeting specific, regional problems. This will 
be a learning experience. The agencies will need to develop new 
relationships and find ways to work together. With a 
comprehensive monitoring database, future project applicants 
should be able to learn from past project experiences. I see 
great potential for a renewed restoration effort, and I look 
forward to hearing the testimony on this bill.

STATEMENT OF HON. WAYNE GILCHREST, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MARYLAND

    Mr. Gilchrest. Also, today, the Subcommittee on Fisheries 
Conservation, Wildlife and Oceans will be hearing from various 
distinguished witnesses regarding the status of the nation's 
estuaries; in particular, my bill, H.R. 1775, the Estuary 
Habitat Restoration Partnership Act.
    This is a topic that has generated considerable interest of 
this session of Congress, mostly favorable interest, but some 
controversial. It's my hope that we can come together to pass a 
meaningful piece of legislation to assist in the restoration of 
estuary habitats throughout the nation.
    This is going to be a fairly long statement, but I want to 
read it anyway, because it's a really good statement. That 
anything we can do to provide incentive, energy, as politicians 
say, fire in the belly, which I never had for politics, but I 
don't know, it's still here.
    There's a lot of work to be done out there and there's a 
lot of good minds out there to do the work. If we can 
collaborate and coordinate all the various Federal, state and 
local projects, instead of the fragmentation that now exists, 
we can really turn some of this stuff around.
    Habitat and estuaries have been degraded or destroyed over 
the past 100 years, with little regard for its many economic 
values and quality of life benefits. Population growth in 
coastal watersheds, dredging, draining, bulldozing, paving, 
pollution, dams, sewage discharges.
    You know, the dynamic balance of nature has its ebbs and 
flows. Sometimes things are really good; sometimes, if you have 
a volcano explode, it really destroys the landscape. But it has 
a dynamic element to it.
    But with paving, bulldozing, dredging, sewage, there is 
nothing dynamic about that. It's one big massive, dull thud 
that never gets out of the way.
    These and other impacts of human activities have led to the 
extensive loss and continuing destruction of estuary habitat. 
For example, roughly 55 million acres of wetlands have been 
destroyed. In the Chesapeake Bay, we've lost about 90 percent 
of sea grass meadows. San Francisco Bay, 95 percent of its 
original wetlands have been destroyed and only 300 of the 
original 6,000 miles of stream habitat in the Central Valley 
support spawning salmon.
    We've lost 70 percent of the salt marshes in Narragansett 
Bay. Louisiana estuaries continue to lose 25,000 acres of 
coastal marshes annually, An area roughly the size of 
Washington, DC.
    For the most part, the loss in each estuary is an 
accumulation of small projects and other impacts. Let that acre 
go. Let that half-acre go. Let that 20 acres go. And the 
cumulative impact, based on the increase in population, begins 
to become more of a problem, a greater impact.
    We can and must coordinate Federal, state and local 
management efforts to protect our estuaries. We must also 
provide sufficient resources for estuary restoration, without 
which all of our planning and coordination efforts are useless.
    Our estuaries are sick, and all you have to do is go to one 
of them anywhere in the country and you're not going to see a 
vibrant, clean, clear body of water. Our estuaries are sick and 
planning without implementation is like a diagnosis without a 
treatment. We all know what the problems are, but we can't 
quite get out there in any meaningful way--I know the Corps of 
Engineers is doing some work in the Chesapeake Bay on oyster 
reefs. So is Fish and Wildlife, so is NMFS, so are any other 
given agency, but it's tiny little pieces, without much 
coordination.
    I'm not being--casting stones to the agencies, but we need 
something like--you know, we have this funnel, we have this 
massive Federal Government that have pieces of certain projects 
or grants, but it's like a strainer. They don't really get a 
specific problem in any big way.
    What we'd rather do with our legislation is take this--if 
you've ever put--what do you call it--transmission fluid in an 
automatic car, you have this funnel and this long shaft that 
goes down into that tiny little tube. Well, that's what we want 
to do. We want to get all these massive Federal agencies and 
programs and departments where they can target in a significant 
way some projects.
    We'd like, for example, to--the state has a program to 
restore 10 percent of the oyster reefs in about 10 years. Well, 
we think we can do 20 percent of the original oyster reefs in 
10 years or less, if you coordinate all the efforts.
    About 1 percent of the oyster production, harvest, is left 
after 100 years of damming and sewage and cumulative impacts of 
all sorts. Just one percent of the oysters are being harvested 
today of what it was 100 years ago, lost 99 percent of the 
resource.
    We are fragmenting the environment. Everybody in the room 
knows it. And we have a fragmented program to fix it. I'm not 
saying this piece of legislation is going to solve all the 
nation's problems, but I think it would go a long way and it's 
a first really good step in the right direction.
    H.R. 1775, the National Estuary Habitat Restoration 
Partnership Act, is not about--this is important, and I wish my 
colleague from Virginia was here to hear this--but if we can 
get this voted out of this Committee, it will have a great 
impact on the Transportation Committee.
    It's not a matter of a new layer of Federal bureaucracy, 
and there's nothing wrong with bureaucrats, because you're 
related to that system. It is about coordination of existing 
estuary restoration efforts.
    H.R. 1775 will complement the efforts of programs like the 
National Estuary Program, by providing direction to Federal 
agencies to work together with state and local governments, and 
we go on. We have 45 co-sponsors.
    The Corps of Engineers, EPA, Fish and Wildlife Service, 
Department of Agriculture, Department of Transportation would 
be the people who make up this council. The six regional 
councils would be responsible for identifying restoration 
priorities for the member states and forwarding project 
applications that address those priorities to the national 
council.
    Each regional council is made up of the governor of each 
state in the region. The Federal agencies will be expected to 
provide technical support to those regional councils in the 
development of their project.
    We have the Chesapeake Bay program, and I'm sure they have 
similar programs--I know they have similar programs in 
Louisiana, similar programs in San Francisco. The Chesapeake 
Bay program is a good program. There's a lot of good people 
that work there. But there seems to me, and you can correct me 
if I'm wrong, that there's a little bit of--whether it's agency 
overlap or not enough agency collaboration between the Feds and 
the state and local private groups, like the Chesapeake Bay 
Foundation or university scientists, we'd like to get all these 
people together, all these bright minds together and use an 
effective means to specifically target programs that will 
actually restore some of these estuaries that are having 
problems.
    In spite of our best efforts, the need for restoration of 
estuary habitat remains a roadblock to having healthy 
ecosystems in many areas of the country. We hope that this bill 
proposes a way to focus our efforts and to begin targeting 
specific regional problems.
    This is going to be a learning experience. The agencies 
will need to develop new relationships and find ways to work 
together. With a comprehensive monitoring database--and I guess 
I'd like to emphasize that as my last point.
    We want to do good things, but we want to make sure that 
those good things, whether it's restoring SAVs, oyster 
restoration, fish habitat, a whole range of other things, that 
we monitor what we do so that we can improve that process.
    So at that point of preaching to the choir, I'm going to 
yield to my good friend from American Samoa for his opening 
statement.

    STATEMENT OF HON. ENI F. H. FALEOMAVAEGA, A DELEGATE IN 
         CONGRESS FROM THE TERRITORY OF AMERICAN SAMOA

    Mr. Faleomavaega. Mr. Chairman, I want to thank you for 
explaining in great detail some of the provisions contained in 
the proposed bill. And I do want to apologize. I don't know 
what happened, but I would love to be a co- sponsor of this 
proposed bill, because I think, in principal, it has tremendous 
value.
    I think the questions of the estuaries existing in our 
country needs to be deftly looked upon this and whether it be 
organizing or establishing a council similar to what we already 
have in our fisheries management council, I think it's a good 
idea, a principal one, a concept.
    But I do look forward to hearing from our friends from the 
Administration and see what their responses, and I look forward 
to working with you on the provisions of the bill.
    The one thing that I just wanted to raise, and maybe I kind 
of read it too casually, was just that the States of California 
and Hawaii are not included in the regions, unless if I misread 
the provision of the bill. But I don't know why, but I get into 
this position every time when there's a proposed bill.
    The first question I raise is whether Puerto Rico is 
included or whether the insular areas are included. We always 
seem to be faced with these kinds of issues whenever 
legislation is being introduced. With 3.8 million American 
citizens living in Puerto Rico, I know perhaps it was just a 
slight oversight or maybe it was not intended, but I----
    Mr. Gilchrest. If the gentleman would yield.
    Mr. Faleomavaega. I'd gladly yield to the gentleman.
    Mr. Gilchrest. Hawaii and California are included and we 
certainly will ensure that Puerto Rico is included, as well, 
and American Samoa.
    Mr. Faleomavaega. We do have estuaries. I thank the 
Chairman and thank you very much for your explanation, and, 
again, I want to personally welcome our friends from the 
Administration and look forward to hearing their testimony.
    Mr. Gilchrest. The gentleman from Puerto Rico.

 STATEMENT OF HON. CARLOS A. ROMERO-BARCELO, A COMMISSIONER IN 
         CONGRESS FROM THE COMMONWEALTH OF PUERTO RICO

    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I just want to 
welcome the witnesses here today and I'm very glad to be here.
    I will have to excuse myself a little later on, because I 
have another commitment. But I wanted to say that I would like 
to also join the Chairman as a co-sponsor of this bill. It's a 
very important and very timely brought up, and I join with my 
colleague, Mr. Faleomavaega, in requesting to make sure that we 
are also included in the bill.
    Thank you.
    Mr. Gilchrest. We will ensure that before the markup.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    Mr. Gilchrest. Now I would like to introduce our witnesses. 
We have Ms. Sally Yozell, Deputy Assistant Secretary of Oceans 
and Atmosphere, National Oceanic--I'm going to say NOAA; Mr. 
Mike Davis, Deputy Assistant Secretary of the Army for Civil 
Works, Department of the Army; and, Mr. Gary Frazer, Assistant 
Director of Ecological Services, U.S. Fish and Wildlife.
    Thank you for coming this morning. We have a new light 
system, but we also want to make sure that your entire 
statement is read and we're not cut off before we miss any 
important information.
    Ms. Yozell, you may go first.

   STATEMENT OF SALLY YOZELL, DEPUTY ASSISTANT SECRETARY FOR 
    OCEANS AND ATMOSPHERE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Ms. Yozell. Thank you very much. Good morning, Mr. Chairman 
and members of the Subcommittee. My name is Sally Yozell, and 
I'm the Deputy Assistant Secretary for Oceans and Atmosphere, 
at the U.S. Department of Commerce.
    First, let me thank you, Mr. Chairman, for your leadership 
on this legislation and, Congressman Faleomavaega, let me also 
thank you for your leadership particularly in restoration of 
marine areas, such as corals and our great success recently in 
Pago Pago in removing those vessels. So thank you for your 
assistance.
    This hearing comes at a very timely moment. Estuaries and 
fisheries from North Carolina through the Chesapeake Bay and up 
through the New Jersey coast are suffering from the intense 
flooding from last week's hurricane. On Monday, the President 
declared a commercial fishery failure in North Carolina as a 
result of the hurricane.
    We know that oyster beds have been destroyed, other 
shellfish are being contaminated, and we've only begun to 
assess the overall resource damages. Restoration activities can 
play a key role in how well and how quickly we can undo some of 
the damage done from this recent hurricane.
    For example, we can create oyster reefs and create or 
restore coastal wetlands to replace those damaged by the storm. 
Both are important because they help stabilize the bottom and 
serve as a natural filter to minimize the fluxes of sediments 
and nutrients into our coastal waters.
    Today's hearing is very timely under these unfortunate 
circumstances.
    I appreciate the Committee's leadership in focusing on the 
need to protect the nation's estuary and coastal resources. 
Estuaries are an important part of our nation's economic and 
environmental well being. These special coastal places provide 
habitat for many important species, act as a natural water 
treatment system, provide flood control and protection against 
storm damage, and are wonderful recreational areas.
    In fact, estuaries and coastal wetlands provide essential 
habitat for 80 to 90 percent of our recreational fish catch and 
75 percent of the nation's commercial harvests.
    These natural systems, though, Mr. Chairman, as you just so 
eloquently pointed out, are in big trouble and they are 
suffering from many water quality problems, declining habitat, 
et cetera.
    So NOAA supports your legislation, H.R. 1775. NOAA's 
science and expertise in estuary restoration can contribute 
significantly in achieving the goals of this bill, especially 
when we are coupled with the capabilities of all the other 
Federal agencies here and who are also included in the 
legislation.
    You asked me to focus specifically on six areas, so let me 
first comment on those. Regarding the bill's impact on existing 
NOAA restoration programs, I can only say that it will 
compliment our existing suite of activities in a very major 
way, and, in particular, the national council will ensure 
coordination among the federally-sponsored estuary efforts, as 
well as with our partners in the local and state governments.
    Second, regarding the structure of the proposed councils, I 
believe the collaborative approach to restoration fostered by 
the national council will have a great benefit. Although I 
strongly support the involvement of states, local governments 
and constituents, I'm not totally certain that having two 
separate councils is the most efficient way to achieve this.
    Perhaps workshops or advisory panels may be more efficient 
or even ex-officio members will accomplish the goals, but I'd 
like to work with you on that.
    Third, concerning the type of restoration that could be 
conducted, NOAA envisions a broad range of activities, such as 
improvements tidal exchange, dam or berm removals, fish 
passageway improvements, and the establishment of riparian 
buffer zones.
    I would also encourage that the legislation reward the use 
of innovative approaches and recommend that each project 
include a long-term monitoring phase, as this seems to be the 
most effective method to determine success, make corrections 
and advance the science of restoration.
    Fourth, concerning what we see as NOAA's main role in the 
bill, NOAA looks forward to serving on the national council. We 
envision providing the scientific and technical expertise 
gained over many years of involvement in habitat restoration, 
and I endorse the specific role to manage the data collected 
from all of the restoration projects.
    With regard to the funding identified for NOAA to manage 
the monitoring data, it seems adequate. However, I'm not 
confident there is enough funding to support the full range of 
administrative and technical support activities to cover the 
whole Act.
    Fifth, concerning the extent that NOAA participates in and 
coordinates estuary restoration, NOAA is involved in a wide 
range of these activities with other Federal and state 
partners.
    For example, we're part of Louisiana's Coastal Wetlands 
Planning, Protection and Restoration Act, known as CWPPRA, 
which this legislation is closely modeled after. Through 
CWPPRA, we have sponsored 17 projects, totaling over $65 
million.
    NOAA's damage assessment and restoration program, or DARP, 
cooperates with many of our Federal and state partners. It 
restores coastal and marine resources injured by releases of 
oil and other hazardous materials. DARP has obtained more than 
$250 million in settlements and has been involved in over 50 
restoration projects.
    Then we have a new program that is called our community-
based restoration program, and that works with local 
communities to restore coastal habitats using small amounts of 
Federal moneys, and we have, in the last three years, done over 
70 projects.
    Lastly, Mr. Chairman, I was asked about the role NOAA 
anticipates for the National Estuarine Research Reserve System. 
Through state and Federal partnership, NOAA manages 25 
estuarine reserves, totaling over a million acres. To date, 
there has been some limited restoration at these sites, but the 
restoration needs are significant and this legislation would 
help significantly in accomplishing this.
    For example, the Chesapeake Bay Reserve in Maryland is 
working to address erosion and habitat loss. Currently, the 
reserve is evaluating Maryland's policies concerning the 
removal of invasive marsh grasses. The reserves can also serve 
as a scientific baseline where areas of controlled studies can 
be conducted on restoration techniques.
    If I could, I'd like to make just a couple more comments 
with regard to the legislation. First, I would recommend that 
the Great Lakes states (and I'm happy to hear now that the U.S. 
Territories and Commonwealths) should also be included and 
eligible for assistance. They have important estuaries and 
analogous restoration needs.
    I also believe the bill should place greater emphasis on 
the biological significance of restoration, as opposed to just 
share acreage. Often, the greater ecological benefit is derived 
from a small restoration project, not necessarily a larger one.
    As you noted earlier, it's a half-acre here, a full acre 
there, and whatever. Sometimes those can be very beneficial in 
just restoring that small amount.
    And NOAA agrees with you that the priority should be given 
to restoration projects that have area-wide restoration plans 
in place and, also, the strong effect of non-point and point 
pollution programs.
    Lastly, I would like to remind the Subcommittee that 
earlier this year, the President announced his one billion 
dollar Lands Legacy Initiative to expand Federal efforts to 
conserve and restore America's natural resources. The 
initiative included $14.7 million increase to improve the 
reserve system and $22.7 million to fund the existing 
community-based restoration program, which I just mentioned.
    The House Commerce, Justice, State Appropriations mark 
includes only $1.35 million for the NERS program increase, and 
no increased funding for the community-based restoration 
effort. I know that they're going to conference now and I urge 
the Committee please to work with the Appropriations Committee.
    And, Mr. Chairman, I have to say, we believe that the 
Subcommittee has taken a very important leadership role in 
addressing the estuarine restoration issue. NOAA supports the 
bill, H.R. 1775, and I applaud the efforts that have gone into 
developing this important legislation.
    I look forward to working with you and the Committee to 
fine tune this very commendable legislation, and I'd like to, 
if I could, insert my full statement into the record.
    [The prepared statement of Ms. Yozell follows:]

 Statement of Sally Yozell, Deputy Assistant Secretary for Oceans and 
   Atmosphere, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

INTRODUCTION

    Good morning Mr. Chairman and members of the Subcommittee. 
My name is Sally Yozell and I am the Deputy Assistant Secretary 
for Oceans and Atmosphere for the National Oceanic and 
Atmospheric Administration (NOAA). I want to thank you for the 
opportunity to testify today on H.R. 1775, the Estuary Habitat 
Restoration Partnership Act of 1999.

NOAA AND ESTUARY HABITAT RESTORATION

    We appreciate the Committee's leadership in focusing on the 
need to protect the Nation's estuarine and coastal resources. 
Estuaries are an important part of our Nation's economic and 
environmental well-being. These special coastal places provide 
habitat for many important species, act as a natural water 
treatment system, provide flood control and protection against 
storm damage, and are wonderful recreational areas. Estuaries 
and coastal wetlands also provide essential habitat for 80-90 
percent of our recreational fish catch and 75 percent of the 
Nation's commercial harvest.
    These natural systems are in trouble. Estuaries are 
suffering from water quality problems, declining habitat 
quality and, in some areas, significant habitat loss. We 
desperately need to restore these areas to help replace habitat 
that fish, marine mammals and endangered species need to 
survive and prosper.
    Restoration, however, is only part of the answer for 
degraded estuary and coastal habitats. The other part is to 
prevent habitat loss and degradation through sound conservation 
and management programs. Nonetheless, there are many instances 
where restoration is the only viable alternative. We believe 
that NOAA's expert scientific capabilities and experience in 
estuary and coastal restoration programs can contribute 
significantly to achieving the goals of H.R. 1775, especially 
when coupled with the science and expertise of other Federal 
agencies and our state and local partners. As the Nation's 
premier marine and coastal science and management agency, NOAA 
brings together a unique combination of scientific expertise 
and capabilities, a combination which is needed for successful 
restoration of our valuable estuaries and coastal waters.

H.R. 1775 ESTUARY HABITAT RESTORATION PARTNERSHIP ACT OF 1999

    I now would like to focus my remarks on several specific 
issues that the Subcommittee has asked NOAA to address.
        <bullet> How will H.R. 1775 impact existing NOAA habitat 
        restoration programs?
    NOAA believes that H.R. 1775 will serve to complement existing 
habitat restoration programs in a number of ways. The national Estuary 
Habitat Restoration Council will help to ensure coordination and 
cooperation with all federally-sponsored estuarine habitat restoration 
efforts. The estuary habitat restoration strategy called for in H.R. 
1775 should aid in keeping these programs focused on the highest 
priority restoration needs. We also anticipate that some restoration 
projects supported under H.R. 1775 can be designed in such a way as to 
complement those conducted by NOAA. Finally, we recognize that 
restoration science is still quite young and as such, the restoration 
efforts under this bill would enhance this body of science, especially 
if H.R.1775 encourages the application of innovative science and 
technology in its supported restoration projects.
        <bullet> What is NOAA's view on the structure of the proposed 
        councils?
    NOAA believes that a collaborative approach to decision making is 
important. The proposed national Estuary Habitat Restoration Council 
should provide for improved cooperation among Federal agencies. Our 
experience with collaborative efforts such as those being conducted as 
part of the South Florida Ecosystem Restoration Initiative, the Coastal 
Wetlands Planning, Protection and Restoration Act and Coastal America 
programs has demonstrated time and time again that success comes more 
easily when Federal agencies work together.
         NOAA supports the intent of H.R. 1775 to seek out and obtain 
        the involvement of coastal states, estuary and coastal 
        managers, local governments, and constituents in the proposed 
        program. Regional and local involvement in national decision-
        making and priority setting is critical and should be 
        encouraged in any legislation for estuary restoration. However, 
        NOAA is concerned that the formal nature and structure of the 
        proposed Regional Councils could divert limited resources away 
        from restoration projects and slow decision making. We suggest 
        the use of regional or area workshops or advisory panels. 
        Advisory panels are especially attractive in that they could 
        have short or long term durations, depending on the issue or 
        issues being addressed, and the Secretary or Council could have 
        the flexibility to select the appropriate mix of people to 
        serve on the panels. We have had good success with advisory 
        panels in the management and conservation of marine resources 
        and believe that they could help serve the needs of H.R. 1775, 
        as well. Representatives of the regional advisory panels also 
        could serve as ex-officio members of the national Estuary 
        Habitat Restoration Council. We note that an August 11, 1999, 
        Department of Justice letter outlines the Administration's 
        concerns with a potential constitutional problem under the 
        Appointments Clause, and we defer to the Department of Justice 
        regarding this issue.
        <bullet> What types of restoration activities could be 
        conducted if H.R. 1775 is enacted? Habitat restoration 
        activities could include improvement of coastal wetland tidal 
        exchange or reestablishment of historic hydrology, dam or berm 
        removal, fish ladder or other fish passageway improvements, 
        natural or artificial reef/substrate/habitat creation, 
        establishment of riparian buffer zones and improvement of 
        freshwater habitat features that support anadromous fishes, 
        planting of native coastal wetland and submerged aquatic 
        vegetation, and removal of invasive vegetation. Additionally, 
        we recommend that the habitat restoration activities include a 
        significant research component to promote the development of 
        innovative approaches and techniques for estuary habitat 
        restoration. There should be a major monitoring and evaluation 
        phase for all restoration projects, as this is the only way to 
        gauge restoration success and advance the science of estuary 
        restoration.
        <bullet> What does NOAA see as its main role under H.R. 1775? 
        Does the bill provide sufficient funding and direction to carry 
        out these activities?
    NOAA sees its major role in H.R. 1775 as a contributor of the 
science and technology we have gained over the years in habitat 
restoration and in the investigation of our many coastal and estuarine 
ecosystems. Additionally, we see a critical role in ensuring 
coordination of our ongoing restoration programs with those of H.R. 
1775 to minimize redundancies and to complement and capitalize on the 
achievements of all of the programs. We endorse the specific area of 
work specified for NOAA in H.R. 1775 which is to serve on the National 
Council and to directly support restoration efforts through the 
collection and management of data related to the restoration projects.
    The funding as proposed in H.R. 1775 is probably adequate to 
address NOAA's role in establishing a monitoring database. NOAA 
currently is not funded and staffed to adequately support the Councils 
and provide the increased technical assistance that would be necessary 
to meet the needs from partners. We want the majority of funding under 
the bill to go toward on-the-ground restoration activities. However, we 
hope the Congress will provide a reasonable amount of funding to the 
Federal agencies to enable us to effectively implement this Act. We 
support the bill's subdivision of the authorization section, providing 
separate subsections for each of the following: an authorization of 
appropriations for restoration activities; monitoring; and a cap on 
administrative expenses. This is similar to the approach under the 
Coastal Wetlands Planning, Protection, and Restoration Act (CWPPRA).
        <bullet> To what extent does NOAA currently participate in 
        estuary habitat restoration efforts? Which programs are 
        involved and what has the agency done to coordinate its efforts 
        with other agencies?
    NOAA is engaged in a wide range of estuary habitat restoration 
efforts. I will briefly summarize each of the major activities in four 
categories as well as their coordination with other agencies.

COASTAL WETLANDS PLANNING, PROTECTION AND RESTORATION ACT

    The Coastal Wetlands Planning, Protection and Restoration Act 
(CWPPRA) provides funding and support for the restoration, protection, 
conservation and enhancement of threatened wetlands in the Louisiana 
coastal zone. NOAA and the other participating Federal and State 
agencies have the opportunity to plan and implement large-scale coastal 
wetlands restoration projects that are significant on a local and 
national level. Forging partnerships within the State such as with the 
Louisiana Department of Natural Resources and local parish governments 
has proven critical to the success of the restoration projects. It has 
resulted in funding for restoration projects totaling over $65 million 
that are designed to address the rapid loss of Louisiana's wetlands. 
For NOAA and the State of Louisiana, CWPPRA provides the hope of 
sustaining coastal wetlands that are important to the economic, 
recreational and cultural base of the State and region.
    As required by CWPPRA, the U.S. Army Corps of Engineers established 
a Task Force composed of the U.S. Environmental Protection Agency 
(EPA), the Department of Commerce, the Department of the Interior, the 
Department of Agriculture, and the State of Louisiana. The Task Force 
annually prepares and submits to Congress a priority list of wetland 
restoration projects for Louisiana. The site selection process is based 
on the technical merit, cost effectiveness, and predicted wetland 
quantity and quality of the proposed project. The Task Force was 
responsible for the preparation of a comprehensive coastal Restoration 
Plan for the State of Louisiana, which was completed at the end of 
1993. The Plan provides much of the basis for selecting restoration 
projects.
    Each CWPPRA project requires the sponsorship of a Federal agency 
Task Force member for implementation. The Act uses a trust fund, which 
is supported by revenues from tax receipts on small engines and other 
equipment. Of the amount appropriated from this fund, 70 percent (an 
amount not to exceed $70 million annually) is available for wetland 
restoration projects and associated activities in Louisiana. While some 
70 percent of the funds available under CWPRA are dedicated to 
restoring Louisiana wetlands, it is important to note that project 
selection is still based on merit criteria. CWPPRA mandates a cost-
share of 85 percent Federal funds to 15 percent State funds for all 
projects.

RESTORING ESTUARIES THROUGH TRUSTEESHIP

    As a coastal steward and a designated natural resource trustee 
under the Comprehensive Environmental Response, Compensation and 
Liability Act (Superfund), and the Oil Pollution Act, NOAA protects and 
restores marine and coastal resources on behalf of the public. NOAA 
works at hazardous waste sites with the EPA and other clean-up agencies 
to develop remedies to protect coastal resources, and to support 
habitat and human health. NOAA's Coastal Resource Coordination program 
works at approximately 260 hazardous waste sites a year, about 75 
percent of which affect estuaries. Examples of on-going protection and 
restoration efforts in estuarine environments include the Tulalip 
Landfill in Puget Sound in Washington, the Exxon Bayway oil spill in 
the Arthur Kill in New York Harbor, the Apex Houston Oil Spill in Point 
Lobos, California, and the Greenhill oil spill in Louisiana.
    NOAA's Damage Assessment and Restoration Program (DARP) restores 
coastal and marine resources injured by releases of oil and other 
hazardous materials. Since its inception, DARP and its partners have 
generated more than $240 million in settlement funds to restore injured 
coastal resources on behalf of the public from those responsible for 
the damage.
    Through DARP, NOAA is working on a number of damage assessment 
cases in estuarine environments including Lake Barre in Louisiana, 
Commencement Bay in Washington, Narragansett Bay in Rhode Island, 
Lavaca Bay in Texas, and Pago Pago Harbor in American Samoa. By working 
together with responsible parties and co-trustees to collect data, 
conduct assessments and carry out restoration actions, NOAA is able to 
restore a clean and healthy environment as quickly and effectively as 
possible. Most of these restoration projects are completed through 
cooperation with both Federal and state resource trustee agencies. This 
experience has reinforced the importance of partnerships and the 
absolute need to document restoration success for the benefit of future 
restoration efforts.
    NOAA's trustee activities ensure that resources are protected and 
restored following releases of oil and other hazardous materials, which 
results in more productive and diverse estuarine habitat for fish and 
wildlife, cleaner water, and healthier ecosystems.

COMMUNITY-BASED RESTORATION PROGRAM

    In 1996, the NOAA Fisheries Restoration Center formulated the 
highly successful Community-Based Restoration Program (CRP). The CRP 
achieves habitat restoration by engaging communities in local marine 
and estuarine habitat restoration projects. It provides funding and 
technical expertise to restore coastal habitat and partners with local 
constituencies to accomplish meaningful, grass roots projects. In 
addition to seed money, the CRP provides support by leveraging 
expertise and funds from partner organizations. Through these 
partnerships, the program generates funding up to tenfold the original 
Federal investment. Moreover, the program seeks to promote coastal 
stewardship and a conservation ethic among coastal communities.
    The Administration's FY2000 Budget Request includes $22.7 million 
of new funding for the restoration of coastal habitat. Seven million is 
slated for expanding the existing CRP. Almost $16 million is identified 
for implementing habitat restoration on a regional basis through the 
creation of a new, regional habitat restoration program.

NATIONAL ESTUARINE RESEARCH RESERVES

    Realizing the importance of our Nation's estuaries, Congress 
established the National Estuarine Research Reserve System (NERRS) in 
1972 to improve the health of estuaries and coastal habitats. This 
Federal/state partnership has proven successful in managing some of our 
Nation's relatively pristine estuaries. Through the work of expert 
staff, monitoring and education programs and on-site laboratories, NOAA 
has developed innovative partnerships with coastal states in connection 
with 25 Reserves, which have resulted in improved management of nearly 
one million acres of estuarine waters and lands.
    Although the Reserves represent some of the Nation's most valuable 
and relatively undisturbed estuaries, restoration in the Reserves 
around the Nation is still an essential activity to protect these 
biologically diverse areas. To date, many of the Reserves have 
undertaken innovative restoration projects. For example, the Chesapeake 
Bay Reserve in Maryland is working to address erosion and habitat loss. 
Areas of the Chesapeake Bay region are severely eroding from impacts of 
sea level rise. In an effort to deter erosion, the Reserve is currently 
evaluating Maryland's policies concerning the removal of invasive marsh 
grasses, a traditional restoration practice. An evaluation and revision 
of current State policies relating to salt marsh grass management in 
certain regions around the Chesapeake Bay may result from this work. 
The South Slough Reserve near Coos Bay, Oregon, has conducted 
restoration activities at two sites that were experiencing significant 
subsidence and ditch erosion. By redistributing organic material over 
the surface of the marsh, the Reserve was able to restore habitat used 
by salmon and other fish. Indicators of healthy marsh ecosystems were 
monitored at all the restored sites. Further work is being designed to 
examine different techniques for developing tidal channel habitat for 
salmon and other fish.
    To further improve our Nation's estuaries, NOAA and the University 
of New Hampshire established the Cooperative Institute for Coastal and 
Estuarine Environmental Technology (CICEET), which serves as a national 
center for the development and application of innovative technology for 
restoration. CICEET uses the Reserves as living laboratories and is 
currently supporting several projects that apply innovative 
technologies to coastal habitat restoration.

SOUTH FLORIDA ECOSYSTEM RESTORATION

    Another example where large scale habitat restoration will be 
carried out is in South Florida. In July, 1999, the Army Corps of 
Engineers and the South Florida Ecosystem Restoration Task Force 
presented to Congress a $7 billion, 20 year plan to restore more 
natural water flows throughout the South Florida ecosystem. Restoring 
natural flows to the estuaries is the single most important action 
needed to restore the hundreds of South Florida estuaries that have 
been severely damaged over the past century by man-made changes in the 
quantity, quality and timing of freshwater delivery to the coast. The 
proposed plan will restore natural flows to almost all the remaining 
estuaries in South Florida and significantly advance overall 
restoration of these valuable habitats. NOAA played a key role in 
helping shape the restoration plan for South Florida's estuaries and 
other coastal areas. Working with the State of Florida and Federal 
agencies, NOAA will also play a key role in monitoring the progress and 
results of the overall South Florida ecosystem restoration effort, much 
of which will focus on coastal estuaries.

        <bullet> What role does NOAA anticipate for National Estuarine 
        Reserves under H.R. 1775?

    NOAA anticipates that the National Estuarine Research Reserves will 
play an important role in any effort to restore estuaries. The Reserves 
are located in 20 of 29 biogeographic subregions (including the Great 
Lakes), serving as representative areas to conduct research, monitoring 
and education on a number of topics, including habitat restoration. 
Restoration projects undertaken in estuaries in these same regions can 
use the lessons learned from the Reserves to improve restoration 
activities and techniques. National Estuarine Research Reserves provide 
many key opportunities for better estuarine habitat restoration in the 
Nation.
    The Reserves provide lessons in ensuring the long-term success of 
restoration projects by taking watershed issues into consideration. 
Through management plans and other planning mechanisms, restoration is 
not undertaken in areas where activities upstream would cause 
degradation to restoration, thereby jeopardizing the success and 
viability of the projects.
    One of the key opportunities that the Reserve System offers is to 
learn more about which restoration techniques are most effective. The 
ability to use reference locations within the Reserves as a basis for 
comparison--not only for Reserve projects, but also for projects in 
similar estuaries--will strengthen the science of restoration. The data 
sharing and the System-wide monitoring that are characteristic of the 
Reserves provide increased opportunities for useful comparisons within 
the Reserve System and with other estuarine projects.
    H.R. 1775 recognizes that the Reserve System can play an important 
role and build upon their success from past estuarine habitat 
restoration projects by allowing the Council to give priority 
consideration to restoration needs within the Reserve System. This 
priority consideration comes about as part of the guidelines 
established for the Estuary Habitat Restoration Council in selecting 
sites. Since each Reserve develops a management plan that identifies 
restoration priorities, the Reserves qualify for priority consideration 
under Section 107(d)(1) when determining restoration projects.
    Finally, Reserves are owned and operated by the states in 
partnership with NOAA and in cooperation with local communities. This 
Federal-State partnership helps to ensure that state preferences for 
estuarine habitat restoration are properly coordinated and that these 
priorities also incorporate local concerns and issues.

Additional comments on H.R. 1775, the Estuary Habitat Restoration 
Partnership Act of 1999.

    In addition to the questions posed by the Subcommittee, NOAA would 
like to address several other aspects of the H.R. 1775.

        <bullet> NOAA agrees that priority should be given to 
        restoration projects in areas that have area-wide restoration 
        plans currently in place. These plans, which identify 
        restoration goals, sites and priorities, need to be based on 
        sound science to enable scientists to determine which efforts 
        would most benefit the ecosystem and fit best within the 
        socioeconomic conditions of the area.
        <bullet> NOAA supports the priority given to estuarine areas 
        that already have strong and effective programs to manage point 
        and nonpoint pollution and other activities that can adversely 
        impact estuarine areas. These programs will help to ensure the 
        long-term success of the restoration projects.
        <bullet> NOAA strongly suggests that the Great Lake states and 
        the island territories and commonwealths (American Samoa, 
        Commonwealth of Northern Marianas Islands, Guam, Puerto Rico, 
        and the U.S. Virgin Islands) be eligible for assistance as they 
        have important estuarine habitats that need restoration.
        <bullet> Consultation with state Coastal Zone Management 
        programs should be mandatory to ensure consistency with state 
        CZM policies, especially during development of state or local 
        restoration strategies and during reviews of locally or 
        privately sponsored project proposals. Early consultation with 
        state CZM programs will result in a more streamlined process.

CONCLUSION

    In conclusion, as the Nation's primary marine science agency, NOAA 
has the proven expertise and scientific capability to assist in making 
sound decisions about estuarine habitat restoration. The primary lesson 
we have learned from our restoration activities thus far is the 
importance of strong science and long-term monitoring to achieve 
successful estuarine restoration.
    I believe the Subcommittee has taken an important step in 
addressing these significant issues by holding this hearing today. We 
applaud the Subcommittee's leadership and commitment to protecting our 
Nation's estuarine and coastal resources and we look forward to working 
with you.

    Mr. Gilchrest. Thank you, Ms. Yozell. We appreciate your 
testimony. We have a vote on. There's two votes, one 15-minute 
vote and one five-minute vote. We won't be able to finish the 
panel.
    So if you don't mind, what we'll do is we'll go down and 
vote and we'll come right back. So we'll recess for the vote. 
That will give you a little bit of a break and we'll see you 
all in about 20 minutes.
    [Recess.]
    Mr. Gilchrest. The Subcommittee will come back to order. We 
appreciate your patience.
    Mr. Davis, you may begin.

 STATEMENT OF MICHAEL L. DAVIS, DEPUTY ASSISTANT SECRETARY OF 
        THE ARMY FOR CIVIL WORKS, DEPARTMENT OF THE ARMY

    Mr. Davis. Thank you, Mr. Chairman, members of the 
Subcommittee. I am Michael Davis, Deputy Assistant Secretary of 
the Army for Civil Works.
    I am very pleased to be here today to present the 
Department of the Army's views on H.R. 1775.
    For over 200 years, the nation has called upon the Army 
Corps of Engineers to solve many of its water resources 
problems. Historically, the Corps has emphasized its flood 
damage reduction and navigation missions.
    In recent years, however, pursuant to Water Resources 
Development Acts, we have elevated our environmental 
restoration and protection mission to a level equal to our more 
traditional missions. The Corps now uses its engineering, 
project management, real estate and environmental expertise to 
address environmental restoration and protection problems.
    The Corps, in fact, has a powerful toolkit of authorities 
and programs that can be brought to bear to help solve 
environmental problems.
    Over the last decade alone, the Corps has helped to restore 
hundreds of thousands of acres of habitat, benefiting hundreds 
of fish and wildlife species. Examples include 28,000 acres of 
habitat restored along the upper Mississippi River, with 
100,000 acres projected by the year 2005; 35,000 acres of flood 
plain and wetlands restoration under construction today along 
the Kissimmee River in Florida, and hundreds of acres of 
coastal wetlands restored by beneficially using dredge 
material, including an 1,100 acre project in the Chesapeake 
Bay, known as Poplar Island.
    On July 1 of this year, the Army submitted to Congress a 
comprehensive plan to restore the Everglades. The world's 
largest ecosystem restoration project, this plan will help 
restore over 2.4 million acres of wetlands in the south Florida 
ecosystem, as well as improve the health of estuaries and 
Florida Bay.
    Throughout the world, estuarine and coastal areas serve as 
focal points for human use and development. These same areas 
also perform critical functions from an ecosystem perspective. 
Estuaries help protect us from flooding, help maintain water 
quality, and provide habitat and food for a myriad of fish and 
wildlife species, many of them threatened or endangered.
    These coastal environments generate billions of dollars 
annually through such industries as tourism, sport and 
recreational fisheries. There is, in fact, an urgent need to 
protect and restore these fragile ecosystems.
    Recognizing the economic, social, cultural and 
environmental benefits that they provide, we applaud the co-
sponsors of H.R. 1775 for their vision and leadership in this 
area. In particular, Mr. Chairman, we applaud you for your 
leadership.
    If enacted, H.R. 1775 would enhance the Corps' ability to 
restore and protect estuarine habitat. In this regard, the Army 
supports enthusiastically H.R. 1775 and looks forward to 
working with you in enacting such legislation.
    The goal of restoring one million acres of estuarine 
habitat by the year 2010 is consistent with the President's 
Clean Water Action plan goal of restoring 100,000 acres of 
wetlands annually beginning in the year 2005.
    The proposed national framework and the national estuarine 
habitat restoration strategy should help partners identify and 
integrate existing restoration plans, integrate overlapping 
plans, and identify processes to develop new plans, where they 
are needed.
    This framework document could help us maximize incentives 
for participation, leverage our very limited Federal resources, 
and minimize duplication of efforts. We recommend that the use 
of the existing organizational structure of the Coastal America 
Partnership be considered fully. Coastal America has national 
and regional teams already in place and many of the members of 
these teams will be the very same experts that we would need to 
consult under H.R. 1775.
    The legislation is consistent with the Coastal Wetlands 
Preservation, Protection and Restoration Act. This legislation 
has created a unique multi Federal and state agency partnership 
which is working to restore and protect approximately 73,000 
acres of coastal wetlands in Louisiana.
    We are pleased to note that important changes that the Army 
requested at a Senate committee hearing on a companion 
legislation, S. 1222, last Congress, had been incorporated into 
H.R. 1775. These changes limit Federal assistance for each 
habitat project to 65 percent, strengthen and clarify the role 
of the Secretary of the Army, and allow the restoration council 
to consider, where appropriate, non-governmental organizations 
as sponsors for environmental restoration and protection 
projects.
    We do suggest a few additional minor modifications to 
further improve H.R. 1775.
    For example, we urge the Committee to revise the bill to 
make it clear that non-Federal sponsors are responsible for 
providing all lands, easements, rights-of-way, dredge material, 
disposal areas and locations, as is required for all Army Civil 
Works water resources projects.
    We also believe that the Secretary of the Army should make 
the determination regarding the acceptability and evaluation of 
in-kind contributions for local cost-sharing.
    In addition, like my colleague from NOAA, we believe that 
you should consider including the Great Lakes region, which is 
widely recognized as a coastal region of the United States, 
with unique, but very similar problems and opportunities.
    Finally, Mr. Chairman, I would like to briefly mention an 
issue that you are very familiar with, an issue that seriously 
threatens our wetlands resources.
    As a result of a court decision that invalidated the Army 
and EPA Tulloch rule, tens of thousands of acres of wetlands 
will be lost to unregulated drainage and excavation. While we 
recognize that this Committee does not have direct jurisdiction 
over this issue, the Administration feels very strongly that 
H.R. 1775 and any bill designed to strengthen the protection of 
estuarine and coastal habitats should address what is perhaps 
the most serious threat to water quality and coastal and other 
waters of this country.
    Otherwise, the current loophole promises to defeat the 
laudable goals of H.R. 1775.
    Mr. Chairman, last night at midnight, I returned from a 
three-day trip in the panhandle of Florida, where I witnessed 
firsthand the ditching and drainage of thousands of acres of 
what was formerly Cypress Swamp. Not only do we have the direct 
impacts, loss of habitat, which is very valuable to our fish 
and wildlife species, the water draining from this land runs 
directly into Apalachicola Bay, which provides 10 percent of 
the oysters to this country. It's a very serious problem.
    In conclusion, the Corps has been increasingly involved in 
recent years with efforts to protect and restore our estuaries. 
We have enjoyed very much working with you and your staff on 
H.R. 1775 and we look forward to continuing this relationship 
as we both move towards enacting this important piece of 
legislation.
    Mr. Chairman, that concludes my testimony and I'd be 
pleased to answer any questions that you may have.
    [The prepared statement of Mr. Davis follows:]

 Statement of Michael L. Davis, Deputy Assistant Secretary of the Army 
                            for Civil Works

INTRODUCTION

    Mr. Chairman and members of the Subcommittee, I am Michael 
L. Davis, Deputy Assistant Secretary of the Army for Civil 
Works. I am here today to discuss the Army Corps of Engineers 
environmental restoration and protection mission and present 
the Department of the Army's views on H.R. 1775, the Estuary 
Habitat Restoration Partnership Act of 1999.

ARMY CORPS OF ENGINEERS ENVIRONMENTAL MISSION

    For over 200 years the Nation has called upon the Army 
Corps of Engineers to solve many of its water resources 
problems. Historically, the Corps has emphasized its 
traditional mission areas of improving our navigation and 
transportation system, protecting our local communities from 
flood damages and other disasters, and maintaining and 
improving hydropower facilities across the country. The Corps 
environmental activities have expanded over time with major 
changes in environmental law and policy, such as the National 
Environmental Policy Act of 1969, which requires each Federal 
agency to assess fully its actions affecting the environment, 
and the Federal Water Pollution Control Act of 1972 (now called 
the Clean Water Act) in which the Corps was given a major 
responsibility for regulating the discharge of dredged or fill 
material into all of our Nation's waters, including wetlands. 
In recent years, however, pursuant to the Water Resources 
Development Act (WRDA) of 1986 and subsequent WRDAs, the Corps 
has elevated its environmental restoration and protection 
mission to a status equal to its flood damage reduction and 
navigation missions. The Corps now uses its engineering, 
project management, real estate, and environmental expertise to 
address environmental restoration and protection opportunities.
    The Corps has a powerful toolkit of standing authorities 
and programs that can be brought to bear to help solve 
environmental problems. Over the last decade alone the Corps 
has helped to restore hundreds of thousands of acres of habitat 
of many types which benefit thousands of fish and wildlife 
species, Examples include: 28,000 acres of habitat restored for 
the Upper Mississippi River (98,000 projected by 2005); 
hundreds of acres of coastal wetlands restored in Louisiana; 
35,000 acres of restored flood plain under construction as part 
of the Kissimmee River Restoration Project in the Florida; and, 
hundreds of acres of coastal wetlands restored under 
authorities which authorize the Corps to beneficially use 
dredged material for ecosystem restoration.
    On July 1, the Army submitted to Congress a comprehensive 
plan to restore the Everglades, the world's largest ecosystem 
restoration project. This plan will help protect, enhance and 
restore over 2.4 million acres of wetlands in the south Florida 
Ecosystem as well as improve the health of estuaries and 
Florida Bay.
    We are especially proud of our efforts on all coasts in 
conjunction with the Coastal America initiative. Some examples 
of projects where the Corps, using its programs, led multi-
agency, multi-level efforts (Federal, State, local and private) 
include: restoration of a coastal salt marsh area in the 
Galilee Bird Sanctuary, Rhode Island; the initial demonstration 
area for restoration of tidal wetlands in the Sonoma Baylands, 
California; the Sagamore Salt Marsh Restoration, Massachusetts; 
initiation of actions to restore 1100 acres to provide riparian 
and submerged habitat at Poplar Island, Chesapeake Bay, 
Maryland; and, shoreline stabilization and submerged aquatic 
vegetation restoration around Tangier Island in the Chesapeake 
Bay. Our FY 2000 budget request includes study funds for 12 
potential projects directed at protecting or restoring the 
benefits of estuaries, as well as funding for many other 
activities that would be beneficial to the environment in or 
adjacent to our Nation's estuaries.

SIGNIFICANCE OF ESTUARINE AND COASTAL AREAS

    Throughout the world, estuarine and coastal areas serve as 
focal points for human use and development. These same areas 
also perform critical functions from an ecosystem perspective, 
providing habitat and food for myriad fish and wildlife 
species. Estuaries are unique in that they serve as a 
transition zone between inland freshwater systems and uplands, 
and ocean marine systems. There is an urgent need to protect 
and restore these ecosystems recognizing the economic, social, 
and environmental benefits they provide. In this regard, we 
would add as a purpose of the bill the need to promote a 
greater public appreciation and awareness of the value of our 
estuary and coastal resources. As with many environmental 
issues, future generations depend upon our actions today.
    Legislation to expand the authority of the Corps to use its 
unique skills and experience to restore and protect estuary 
habitat would add to the Corps environmental portfolio. Let me 
assure you that the Department of the Army therefore is 
prepared to take a leadership role in reaching the goals of 
H.R. 1775. Army would approach implementation of H.R. 1775 in 
accordance with the policies and procedures which grew out of 
the Water Resources Development Act (WRDA) of 1986, subsequent 
WRDAs, and long-standing partnership and public involvement 
practices.
    Additionally, Army would explore the possibility of using 
the existing organization and structure of the Coastal America 
partnership to jump-start restoration efforts. Coastal America 
has National and Regional Implementation Teams already in 
place, and many of the members of these teams would be the very 
same experts we would consult with under H.R. 1775.

H.R. 1775

    I would now like to focus on the Department of the Army 
views on H.R. 1775. The Department of the Army supports efforts 
to enhance coordination and efficiently finance environmental 
restoration and protection projects. The goal of restoring 1 
million acres of estuary habitat by the year 2010 is in 
consonance with the President's Clean Water Action Plan and the 
goal of a net increase of 100,000 acres of wetlands, annually, 
beginning in the year 2005. We also agree with the 
philosophical basis for the legislation, that estuaries and 
coastal areas are being degraded rapidly, and that there is an 
urgent need to attain self-sustaining, ecologically-based 
systems that are integrated into surrounding landscapes. The 
proposed national framework, or national estuary habitat 
restoration strategy, to be completed at the end of the first 
year, should help partners identify and integrate existing 
restoration plans, integrate overlapping plans, and identify 
processes to develop new plans where they are needed. This 
framework document could help us maximize incentives for 
participation, leverage Federal resources, and minimize 
duplication of efforts. We support the requirement to publish 
the draft strategy in the Federal Register for review and 
comment to enhance public involvement. We believe that the 
legislation is consistent with the National Estuary Program 
(NEP), which was established to manage and protect aquatic 
ecosystems in coastal watersheds, and the National Estuarine 
Research Reserve System, which uses science to improve 
management of estuaries. The NEP strives to protect and restore 
habitat through consensus and initiatives which are community-
based. The legislation also is consistent with the Coastal 
Wetlands Preservation Protection and Restoration Act, a unique 
multi-Federal and State agency partnership which is working to 
restore and protect approximately 73,000 acres of coastal 
wetlands in Louisiana over a 20-year period.
    We are pleased to note that important changes that the Army 
requested at a Senate Committee hearing held on companion 
legislation, S. 1222, last Congress have been incorporated into 
H.R. 1775. These changes limit Federal assistance for each 
habitat project to 65 percent, strengthen the role of the 
Secretary of the Army commensurate with the need for 
accountability for appropriations received, and allow the 
Restoration Council to consider, where appropriate, non-
governmental organizations as sponsors for environmental 
restoration and protection projects. H.R. 1775 is a bill that 
the Department of the Army could support.
    We urge the Committee to revise the bill to make clear that 
non-Federal sponsors are responsible for providing all lands, 
easements, rights-of-way, dredged material disposal areas and 
relocations, as is required for Army Civil Works water 
resources projects. We also believe the Secretary should make 
the determination as to the acceptability and valuation of in-
kind contributions for local cost sharing, rather than the 
proposed Council.
    We urge you to consider expanding the geographic scope of 
the habitat protection and restoration activities proposed in 
H.R. 1775 to include the Great Lakes region, which faces many 
of the same challenges as coastal regions of the United States. 
This coastal region has many ecosystem problems that mirror 
those of more traditional coastal areas and has, for that 
reason, been included as a coastal region in the programs 
authorized under the Coastal Zone Management Act of 1972, as 
amended, and in the Administration's Coastal America 
Initiative. We believe that the addition of a regional council 
representing the Great Lakes region, to include the States of 
Minnesota, Wisconsin, Illinois, Indiana, Michigan, Ohio, 
Pennsylvania and New York, merits serious consideration.
    Many environmental restoration techniques and approaches 
are new, and when dealing with natural systems, there is a need 
to test new ideas, learn from successful and not so successful 
projects, and manage adaptively to adjust to ever-changing 
conditions. Environmental restoration efforts for the 
Everglades, the Upper Mississippi River System Environmental 
Management Program, and the Coastal Wetlands Preservation 
Protection and Restoration Act, all acknowledge, to varying 
degrees, the value of demonstration projects and adaptive 
assessment approaches. Adding to H.R. 1775 a demonstration 
component with a cost share that is consistent with that 
applied to habitat projects, and a requirement for non-Federal 
sponsors to manage adaptively, would encourage the partners to 
try out new ideas and learn more about how to restore and 
protect estuary and coastal areas.
    While we recognize that this Committee does not have direct 
jurisdiction over this issue, it is important to note that the 
Administration feels strongly that H.R. 1775, and any bill 
purporting to strengthen protection of estuarine and coastal 
habitat, should address the most serious threat to water 
quality in coastal and other waters by closing a regulatory gap 
that threatens the loss of tens of thousands of acres of 
wetlands to drainage and excavation each year. This gap, which 
resulted from a court decision invalidating the U.S. 
Environmental Protection Agency and Army Corps of Engineers 
``Tulloch'' rule requiring permits for drainage and 
channelization that affect our Nation's wetland resources, 
promises to defeat the laudable goals of H.R. 1775 unless 
Congress takes prompt action.
    We applaud the co-sponsors of H.R. 1775 for their vision 
and leadership in this area. The Army supports H.R. 1775 and 
looks forward to working with you and your Senate counterparts 
in enacting such legislation.

CONCLUSION

    The Corps has been increasingly involved in recent years 
with efforts to protect and restore the benefits of estuaries 
and their surrounding habitat. The Department of the Army is 
also looking forward to working with the Environmental 
Protection Agency, the Departments of Commerce, Agriculture, 
Interior, and Transportation, and the non-Federal participants 
in the designated coastal regions, to restore and protect our 
nation's estuary habitat. You can be assured that Army Civil 
Works is committed to making partnerships work. Mr. Chairman, 
this concludes my testimony. I would be pleased to answer any 
questions you or the Subcommittee may have.
[GRAPHIC] [TIFF OMITTED] T8806.001

[GRAPHIC] [TIFF OMITTED] T8806.002

[GRAPHIC] [TIFF OMITTED] T8806.003

[GRAPHIC] [TIFF OMITTED] T8806.004

[GRAPHIC] [TIFF OMITTED] T8806.005

[GRAPHIC] [TIFF OMITTED] T8806.006

[GRAPHIC] [TIFF OMITTED] T8806.007

    Mr. Gilchrest. Thank you, Mr. Davis. Mr. Frazer.

STATEMENT OF GARY D. FRAZER. ASSISTANT DIRECTOR FOR ECOLOGICAL 
            SERVICES, U.S. FISH AND WILDLIFE SERVICE

    Mr. Frazer. Mr. Chairman and members of the Subcommittee, 
I'm Gary Frazer, Assistant Director for Ecological Services of 
the U.S. Fish and Wildlife Service.
    The Service supports H.R. 1775 and commends you, Mr. 
Chairman, and the co-sponsors for introducing this important 
legislation. Estuaries provide vital habitat for a great many 
of our nation's fish, shellfish, migratory birds, and 
threatened and endangered species.
    The Service has broad authority and extensive involvement 
in the protection of these important resources. The Service 
administers two grant programs that provide funding to states 
and local organizations to protect and restore coastal habitat. 
In addition, through the national wetlands inventory program, 
the service creates hard-copy and digital maps of all wetlands 
and deep water habitats of the United States, including 
estuaries.
    The Service's primary program for on-the-ground restoration 
and protection of estuaries is our coastal program. Through the 
coastal program, Service biologists provide technical and 
financial assistance in coastal habitat protection and 
restoration to a host of partners, including other Federal 
agencies, states and local organizations. Such partnerships 
facilitate the efficient transfer of funds to on-the-ground 
restoration projects.
    Over the past five years, the Service's coastal program 
partnerships have protected more than 97,000 acres of coastal 
habitats through conservation easements and acquisition. We 
opened almost 2,000 miles of coastal streams for anadromous 
fish passage, restored more than 28,000 acres of coastal 
wetlands, restored almost 16,000 acres of coastal upland 
habitat, and restored 235 miles of coastal stream habitat.
    Such accomplishments have been made possible through 
extensive coordination with other agencies, initiation of 
interagency projects, and active participation with the 
Environmental Protection Agency and state partners in 
implementing fish and wildlife aspects of the national estuary 
program.
    If H.R. 1775 were enacted, the Service anticipates that it 
would support coordinated efforts to carry out larger-scale 
restoration projects, such as restoration of submerged aquatic 
vegetation and oyster reefs in the Chesapeake Bay, removal of 
exotic plants to restore bird habitat in south Florida, 
restoration of salt marshes in coastal Louisiana, restoration 
of coastal wetlands critical to endangered species in Hawaii.
    As the Federal lead for fish and wildlife conservation, the 
Service can bring a living resource focus to the council and 
promote the selection of projects that benefit fish and 
wildlife resources and their habitats.
    The Service biologists can provide assistance and support 
to the regional councils throughout the grant proposal, 
selection, implementation and monitoring processes outlined in 
H.R. 1775.
    The Service's coastal program biologists and joint venture 
coordinators have built trusting relationships with the 
numerous partners in the field and have the delivery mechanisms 
in place to quickly convert grant funds to tangible results.
    The Service can also play an important role in project 
monitoring and determining whether flora and fauna return 
successfully to the restored area, which is the ultimate test 
of whether restoration has truly been accomplished.
    The Committee has asked if we believe that there is 
sufficient funding in the bill for the Service to carry out its 
activities. Our coastal program currently is not funded and 
staffed to adequately support the councils and provide the 
increased technical assistance that would be necessary to meet 
the needs from partners.
    The Service is very sensitive to the issue of more money 
being targeted to support the grants program. We want the 
majority of funding under the bill to go toward on-the-ground 
restoration activities. However, we hope the Congress will 
provide a reasonable amount of funding to the Federal agencies 
to enable us to effectively implement this Act.
    The Service endorses the bill's provision to reauthorize 
the Federal Interagency Chesapeake Bay program, in which the 
Service participates as an advisory member via the coastal and 
fisheries programs, and we also recommend that H.R. 1775 
include the Great Lakes region by creating a seventh regional 
council under section 105 of the bill.
    With these comments and suggestions, the Service believes 
that H.R. 1775 is a valuable bill that will encourage Federal 
agencies to work together and develop partnerships with states 
and communities for estuary habitat restoration. Much of the 
necessary planning has been done, but the improved coordination 
measures and funding authorizations provided in this 
legislation will speed the process of converting such plans to 
tangible, on-the-ground projects that benefit fish, wildlife, 
and the American people.
    We strongly support the spirit and intent of H.R. 1775 and 
look forward to working with Congress to pass the legislation 
this year.
    Thank you. I'll be happy to answer any questions you may 
have.
    [The prepared statement of Mr. Frazer follows:]
    Mr. Gilchrest. Thank you, Mr. Frazer.
    Mr. Davis, just a quick question on restoring the 
Everglades and the Corps of Engineers' area of responsibility.
    How do you restore the Everglades? If you could answer this 
in less than five minutes. How do you restore the Everglades, 
and then is the Corps of Engineers in any way responsible for--
if you restore the Everglades, that means you have to--I would 
assume you have to have some land that will filter out some of 
the water that flows through it, straighten out some of the 
canals or rivers that were--I mean, take away the straight 
arrow shot of some of the rivers, put the curves back in.
    How do you go through this process as far as--I would 
assume there's going to be some easements, there has to be some 
land purchase. There's got to be a great deal done to the 
physical infrastructure in order to implement this restoration.
    Mr. Davis. The answer is yes, if you want a short answer. 
You can really sum up how you restore the Everglades with four 
words. It's the quantity, quality, timing and distribution of 
water. Those four factors are what it's all about.
    We first have to capture some of the 1.7 billion gallons of 
water that goes out to the oceans wasted every day, on average.
    Mr. Gilchrest. Is there a plan to do that now, a strategy?
    Mr. Davis. Yes.
    Mr. Gilchrest. With land purchase?
    Mr. Davis. Yes.
    Mr. Gilchrest. Between the state, private sector, the 
Federal Government and different Federal agencies.
    Mr. Davis. Yes. There's a very extensive land acquisition 
program between the Corps, the Department of Interior, the 
South Florida Water Management District, county governments, 
like Dade County and others, where we're going to literally be 
buying hundreds of thousands of acres of land. In fact, we've 
already bought tens of thousands of acres of land right now, 
setting it aside so----
    Mr. Gilchrest. Are these from willing sellers? Was the 
condemnation process used at all or may it be used in this 
process?
    Mr. Davis. For the most part, the land that's been 
purchased to date has been from willing sellers. I would 
suspect, however, that before it's over, there would be some 
condemnation of land required, but I think for the most part, 
what's been purchased to date has been from willing sellers.
    Mr. Gilchrest. How would this bill, H.R. 1775, and you said 
it would help enhance the Corps' ability to restore estuaries. 
How would it help restore estuaries, H.R. 1775?
    Mr. Davis. First and foremost, I think it sends a signal 
that restoring estuaries would be a national priority, that 
it's something that is important to the nation, that it puts a 
spotlight on these important resources.
    Secondly, it provides an organizing framework, so we can 
all be more efficient. It's not just the Corps. It will help 
all of the agencies, the Federal Government, state level, local 
level, the private sector, the non-profit organizations, help 
us coordinate so that we can very efficiently use our funds.
    We've seen this happen. It's funny that it takes perhaps 
something as simple as some kind of organizational structure to 
make things work, but Coastal America is a very good example, 
where you have a program that required no additional Federal 
money, but it was a framework for Federal agencies, in 
particular, to sit at the table and set some priorities and 
look at the respective authorities and tools and coordinate, 
and we've put some real important projects on the ground doing 
that.
    This would let us take another big leap and do it on a much 
larger scale.
    Mr. Gilchrest. You mentioned Coastal America. Is the 
framework suitable? You had a couple of comments on it. But is 
the framework a pretty good reflection of the framework in 
which Coastal America now functions?
    Mr. Davis. It's a fairly good reflection. I think Coastal 
America, like the bill, has a national body, a task force, if 
you will, that kind of oversees, from a policy perspective, and 
then you have regional implementation teams that are really out 
on the ground, the agency folks that are getting the work done.
    So to that extent, it does mirror the national council, 
regional council structure that you have in your bill.
    Mr. Gilchrest. Could the Coastal America framework be the 
framework of H.R. 1775?
    Mr. Davis. I think perhaps with some modifications, that it 
could be, yes. I think, again, what I would suggest would 
happen is that the same people that are generally doing the 
Coastal America project, they're going to be the same types of 
people, at least within the Federal agencies that will be 
helping us implement H.R. 1775.
    Mr. Gilchrest. You said that H.R. 1775 would create a more 
efficient system to implement the restoration projects. So the 
restoration projects that are now underway are hit-and-miss? 
They seem to be successful in Florida, with the massive effort 
there. They seem to be somewhat successful other places.
    But on a national level, the framework, however it mirrors 
Coastal America or however this council system is structured, 
would provide a more efficient flow of information, dollars, 
implementation.
    Mr. Davis. I think it will. I think that we have witnessed 
a lot of successful coastal restoration around the country 
currently and I would expect that would continue.
    But what this bill could do is it pulls us together and it 
forces us to set priorities, perhaps looking at watersheds, 
stepping back from a project by project approach, looking at 
where we need to target our resources across Federal agencies, 
state agencies and other levels of government.
    We do that at times now, but there's no real mandate to do 
that and I think this would help create that.
    Mr. Gilchrest. I see. I have a couple more questions, but 
I'm going to yield right now to the gentleman from American 
Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I certainly want 
to thank the members of the panel for their testimony. I do 
have a couple of questions.
    I note with interest the proposed bill--perhaps many 
Americans don't realize it, but over 50 percent of our nation's 
population live in the coastal areas of our country; 75 percent 
of the commercial fishing industry is entirely dependent on 
these estuaries; and, 80 to 90 percent of the recreational 
fishing industry is also dependent on these very important 
areas.
    In all the years that I've been in the Committee hearings, 
Mr. Chairman, I have never seen the Administration, three 
different Federal agencies, all agreeing to a bill within a 
three month period of when it was introduced. I've never heard 
of this ever happening, Mr. Chairman, and I certainly want to 
commend you for this proposed legislation, which I think is not 
only very important, but I certainly hope that we will move it 
with due speed.
    I'm sure the Chairman and myself, we're very sensitive to 
the idea of duplication, the idea of being overly bureaucratic 
about any given issue in the problems that we deal with in the 
Federal Government.
    So I suppose the bill is being introduced and now we have 
the Federal agencies coming to testify and say whether or not 
you already have the capabilities of handling this problem that 
we're addressing.
    I wanted to ask Ms. Yozell. I had mentioned earlier in my 
statement that when you talk about estuaries, you're talking 
about a global total dollar value of about $4 trillion 
involved. Within our own country, what is it, $56,000 per acre, 
approximately, in terms of the dollar.
    About how many acres are we looking at nationwide in our 
own country? Do we have any statistics on that?
    Ms. Yozell. We do. In fact, I was just looking at a report 
last night that EPA puts out, through their monitoring program. 
They have assessed the quality of about 72 percent of our 
estuaries, about 30,000 square miles, and they found that 38 
percent are very impaired. If you use the ratio for the 
remaining percent to that would translate into about 11 million 
acres.
    So this bill seeks to address 10 percent, which is a great 
start when you think of how many really there are.
    Mr. Faleomavaega. This is just for starters, 11 million 
acres, that's just for starters.
    Ms. Yozell. The 11 million acres is what we estimate, and 
I'll have to say it's very rough. EPA has determined that 
roughly about 11 million acres are impaired, and the 
legislation before us aims to start out with addressing a 
million. So that's roughly about 10 percent, or 11 percent.
    And we think that is a great start, because we know that it 
is going to be difficult by its very nature.
    Mr. Faleomavaega. You had also indicated earlier, Ms. 
Yozell, that you spoke very highly of the Coastal Wetland 
Planning, Protection and Restoration Act program that is now 
ongoing in Louisiana. Can you elaborate on that? What are some 
of the features that perhaps we can take from Louisiana and 
incorporate on a nationwide basis, what the bill proposes?
    Ms. Yozell. Absolutely. And I will note that in the Senate 
side, we call it the Breaux Act, but on the House side, we call 
it the CWPPRA.
    It's a fantastic process that we've developed there and I 
think the best part about it is the collaboration. It's 
collaborative amongst all of the Federal agencies you see here 
at the table, as well as others--the state, local partners--and 
it's really an on-the-ground effort.
    For example, if one agency has a particular expertise in an 
area that's being restored, they sort of run that project. If 
another agency has expertise in another area, they do the same. 
So EPA will run a project, the Corps will run a project, or 
NOAA will run a project for expamle.
    But overall, I think it's the collaborative nature, it's 
the on-the-ground nature, and most of the money goes to on-the-
ground projects. I think it's about 10 percent that goes for 
administration.
    Mr. Faleomavaega. What I'm most appreciative of is that 
we're seeing three Federal agencies all being very 
collaborative and being very positive in their approaches and 
saying let's solve the problem.
    I've heard time and time in hearings the agencies fighting 
among themselves and then expecting us to solve the problem. 
Again, I wanted to ask Ms. Yozell, can you provide an example 
of where there are any current existing programs that are 
working together in a way that perhaps----giving us some 
signals on how we can approach and develop this legislation, 
that could be most helpful.
    Ms. Yozell. Sure. I think Michael pointed to one that's 
very successful, which is the South Florida restoration effort. 
I sit on the task force and NOAA really offers our expertise in 
monitoring and the scientific issues as we replum the overall 
Everglades, and Interior has their expertise. So that's one 
that does work very well.
    I think Michael also hit upon the Coastal America program, 
where we are all together, working together.
    This is very, very beneficial to us to have us all sort of 
thrown together to develop a plan together, because we're all 
so busy and we have so many programs that are working to 
address estuary and wetland restoration, but we're not always 
certain what the other is doing. And I think bringing us 
together and developing a plan would be very effective.
    Mr. Faleomavaega. Mr. Davis, there is a view among some 
circles that the Corps of Engineers, they tend to go out there 
and dredge things, build bridges, and make things dirty.
    How could the Corps of Engineers ever be considered as an 
environmentalist, if your job is to go out there and destroy 
the reefs and make landfills and build airports and do all 
these kind of good things that supposedly destroy the 
estuaries, rather than restore them?
    Mr. Davis. That's an interesting question. When I look at 
what the Corps is all about, I see something different. First 
of all, if you ask the people what the Corps is all about, they 
would say dredging and flood control and environmental 
destruction. I would submit to you that it's different. I 
submit to you what the Corps is about is solving problems. For 
over 200 years, this nation has called on its Army Corps of 
Engineers to solve problems and society asked the Corps of 
Engineers, in response to a couple of devastating hurricanes in 
1947, to go down and drain the south Florida Everglades. The 
State of Florida, and the Congressional leadership, asked the 
Corps to go down there and do a project.
    We did it and, fortunately, we were very successful. We 
drained the Everglades. And we've been asked all over the 
country to do those things. Today I think society and the 
Congress and certainly this Administration is asking the Corps 
of Engineers to do other things.
    And I guess the biggest test of whether we're serious about 
that is where we're putting our money. If you look at 1992, 
about 2 percent of the Corps' Civil Works budget, which is 
typically about $4 billion a year, about 2 percent of that 
budget went to environmental restoration and protection.
    In the President's fiscal year 2000 request, about 25 
percent of the Corps' budget goes to environmental restoration 
and protection. So we are very serious today and you are 
absolutely right, we do have a little bit of a problem with our 
image and we're trying to rehabilitate that and show people we 
are very serious about this part of our mission.
    Mr. Faleomavaega. Let's talk about the Everglades. I've 
been to the Everglades and, interestingly enough, I think the 
Corps of Engineers was--you built how many miles long ditches?
    Mr. Davis. Hundreds of miles.
    Mr. Faleomavaega. Hundreds of miles ditches and as a 
result, we're having a serious problem with the Miccosukee 
tribe, and the people there owned this whole area before 
westerners ever came to Florida, and we're having that very 
serious problem. How do you help this tribe that was there 
before we came?
    Mr. Davis. We are working very closely not only with the 
Nukasukis, but the Seminole tribe, and they are represented on 
this task force that Sally and I serve on and they have an 
equal role to play in terms of helping us shape the overall 
restoration plan.
    I can assure you that the Nukasuki and Seminole issues are 
in the front of our minds every time we make decisions about 
how to replum the water, how to move the water, and we're 
looking at their interests fully.
    Mr. Faleomavaega. You notice that in the bill, there's 
authorization of $220 million for a five-year period. Do you 
consider that a sufficient and adequate amount to kind of get 
the program going, if this bill is enacted?
    Mr. Davis. I think it's a very good start. There's a lot of 
very good work, with that amount of money. Many of the projects 
that we're talking about are not necessarily all that 
expensive. It involves things like changing culverts, getting 
tidal flow back into areas. So some of the things are not that 
expensive.
    Others will be much larger projects and will take a lot 
more money, but I think that amount of money and it's cost-
shared, the way the bill lays out, will be a very good start 
for us.
    Mr. Faleomavaega. About what percentage of the entire 
budget of the Corps of Engineers is committed towards estuary 
considerations?
    Mr. Davis. Of that 25 percent that goes to the environment, 
I couldn't tell you how much of that goes to estuarine and 
restoration, but I can get that number for you, for the record. 
It's a fairly large amount. We've got a lot of coastal projects 
going on right now., such as Sonoma Bay-lands in California. 
We've just completed a restoration project that Senator Chafee 
was involved in in Rhode Island.
    So we've got dozens of these things around the country 
going on right now. So it's a fairly large amount of money.
------------
    Of the FY 2000 appropriated funds for environmental 
activities, over $33 million is committed to estuary related 
projects. Most of these are still in the planning and design 
stages.

    Mr. Faleomavaega. Mr. Chairman, I know my time is up, but 
is all right if I ask another question? You're the boss. Thank 
you, Mr. Chairman.
    Mr. Frazer, it's my understanding that a report was 
released last year that identified over 65 separate programs 
scattered over seven different Federal agencies, including the 
Fish and Wildlife Service, providing funding for estuary and 
coastal wetlands restoration.
    Can you give us your sense of evaluation how that would fit 
into the provisions of H.R. 1775?
    Mr. Frazer. I think one of the strengths of H.R. 1775 is 
its national strategy to identify the various programs out 
there, the needs, and to put them into a coordinated framework 
so that the pieces can become greater, when they become pulled 
together. You, in fact, have greater capability than individual 
parts could do in terms of advancing estuary restoration 
independently.
    The Fish and Wildlife Service has got several programs that 
we administer. Many of our efforts, particularly through our 
coastal program, seek to work to coordinate the various 
restoration programs and to bring a living resource focus to 
those already. This bill would provide a framework, as well as 
additional dollars, to be able to advance large-scale and 
effective restoration projects.
    Mr. Faleomavaega. With the assistance of our three most 
valued Federal agency representatives here before us, could you 
give us an idea that perhaps the Administration will be helpful 
in moving this legislation as expeditiously as possible? We 
would appreciate if you would let us know as soon as possible 
areas that you think that could be strengthened, areas that you 
think of the bill that we could work on, so that we can get 
this thing moving; do you foresee any problems ahead, as far as 
the Administration is concerned, on this?
    Mr. Chairman, I think you've got a winner here. Thank you 
very much.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega. I know there is 
another panel. I just have a couple of very short questions. I 
know Ms. Woolsey is here in the back waiting to introduce 
somebody.
    Ms. Yozell, could you tell us, in as a specific way as you 
can, how you think H.R. 1775 could help with an oyster 
restoration program, which I'm assuming now can be a part of 
this habitat restoration idea, how H.R. 1775 would help NMFS 
pool resources to build oyster reefs in the Chesapeake Bay?
    Ms. Yozell. Absolutely. As you pointed out earlier, 1 
percent, that's pretty dismal when you think of what used to 
exist with regard to oyster sites throughout the bay. So 
there's a lot of work that can be done.
    And I know that recently, in June, the Chesapeake Bay 
oyster restoration report came out and really highlighted three 
areas that are essential if we're going to get oyster 
restoration throughout the bay.
    It talks about how we need three-dimensional reef habitat 
and that we need to create reef sanctuaries for the brood 
stock, and that we have to stop the practice of moving diseased 
oyster around the bay.
    So those are the issues that have been identified. Now, you 
know that NOAA doesn't spend a lot of money or nowhere near the 
amount of money that we need to take on these kinds of issues 
and address it. I think we have $450,000 in an oyster bed 
restoration program and we do some research through Sea Grant.
    So by having these funds, we can collaboratively, one, work 
with other agencies; and two, work with the Chesapeake Bay 
program, the states and the locals, and really benefit in doing 
strong and important restoration. Those three issues I 
outlined, they do take money, they do take time, and they take 
human resources, and this will enable us to do exactly that, 
and I think it's an excellent, excellent opportunity for us to 
help bring the oysters back to the bay.
    Mr. Gilchrest. Thank you. Do you have an opinion on whether 
the money that would go through the councils and the agencies 
that would implement these policies would be grant dollars or, 
like the quorum, I would ask Mike the same question, what is 
the difference between a grant program and a project program? 
Do you have an opinion on that?
    Ms. Yozell. Basically, the difference is, as we have under 
CWPPRA, an agency runs the project and so that's a program and 
that has worked very effectively. Under the grants program, 
it's a particular grant to an entity and there's criteria, but 
we may not be as involved or be able to offer our expertise and 
experiences.
    I believe we've been leaning towards--and I'll let Michael 
answer that from the Corps' point of view, since he'll be sort 
of running the structure and they have their own issues there--
I believe we're leaning towards a program setup through the 
Corps mechanism.
    Mr. Gilchrest. Which would then be more project-oriented as 
opposed to grant-oriented.
    Ms. Yozell. Correct.
    Mr. Gilchrest. Do you think there could be some formula 
where there could be a mix in the same legislation, a mix of 
projects and grants?
    Ms. Yozell. Yes. For example, let me use the example of our 
community-based restoration program. We provide grants, small 
grants, and, as Michael pointed out, it can be anything from 
just moving a culvert or a drain, and those are small projects 
and they're grants to communities, and I think they work very 
well.
    So it would be good if we could somehow accommodate both 
grants and programs.
    Mr. Gilchrest. Mike, any comment?
    Mr. Davis. I think for the most part, the Army would prefer 
that it's a<plus-minus> project-oriented program and there are 
several reasons. The science of ecosystem restoration is still 
relatively new and we're learning a lot of things as each 
project that we put on the ground, we're learning. We're also 
learning that things that look good on paper often don't work 
out that way on the ground. There are some unintended 
consequences, sometimes negative, sometimes positive.
    So I would caution that we need to make sure that we have 
the right amount of analysis done before we just march off and 
start building something or doing something. So for the most 
part, I think that we need the analytical framework that we use 
to put projects on the ground and have the Federal Government, 
including the Corps and the other agencies, provide that 
technical type of review.
    It may be possible, however, to build on your suggestion, 
there may be some threshold below which you could have a kind 
of a grant type of program for very, very small problems, where 
it was just obvious to everybody that that was the right thing 
to do and the results were going to be very positive to the 
environment.
    But generally, I think that we ought to be very careful and 
make sure that we maintain kind of the Federal analysis that we 
think is needed to make sure that we end up with the right 
result.
    Mr. Gilchrest. Thank you. Mr. Frazer, do you have a comment 
on that?
    Mr. Frazer. Well, restoration and coastal zone is 
technically difficult. It poses special challenges. Expertise 
in those sorts of restoration projects is very important to 
ensure success.
    The Federal Government, Federal agencies certainly do have 
and have accumulated a great deal of expertise and some of the 
benefits of Federal agencies working together and managing 
projects are demonstrated through the Coastal America program.
    But there is also a tremendous interest and desire for 
states and local governments to have the resources and 
assistance in carrying out their restoration programs.
    So a melding of the two would have some great benefit. The 
diversity of approaches can provide a greater coverage than any 
one single approach.
    Mr. Gilchrest. Thank you. If I may, this is the last 
question. Mr. Frazer, could you tell us, briefly, how do you 
restore an estuary and how do you keep it restored? Briefly.
    Mr. Frazer. Circumstances differ wherever you go, but 
basically the key to restoration is to understand what changes 
have occurred to the natural processes that are key to 
sustaining the function and productivity of an estuarine 
system. Sometimes it's modification of tidal flow.
    An estuary really is an area in which salt water and fresh 
waters mix and the changes to the hydrology of an estuary can 
have dramatic effects on living systems.
    Sometimes the changes have to do with development in 
adjacent uplands and pollutant inputs into the estuarine 
system. Sometimes it's related to invasion of exotic species.
    So there's any number of threats of changes that occur to 
an estuary and the restoration is dependent upon being able to 
identify those threats and putting in place effective 
strategies and monitoring to ensure then that your restoration 
activities are, in fact, effective.
    Mr. Gilchrest. Thank you very much. Each of you has 
mentioned the Great Lakes. We won't go into that at this point, 
but I'm sure we'll be in contact with you to further discuss 
that issue. We may have to change the timing of the bill, 
though, if we include or say ``and the Great Lakes, restore 
estuary habitat and fresh water of the Great Lakes,'' but those 
are considerations that we'll take under advisement and do our 
best.
    We certainly appreciate all your testimony here this 
morning. It has been extremely helpful. Thank you very much.
    Mr. Faleomavaega. Mr. Chairman, I would like unanimous 
consent to allow our friend and good colleague, the gentlelady 
from California, to invite her to sit with us on the dais. I'd 
like to also ask unanimous consent that she be permitted to 
introduce our dear friend that is going to be also testifying 
at our Committee hearing this afternoon.
    Mr. Gilchrest. Without objection. I would also like to ask 
unanimous consent that Chairman Saxton's statement be included 
in the record. Hearing no objection, that will be done.
    [The prepared statement of Mr. Saxton follows:]

  Statement of Hon. Jim Saxton, a Representative in Congress from the 
                          State of New Jersey

    Today we will hear testimony from our distinguished 
witnesses regarding Congressman Wayne Gilchrest's (MD 1st) 
bill, H.R. 1775, to catalyze estuary restoration and coordinate 
Federal estuarine activities. This is an excellent bill, and 
this action is long overdue from the Federal Government. I am a 
cosponsor of this measure, and I commend Mr. Gilchrest for his 
leadership on this issue. I remain committed to attacking the 
problems facing this nation's estuaries and to restoring 
degraded coastal habitat.
    Over a decade ago, Congress created the National Estuary 
Program to address serious environmental problems in estuaries 
of national significance. These problems include polluted 
runoff, habitat loss, development pressure, and harmful algal 
blooms. Unfortunately, despite a significant amount of 
planning, very little effort has been made to implement 
comprehensive conservation and management plans or to actively 
restore the most seriously degraded estuarine areas. I am 
pleased that today we are taking positive steps to improve this 
unacceptable situation.
    H.R. 1775 will, for the first time, coordinate Federal 
agencies with the responsibility for estuary management. This 
is an idea whose time is long overdue. H.R. 1775 also provides 
funding to implement estuary management plans, undertake 
habitat restoration activities, and prevent further losses. 
H.R. 1775 requires a non-Federal partner to provide matching 
funds for estuary restoration projects. I am a strong supporter 
of requiring local or state matching funds for these types of 
activities. Building local support and including the citizens 
who live and work near these estuaries strengthens the program 
and will result in long-term benefits for the natural resources 
that are dependent on these areas.
    I fully support Mr. Gilchrest's bill as well as other 
efforts to address problems in the coastal zone. Not only am I 
a cosponsor of H.R. 1775, but I have introduced a companion 
bill, H.R. 1237, that would allow the Environmental Protection 
Agency to use funds appropriated for the National Estuary 
Program to be used, for the first time, to implement 
comprehensive conservation and management plans. I will also 
continue to urge the reauthorization of the Coastal Zone 
Management Act. H.R. 2669, the Coastal Community Conservation 
Act, which this Subcommittee approved on August 5, 1999, 
includes provisions for increasing local involvement in coastal 
zone management and it reauthorizes the National Estuarine 
Reserve System. Together with H.R. 1775, these measures will 
have a positive impact on our coastal resources well into the 
21st century.

[GRAPHIC] [TIFF OMITTED] T8806.008

[GRAPHIC] [TIFF OMITTED] T8806.009

[GRAPHIC] [TIFF OMITTED] T8806.010

[GRAPHIC] [TIFF OMITTED] T8806.011

[GRAPHIC] [TIFF OMITTED] T8806.012

    Mr. Gilchrest. Our first, Richard Ribb, of Rhode Island, 
Narragansett Bay, is here with us this afternoon; Mike 
Hirshfield, from the Chesapeake Bay Foundation, thank you so 
much for coming. Richard and Mike, we appreciate all the work 
you've done in your particular areas to restore those 
estuaries. And now I will yield to you.
    Ms. Woolsey. Thank you, Mr. Chairman. I am really honored 
and I thank you very much for letting me come here today to 
introduce somebody that is very important to me and to my 
district, to the State of California, and to the United States 
of America and our environmental protection.
    But I also want to thank you because I am here to support 
H.R. 1775, and I want you to know that and I am on your bill 
and I know that it, too, is going to be very important for this 
nation.
    Now, why is Grant Davis so important to me?
    Mr. Faleomavaega. He's handsome.
    Ms. Woolsey. Yes, he is handsome, but that's not why. Grant 
is either to blame or to be given credit, a great deal of it, 
for my running for Congress in the first place. So it depends 
on where you are on that, that you'll appreciate my 
appreciation for Grant.
    Mr. Gilchrest. So Grant didn't support the Republican 
candidate.
    Mr. Davis. Sorry, Mr. Chairman.
    Mr. Faleomavaega. Great American, great American.
    Ms. Woolsey. And then once I was elected, Grant came onto 
my staff, for over five years, and he was an extremely valuable 
member of my district staff, providing the essential help and 
information that our offices required and our district required 
regarding environmental issues.
    Now he has gone on to be the Executive Director of the Bay 
Institute and in that position, it is a major step up, he is 
now helping the State of California, the entire Bay Area within 
the State of California, and it has direct results to what is 
going on in the United States of America regarding bay lands 
and estuaries and wetlands.
    And as I said, Mr. Chairman, I also want to support your 
Estuary Habitat Restoration Partnership Act, because I see this 
as legislation that is an invaluable step toward the 
conservation of our estuaries and our nation's most prized 
resources.
    I am certain that today Grant Davis' testimony will add 
credibility to H.R. 1775 and the great importance of this 
issue.
    So thank you again for letting me do this, so I can 
personally let this young man know how valuable he is to all of 
us in my district.
    Thank you very much.
    Mr. Gilchrest. We thank the gentlelady from California. At 
this point, I guess we look forward to your testimony, 
gentlemen, and we can start with Mr. Ribb.

 STATEMENT OF RICHARD RIBB, DIRECTOR, NARRAGANSETT BAY ESTUARY 
  PROGRAM, RHODE ISLAND DEPARTMENT OF ENVIRONMENTAL MANAGEMENT

    Mr. Ribb. Mr. Chairman and members of the Subcommittee, my 
name is Richard Ribb. I'm the Director of the Narragansett Bay 
National Estuary Program in Rhode Island, and I am presenting 
testimony regarding H.R. 1775 on behalf of the Association of 
National Estuary Programs, or ANEP, for short.
    We appreciate the opportunity to present our views on the 
protection and restoration of our nation's estuaries and on the 
linkage between the NEPs and this bill.
    ANEP is a non-profit organization dedicated to building a 
common vision for the protection and restoration of the 
nation's bays and estuaries. Members of ANEP include 
representatives of industry, agriculture, fisheries, tourism, 
trade, and citizen groups, who volunteer their time to develop 
and implement the estuary management plans created under the 
National Estuary Program.
    We appreciate that the Subcommittee is turning its 
attention to the state of critical habitat in our estuaries 
through the introduction of this bill. The Estuary Habitat 
Restoration Partnership Act, introduced by Mr. Gilchrest, 
clearly recognizes the importance of estuarine habitat for the 
ecological and economic health of the nation.
    ANEP strongly supports H.R. 1775. Those of us work with 
citizens and municipalities across the nation on coastal 
habitat restoration projects see the funding and support 
provided by this bill as a vital resource in meeting community 
goals for habitat restoration.
    In passing this bill, Congress would make the Federal 
Government a real partner with the states in restoring these 
resources. In terms of local input, ANEP supports a regional 
council composition that is inclusive and broad-based, bringing 
many perspectives into decision-making, while building wide 
support for its actions.
    You've heard from the Federal agency representives here on 
how this bill would impact their agencies. I'd like to speak a 
little to the other side of the coin, about how the National 
Estuary Programs represent a community-based approach to 
organizing and meeting local habitat restoration needs and how 
the program acts as a conduit between Federal, state and local 
restoration initiatives.
    ANEP believes that the goals of this bill and the work that 
the estuary programs are doing are strongly linked, and I will 
briefly explain how.
    First of all, the bill recognizes that estuary habitat 
restoration cannot take place in a vacuum. Restoration projects 
can be affected by other factors, like land use impacts, 
degraded water quality and invasive species, changes in water 
salinity. These are all issues that the NEP, with its broad-
based, comprehensive, water-based approach are investigating 
and acting on.
    This approach ensure that interrelated issues are 
considered and addressed in undertaking restoration projects.
    Several of the purposes of the bill directly relate to the 
activities and goals of the national estuary program. These 
purposes include creating strategies to meet national and 
regional goals for habitat restoration. The bill will rely on 
existing plans or strategies for restoration, as well as 
estuary-specific scientific data as the foundation for 
effective projects.
    The NEPs have taken a lead role in these areas. Most of 
their stakeholder-driven estuary management plans include 
specific science-based strategies for habitat restoration and 
the NEPs have completed dozens of restoration projects of many 
different types, and I would ask you to refer, for more 
information on that, to the written testimony, where there's a 
list of a number of different restoration project types 
conducted by NEPs.
    Another purpose in the bill is fostering communication and 
establishing effective partnerships between restoration 
programs, and the NEPs are built on local and regional 
partnerships for action and are often a technical and 
logistical support system for these partnerships. By bringing 
together Federal, state and local, as well as private sector 
stakeholders, pooling resources and targeting priority 
problems, the Estuary Program has enhanced the capacity of 
these partnerships to work together.
    A further purpose in the bill seeks to ensure that 
restoration projects are based on sound science and that 
there's increased capacity for estuary habitat research and 
monitoring. The NEPs undertake detailed studies in each of 
their estuaries, creating a scientific basis for these plans 
and actions. These characterizations include baseline habitat 
data, developed by following well-designed criteria and 
protocols, setting standards, and providing direction for 
further monitoring programs.
    The programs have pioneered innovative techniques, using 
new tools, like computer mapping and remote sensing technology, 
to analyze habitat and, with their partners, to prioritize 
projects.
    In summary, the NEPs have been providing the scientific and 
management tools to support effective habitat restoration. They 
have collaboratively developed strategies and priorities for 
projects. They have been a communication and technical 
assistance resource for habitat restoration at the state and 
community level. They have been extremely effective at 
leveraging local resources to match Federal grants. For every 
Clean Water Act dollar the NEPs receive, they leverage at least 
two other dollars in state, local and other funding.
    And the programs have the ability to present the council 
established by this bill with timely, prioritized restoration 
projects, with wide support from local stakeholders.
    These are the primary ways in which this program supports 
the goals of this bill. We believe that, with continued Federal 
support, the NEPs can be a strong partner in implementing this 
Act, forming a chain of action stretching from the local 
watersheds up to the Federal level, that will result in the 
kind of measurable environmental progress that we are all 
working to achieve.
    Thank you, Mr. Chairman and members of the Subcommittee, 
for the opportunity to express our endorsement of H.R. 1775 and 
to share our views on the connection between the National 
Estuary Program and this important bill.
    The association stands ready to assist the Subcommittee in 
any way as it works on this important bill.
    [The prepared statement of Mr. Ribb follows:]

Statement of Richard C. Ribb, on behalf of the Association of National 
                            Estuary Programs

    On behalf of the Association of National Estuary Programs 
(ANEP), we appreciate the opportunity to submit to the 
Subcommittee on Fisheries, Conservation, Wildlife and Oceans 
our views on the protection and restoration of the Nation's 
estuaries and on the strong linkage we see between the National 
Estuary Program (NEP) and the goals and process described in 
H.R. 1775. The Association of National Estuary Programs is a 
non-profit organization dedicated to promoting stewardship and 
a common vision for the preservation of the nation's bays and 
estuaries. Our members include representatives of industry, 
agriculture, fisheries, tourism, and the greater business 
community who volunteer their time to develop and implement 
comprehensive management plans for a network of nationally 
significant estuaries.
    We are pleased that this Subcommittee is turning its 
attention to the state of critical habitat in the Nation's 
estuaries, through the introduction of the bill being discussed 
today. Loss and degradation of estuary habitat has been 
identified as a priority problem in the 28 estuaries within the 
NEP--estuaries designated by Congress as of national 
significance. H.R. 1775, the Estuary Habitat Restoration 
Partnership Act of 1999, introduced by Mr. Gilchrest of 
Maryland, clearly recognizes the critical importance of 
estuarine habitat to the ecological and economic health of our 
Nation and to the quality of life of our citizens. This bill 
creates a national program with a strong regional component to 
fund estuary habitat restoration efforts in partnership with 
the States. non-governmental organizations and local 
communities.
    The Association of National Estuary Programs strongly 
endorses H.R. 1775. Those of us who work every day with citizen 
groups and municipalities across the nation on habitat 
restoration projects would find the Federal funding and support 
for this issue that this bill would provide a critical resource 
in achieving restoration goals for our estuaries. In setting 
goals, committing funding, and including regional input to the 
process defined in this bill, Congress would make the Federal 
Government a real partner with the States in restoning the 
nation's estuarine resources.

H.R. 1775 and the National Estuary Program: A Complementary Approach to 
Estuary Restoration and Management

        <bullet> H.R. 1775 lists the following among the purposes of 
        the bill:

        <bullet> To develop strategies to obtain national and regional 
        objectives for estuary habitat restoration;
        <bullet> To foster communication between Federal, state and 
        community estuary habitat restoration programs;
        <bullet> To establish effective estuary habitat restoration 
        partnerships among public agencies at all levels of government 
        and between public and private sectors;
        <bullet> To develop and enhance monitoring and research 
        capabilities to ensure that estuary habitat restoration efforts 
        are based on sound scientific understanding.
    This testimony will illustrate how the National Estuary Program is 
already fulfilling those purposes in estuaries across the nation and 
how this national program will be strongly connected to and support the 
goals of the Estuary Habitat Restoration Partnership Act.
    The Estuary Habitat Restoration Partnership Act focuses on 
restoring degraded habitat, taking a targeted approach that focuses 
specifically on habitat restoration project selection and funding. 
However, the bill does recognize that successful estuary habitat 
restoration cannot take place in a vacuum. Even a painstakingly planned 
habitat restoration project can be undermined by other factors like 
serious water quality problems, land use impacts, changes in freshwater 
flows or invasive species. While H.R. 1775's mission is urgently 
needed, it is not broad enough to address the entire spectrum of 
pressures on our estuaries that can impact habitat restoration. Section 
107 (d) of H.R. 1775 specifically assigns high priority to projects 
where there is ``a program within the watershed of the estuary habitat 
restoration project that addresses sources of pollution and other 
activities that otherwise would re-impair the restored habitat'' and it 
requires that estuary habitat restoration efforts funded under the bill 
be consistent with estuary management plans, referring to the 
Comprehensive Conservation and Management Plans created under the NEP. 
These issues and activities mentioned are ones that the NEPs are 
investigating and acting on, building collaborative solutions for 
estuary problems.
    The NEP is broad-based, taking a comprehensive approach to 
addressing the wide range of problems facing the Nation's estuaries--
preventing habitat degradation and loss of recreational and commercial 
fisheries, protecting and Improving water quality, pioneering watershed 
management techniques, controlling, sewage outfalls and septic system 
impacts, mitigating impacts from increasing coastal land development, 
developing strategies to deal with invasive species and harmful algal 
blooms--the list goes on and reflects the inter-related nature of 
these. Problems and the community-based nature of the NEP approach. The 
watershed-based perspective of the NEPs ensures that interrelated 
issues are considered and addressed in undertaking restoration 
projects.
    The process established by H.R. 1775 would rely on existing plans 
or strategies for habitat restoration in the nation's estuaries, as 
well as on estuary-specific scientific habitat data as a foundation for 
effective restoration projects. The strength of the NEPs is 
comprehensive planning for restoration in a watershed context, whereas 
the focus of H.R. 7755 is to provide Federal funding for local 
organizations to undertake specific restoration projects. The NEPs have 
taken a lead role in this type of planning. For example, the 
Narragansett Bay Estuary Program convened nearly 100 coastal 
stakeholders for a daylong workshop on habitat restoration, resulting 
in a set of clear recommendations for research, planning, management 
and legislation to further restoration goals. The NBEP also used the 
input of these participants to develop a comprehensive map and 
inventory of coastal restoration sites, identifying existing, planned 
and proposed projcts. Since 1994, the NBEP has been developing the 
scienfific data and methodology necessary for a statewide coastal 
habitat restoration plan--a plan with tremendous local support that now 
nears completion. The program is also conducting field-based research 
projects to develop detailed scientific criteria for evaluating estuary 
habitat restoration project success, aiding the development of 
monitoring protocols. The actions of this particular NEP reflect the 
work of NEPs across the nation in addressing this critical issue. As 
long-range planning and organizing entities, the NEPs have, through a 
consensus-based process, worked out the appropriate courses of action 
that will lead to coordinated and collaborative coastal habitat 
restoration actions.
    The NEPs have the ability to present the Council established by 
H.R. 1775 With timely, prioritized projects with support from local 
stakeholders. Over the last decade, NEPs have conducted a wide variety 
of restoration projects and have plans for many more; refer to the 
attached NEP Habitat Restoration Project List. The programs provide an 
organizational framework to coordinate local restoration actions, state 
and Federal programs and the functions of the Council. In many cases, 
planning and logistical details have been worked out in advance; 
funding is the last necessary component. The programs have been working 
on this process for several years; H.R. 1775 would be a logical and 
well-timed receptor of the results of this work.
    We believe that the passage of H.R. 1775 will allow the NEPs to 
move forward on the habitat restoration goals set forth in their 
community-based estuary management plans while providing the Regional 
Councils with a strong connection to local habitat restoration needs in 
our estuaries. The bill identifies a potential important role for the 
NEPs as non-voting members of Regional Councils. These programs can be 
an important partner and resource to the Regional Councils, providing 
organizational and technical advice and support. The abilities of the 
NEPs matched with the process and funding set up by H.R. 1775 will form 
a chain of action stretching from local watersheds to the Federal level 
that will result in the kind of measurable environmental progress that 
we are all working to achieve.
    It is also clear that it will be a challenging task for States to 
consistently meet the 35 percent match requirement created in the bill. 
It will require a well-developed ability to secure non-Federal match 
and careful coordination of matching funds. This ability to leverage 
funds and resources is a hallmark of the NEPs. In fact, a recent report 
from the NEPs shows that, based on a conservative analysis, for every 
Clean Water Act Section 320 dollar invested, the NEPs leverage at least 
2 dollars from state, local, foundation and other funding sources and 
services. There are few Federal programs that can show this kind of 
return on investment. This also reflects the level of State and local 
commitment to the NEPs as well as recognition that these programs are 
an effective catalyst for action in our nation's estuaries. The NEPs 
will no doubt play a critical role in planning for and securing local 
match for the funding provided by H.R. 1775.
    ANEP has a specific comment regarding the language in H.R. 1775. We 
support a change that where in the bill ``estuary management plans'' 
are referred to, the CCMPs created under the NEP are specifically 
identified as such plans.

The National Estuary Program: Securing a Sound Future for the Nation's 
Estuaries

    It is well established that estuaries are the biologically 
essential, economically priceless, but fragile connections between the 
continent and the oceans. The entire nation is served by coastal 
estuaries in numerous ways, such as commercial and recreational 
fishing, transportation, defense, boating, research and learning, and 
providing irreplaceable wildlife and fisheries habitat. The estuaries 
designated by Congress to be part of the NEP now include 42 percent of 
the continental United States shoreline and are among the most 
productive in the Nation. Economically, these estuaries of national 
significance produce over $7 billion in revenue from commercial and 
recreational fishing and related marine industries; tourism and 
recreation in these estuaries are valued at over $16 billion annually. 
Through the National Estuary Program, citizens, municipalities, 
environmental groups and interested business and industry organizations 
come together with State and Federal governments to reach agreement on 
long-term management plans that seek to guarantee the economic and 
biological productivity of the nation's estuaries into the future.
    The National Estuary Program has evolved into a leader in coastal 
watershed protection and restoration over the last decade and a half 
Each NEP serves as the primary technical and coordination support 
structure (and frequently the initiator) for a wide range of 
partnerships and actions to conserve and restore the estuary. Starting 
with four pilot programs in 1985, the success of and need for the 
program has led to the current status--28 estuaries in the national 
program of which 10 are in the developmental stage and 18 are in the 
implementation stage of their individual Comprehensive Conservation and 
Management Plans (CCMP). Local citizens guide the development and 
implementation of their plans, and, using the abilities of their local 
NEPs, work to leverage Federal and state dollars with contributions 
from local governments and the private sector.
    The National Estuary Program is clearly not the ``command-and-
control'' type of Federal program. Rather, it is a program where local 
governments, citizens and the private sector come together and agree on 
how to manage the Nation's estuaries and on how to craft local 
solutions to common coastal problems. Only with the full support of the 
local sector is the proposed CCMP submitted to the state governors and 
the EPA Administrator for approval. Thus, it is the states, in close 
coordination with the local stakeholders and the Federal Government, 
that create and implement new, non-adversarial and cost-effective 
estuary management plans, in contrast to the traditional, top-down 
approach to environmental protection, largely divorced from local
    The NEP has a history of valuing community involvement and building 
support for initiatives. Citizens see these programs (and their staffs) 
as a part of a governmental structure that uses resources efficiently, 
is responsive to their needs, and is effective in solving problems and 
raising issues and awareness. NEPs have been particularly effective in 
identifying and funneling relevant resources (grants, technical 
assistance, etc.) to states, communities and citizen groups. The 
National Estuary Program is one of a handful of Federal non-regulatory 
programs that truly attempt to address local concerns. This effective 
national network of programs shares its experiences and lessons learned 
with each other and with other watershed and governmental 
organizations. It has been and, with continued support at the Federal 
level, will continue to be a national resource for the protection and 
improvement of the nation's estuaries.
    We thank the Subcommittee for providing us the opportunity to 
express our support for H.R. 1775 and to share our views on the 
connection between the National Estuary Program and this bill. The 
Association of National Estuary Programs stands ready to assist the 
Subcommittee as it works to pass this vital legislation.

National Estuary Program Habitat Restoration Project List

    Listed below are examples of NEP estuary habitat restoration 
projects, completed, ongoing and planned. The passage of H.R. 1775 
would allow continuance and expansion of these efforts to better meet 
the Nation's estuary habitat restoration needs.

        <bullet> The Massachusetts Bays Program led an interagency 
        approach to shellfish bed restoration that will restore and 
        protect 13 shellfish beds along Massachusetts and Cape Cod 
        Bays. As part of this effort, the program has linked up with 
        business interests to promote innovative technologies for 
        pollution prevention and remediation. The program has also 
        supported a comprehensive inventory of tidally restricted 
        coastal wetlands in Massachusetts and is funding two fish 
        passageway projects.
        <bullet> Through the work of the Barnegat Bay NEP, more than 
        32,000 acres of critical coastal habitat area have been 
        preserved in Barnegat Bay, New Jersey.
        <bullet> Over 40,000 acres of impounded marsh and mangrove 
        wetlands have been reconnected to the Indian River Lagoon on 
        Florida's eastern coast, one of the most U.S. productive 
        ecosystems in an area with high population growth and human 
        pressures. On the Gulf Coast, the Sarasota NEP has helped 
        achieve a 28-318 percent reduction in nitrogen loadings to the 
        Bay, spurring a seven percent increase in the growth of 
        seagrass beds.
        <bullet> Maine's Casco Bay Estuary Program teamed up with local 
        lobstermen to study habitat in Portland Harbor (discovering 
        that the harbor supported a thriving lobster community, larger 
        than anyone had thought) and then to relocate thousands of 
        harbor lobsters to other areas while the harbor was dredged 
        thereby protecting an important natural resource while 
        supporting the increased economic development that the dredging 
        allowed.
        <bullet> The New York/New Jersey Harbor NEP, through its 
        Habitat Workgroup, has prioritized and produced GIS coverages 
        of habitat sites targeted for restoration and acquisition by 
        the two states. This process has already resulted in the 
        funding several millions of dollars worth of restoration 
        projects. The data is being used to identify not just potential 
        sites, but also other factors that can impair restoration such 
        as erosion problems and incompatible land uses. A range of 
        projects target saltmarshes, freshwater wetlands, stream 
        corridors, waterfowl foraging areas, fish runs, invasive plant 
        removal, dredge material reuse, artificial reefs, coastal 
        grasslands, oyster and shellfish beds and upland forest.
        <bullet> Leading a partnership effort the Charlotte Harbor NEP 
        has restored over 700 acres on public lands through removal of 
        non-native plant species such as Melaleuca, Brazilian pepper, 
        and Australian pine as well as the restoration of natural 
        hydrology. These plants were over-running and out-competing 
        native plants. Another priority is the restoration of heavily 
        damaged seagrass beds using innovative techniques to promote 
        rapid re-growth.
        <bullet> On November 6, 1998, the Seabrook Middle Ground clam 
        flat in coastal New Hampshire was reopened to clamming for the 
        first time in nearly 10 years due to work coordinated by the 
        New Hampshire NEP. The reopening points to marked water quality 
        improvements in the Harbor largely due to increased municipal 
        sewerage coverage in the Town of Seabrook and other smaller 
        scale pollution control measures around the Harbor.
        <bullet> The Barataria-Terrebone Estuary Program has led a 
        local planning effort to restore oyster-growing areas to safe 
        harvest conditions. The program sponsored local stakeholder 
        meetings which idenfified 61 candidate restoration sites and a 
        smaller set of priority sites were selected for immediate 
        action.
        <bullet> The Narragansett Bay Estuary Program has been the 
        state point-of-contact for a multi-million dollar Army Corps of 
        Engineers Ecological Restoration Initiative. The NBEP organized 
        a stakeholder group to work with the Corps to develop a list of 
        priority coastal wetland and anadromous fish run restoration 
        sites. The NBEP persuaded the Corps to also provide basic 
        engineering studies for a number of the identified sites. The 
        program has two saltmarsh restoration projects in this year's 
        workplan and recently secured over $200,000 from the R.I.'s Oil 
        Spill and Response Fund to support coastal habitat mapping and 
        restoration equipment purchases.
        <bullet> The Tampa Bay NEP set an initial goal of restoring 100 
        acres of low-salinity wetland habitat--this goal has already 
        been met through the combined efforts of local, state and 
        Federal programs, and non-profits groups such as Tampa 
        Baywatch. The program has set an overall seagrass restoration 
        goal of 12,000 acres. The San Francisco Estuary Project's top 
        priority is to expand, restore and protect wetlands. Working 
        with state, Federal and local agencies, as well as private 
        organizations, this NEP developed the Baylands Ecosystem 
        Habitat Goals Report--a scientific guide for restoring and 
        improving the baylands and adjacent habitats of the San 
        Francisco estuary.
        [GRAPHIC] [TIFF OMITTED] T8806.013
        
        [GRAPHIC] [TIFF OMITTED] T8806.014
        
        [GRAPHIC] [TIFF OMITTED] T8806.015
        
        [GRAPHIC] [TIFF OMITTED] T8806.016
        
        [GRAPHIC] [TIFF OMITTED] T8806.017
        
        [GRAPHIC] [TIFF OMITTED] T8806.018
        
        [GRAPHIC] [TIFF OMITTED] T8806.019
        
        [GRAPHIC] [TIFF OMITTED] T8806.020
        
        [GRAPHIC] [TIFF OMITTED] T8806.021
        
        [GRAPHIC] [TIFF OMITTED] T8806.022
        
        [GRAPHIC] [TIFF OMITTED] T8806.023
        
        [GRAPHIC] [TIFF OMITTED] T8806.024
        
        [GRAPHIC] [TIFF OMITTED] T8806.025
        
        [GRAPHIC] [TIFF OMITTED] T8806.026
        
        [GRAPHIC] [TIFF OMITTED] T8806.027
        
        [GRAPHIC] [TIFF OMITTED] T8806.028
        
        [GRAPHIC] [TIFF OMITTED] T8806.029
        
        [GRAPHIC] [TIFF OMITTED] T8806.030
        
        [GRAPHIC] [TIFF OMITTED] T8806.031
        
        [GRAPHIC] [TIFF OMITTED] T8806.032
        
        [GRAPHIC] [TIFF OMITTED] T8806.033
        
        [GRAPHIC] [TIFF OMITTED] T8806.034
        
        [GRAPHIC] [TIFF OMITTED] T8806.035
        
        [GRAPHIC] [TIFF OMITTED] T8806.036
        
        [GRAPHIC] [TIFF OMITTED] T8806.037
        
        [GRAPHIC] [TIFF OMITTED] T8806.038
        
        [GRAPHIC] [TIFF OMITTED] T8806.039
        
        [GRAPHIC] [TIFF OMITTED] T8806.040
        
        [GRAPHIC] [TIFF OMITTED] T8806.041
        
        [GRAPHIC] [TIFF OMITTED] T8806.042
        
        [GRAPHIC] [TIFF OMITTED] T8806.043
        
        [GRAPHIC] [TIFF OMITTED] T8806.044
        
        [GRAPHIC] [TIFF OMITTED] T8806.045
        
        [GRAPHIC] [TIFF OMITTED] T8806.046
        
        [GRAPHIC] [TIFF OMITTED] T8806.047
        
        [GRAPHIC] [TIFF OMITTED] T8806.048
        
        [GRAPHIC] [TIFF OMITTED] T8806.049
        
        [GRAPHIC] [TIFF OMITTED] T8806.050
        
        [GRAPHIC] [TIFF OMITTED] T8806.051
        
        [GRAPHIC] [TIFF OMITTED] T8806.052
        
        [GRAPHIC] [TIFF OMITTED] T8806.053
        
        [GRAPHIC] [TIFF OMITTED] T8806.054
        
        [GRAPHIC] [TIFF OMITTED] T8806.055
        
        [GRAPHIC] [TIFF OMITTED] T8806.056
        
        [GRAPHIC] [TIFF OMITTED] T8806.057
        
        [GRAPHIC] [TIFF OMITTED] T8806.058
        
        [GRAPHIC] [TIFF OMITTED] T8806.059
        
        [GRAPHIC] [TIFF OMITTED] T8806.060
        
        [GRAPHIC] [TIFF OMITTED] T8806.061
        
        [GRAPHIC] [TIFF OMITTED] T8806.062
        
    Mr. Gilchrest. Mr. Ribb, thank you very much. Since there 
are so few people in the room, I don't think we need the 
lights. We appreciate the technology and under certain 
circumstances, if the dais up here was filled, I guess we would 
need them, but since it's just Eni and myself, we'll forego the 
lights.
    Mr. Ribb, thank you very much.
    Mr. Hirshfield.

    STATEMENT OF MICHAEL HIRSHFIELD, SENIOR VICE PRESIDENT, 
                   CHESAPEAKE BAY FOUNDATION

    Mr. Hirshfield. Thank you, Mr. Chairman. I will try to 
nevertheless be brief.
    On behalf of the Chesapeake Bay Foundation and Restore 
America's Estuaries, I would like to thank the Subcommittee for 
the opportunity to present testimony in strong support of H.R. 
1775, the Estuary Habitat Restoration Partnership Act. I would 
especially like to thank you, Mr. Chairman, for introducing 
this bill.
    My name is Mike Hirshfield. I'm the Senior Vice President 
of the Chesapeake Bay Foundation, which has its headquarters in 
Annapolis, Maryland and offices in Virginia and Pennsylvania. 
CBF is a member-supported, non-profit environmental education 
and advocacy organization, with over 80,000 members throughout 
the bay watershed and nationwide.
    Our mission is to save the bay, period; to restore and 
protect the Chesapeake Bay and its watershed.
    I'm also here as a member of the Board of Restore America's 
Estuaries, which is a coalition of 11 regional environmental 
organizations that all have estuary protection and restoration 
at the core of their missions.
    We've heard a lot about the legislation and what I'd like 
to do is depart from my written remarks for a couple of 
minutes, ask that they be included in the record, and----
    Mr. Gilchrest. Without objection.
    Mr. Hirshfield.[continuing] talk about a couple of the 
things that I've heard this morning.
    You asked how one restores an estuary, and I would say that 
our perhaps overly simplistic perspective is that you stop 
pollution, you manage your fisheries sustainably, and you 
protect and restore habitat, and those three elements have been 
what has been recognized by the Chesapeake Bay Program as 
critical to bringing back the health of the Chesapeake Bay, 
and, as you've heard, there are critical elements in all of the 
national estuary program efforts to restore estuaries.
    If you look, however, at the history of a lot of these 
programs, (I've been involved with the Chesapeake Bay Program 
for over 20 years now, from the beginning, first as a 
researcher, then as a state employee, and now with the 
Chesapeake Bay Foundation), the focus really historically was 
on stopping pollution. That was the first thing that people 
started to work on and for a long time, the vast majority of 
the resources going to restoring our bays has been focused on 
stopping pollution.
    In the last few years, we've got our arms around fisheries 
management a little bit better, in part because of the 
legislation that you worked so hard on to get the states 
working better together, and really restoring habitat I see as 
the eye-opening moment for the next 10 years or so.
    We've seen the need. We realize that just stopping 
pollution and just managing fisheries isn't enough. We've 
actually got to fix things. We've got to put things back. We've 
got to unstraighten rivers. We've got to put oyster reefs back 
into three dimensions. And in order to do that, we need 
resources and coordination beyond what we've had to date.
    We are very supportive of the Bay Program. I testified in 
favor of its reauthorization on the Senate side a couple of 
months ago. We see this legislation as being in no way 
duplicative, but as being complimentary, providing resources 
and coordination that will really help to take the bay and all 
the other bays in the country to the next level.
    I'm sure if any of my colleagues from RAE were here, they 
would say the same thing.
    A year ago, we issued the first Chesapeake Bay Foundation 
report card, State of the Bay. We gave the bay a 27 out of 100. 
People said we're tough graders, but we think that that's 
really where the bay is compared to what it has been. In fact, 
we said it had come back a little bit, maybe up from a 22, from 
when it bottomed out in the early '80s.
    This year, a couple of weeks ago, we released the 1999 
State of the Bay report and we gave the bay a 28; not exactly a 
huge improvement, but we're still pretty tough graders and we 
look at a lot of factors, and having a bay get better at all in 
the face of all the threats that are facing it we think is 
pretty remarkable.
    And one of the things that we're the most excited about is 
the potential for oyster restoration. A bunch of scientists got 
together, as Ms. Yozell talked about, a few months ago, and 
came up with a consensus document, that is pretty rare. If you 
think three agencies getting together and agreeing on something 
is tough, getting 20 scientists together to agree on anything 
is almost unheard of.
    And they agreed that what we needed were oyster 
sanctuaries, set-aside for brood stock, three-dimensional 
reefs, and more attention to how we manage the oyster fishery. 
We think that with that kind of a framework, with the funding 
and coordination provided by the legislation that we're talking 
about here, we'll be able to take oysters back from the two 
that we gave them this year to a 10 or a 20 in the next decade, 
and we think the Chesapeake Bay, from its 28, will be able to 
be taken back to a 70 or so.
    We're not going to get to that 100, we're not that naive, 
but we think a 70 is possible. And, again, this is a 
perspective that I know is shared by all of the other members 
of Restore America's Estuaries; that if we can get in there, 
get our hands dirty and start fixing the pieces of the bays 
that are broken, we can bring it back.
    One last comment. We've heard a lot about the importance of 
technical expertise in this program and we at the Bay 
Foundation certainly think that doing it right is better than 
doing it too quickly. However, there is an extraordinary energy 
all over this country related to habitat restoration. We have 
hundreds of our members who are growing oysters on their docks 
and taking them--not eating them, but taking them and putting 
them back on oyster reefs.
    There are similar stories that could be told all over this 
country of citizens taking their time and their money and 
putting it into estuarine habitat restoration. And we hope that 
as we set up the process for implementing this legislation, 
that an appropriate role for private citizen organizations, 
such as CBF and the other RAE members, would be taken into 
account, because it would be tragic if we lost that enthusiasm 
and that energy.
    In summary, on behalf of all the RAE members, I want to 
applaud you and the members of this Committee for the vision 
and leadership on this critical issue. We look forward to 
working with you to move this legislation forward and to turn a 
very good bill into very good law.
    Thank you.
    [The prepared statement of Mr. Hirshfield may be found at 
the end of the hearing.]
    Mr. Gilchrest. Thank you very much, Mr. Hirshfield. We 
share your enthusiasm. Now, Ms. Woolsey's former staffer, who 
I'm sure she misses a great deal at this point, but glad you're 
in the place where you are, Mr. Davis.

    STATEMENT OF GRANT DAVIS, ASSISTANT SECRETARY, U.S. ARMY

    Mr. Davis. Thank you, Mr. Chairman. I think I'm still 
blushing from her introduction. A little bit embarrassing. But 
I truly appreciate the opportunity to be here before you today 
and appreciate your introduction of this piece of legislation, 
as well as Mr. Faleomavaega, the Ranking Member, sitting 
through the testimony. It really is quite inspiring to see the 
panel before us speak in relative unanimity, three different 
Federal agencies talking about implementation of legislation 
like this, because you have hit upon something, I think, that 
is a recipe for success.
    As the Congresswoman mentioned, I have been the Executive 
Director of the Bay Institute of San Francisco for a little 
over two years. Our sole mission is the protection and 
restoration of the San Francisco Bay Delta Estuary and I 
submitted a document that we released last year for members of 
the Committee called The Sierra to the Sea, which is 
essentially the area that we cover.
    In that, the second to last page, is an historical 
compilation of the San Francisco Bay delta, 150 years ago, 
which documents what we used to have and what we now have 
today, which puts a dramatic picture in front of us of what 
we've lost and how we have to re-double our efforts, in 
particular, in the San Francisco Bay delta.
    And I don't claim to be an expert on any other estuary, but 
I do know one of the sad common features is that all estuaries 
in the nation are, in fact, being abused and are in need of 
repair.
    The bright spot, however, is the fact that you have 
colleagues that are before you today, non-profit, non-
government organizations, as well as local, state and Federal 
agencies, that are willing to re-double efforts to get engaged 
and do implementation.
    One of the beauties of going last is that I will say I'll 
be brief and that I'd like to obviously include my full remarks 
into the record, but would like to paraphrase that I've heard 
today and comment and give some feedback based on members' 
questions and the responses that I heard earlier.
    With all due respect, the first one is your analogy of a 
funnel. It's a very good one. However, the idea of transmission 
fluid for an estuary is probably one--I would recomend using 
another analogy, like fresh water, because the one area that--
--
    Mr. Gilchrest. The reason I use that, though, is when I 
communicate my ideas to other members of Congress, that seems 
to take hold. But I'll take your ideas into consideration.
    Mr. Davis. The funnel works. It's just what you put down 
it. I used that because my colleague to the right here did 
mention there is a fourth element besides the wonderful 
features you talked about, restoring estuaries. In our case in 
California, clearly fresh water flows are an equally important 
ingredient to restoring our estuaries and when you look at a 
dry state like ours, which is in need of water, our continuing 
challenge is making sure we have enough fresh water flows into 
the system.
    So in order to restore the physical process, which is what 
our document suggests is needed, you need fresh water flow and 
that would be the summation in terms of what we find at the Bay 
Institute is our biggest challenge; that is, working with, in a 
collaborative way, the Federal agencies, the state and local 
bodies, working toward a very comprehensive vision of 
restoration.
    My message today is that in San Francisco, we're ready to 
implement. A great deal of work has been done to plan and we're 
fortunate enough in our region that there is a great deal of 
collaboration going on with the Federal, state and local 
entities that are responsible for regulation and designing and 
ultimately implementing projects.
    I didn't include this, because it's too big for the record, 
but there is a document called The Bay-lands Ecosystem Habitat 
Goals, which thoroughly documents--this has been a five-year 
effort of all the best scientists that we have in our 
institutions, documenting project by project very ambitious 
goals for restoration of the entire watershed.
    I'd like to make sure that I get both Committee staff and 
the members get this document, because it's basically a 
template for how to implement the work that your bill is 
suggesting needs to be done in estuaries all across the U.S.
    One other document----
    Mr. Gilchrest. What is the title of that?
    Mr. Davis. This document is called The Bay-lands Ecosystem 
Habitat Goals, it's a report of the habitat recommendations 
prepared by the San Francisco Bay Area Wetlands Ecosystem Goals 
Project, very informative and years of work went into this.
    Closer to home, we did have a document called San Pablo Bay 
Lands. This is the northern part of San Francisco Bay, where 
we're located and very involved. This is a plan to protect and 
restore the region's farms and wetlands, because in our region, 
we have the nexus of agriculture and the estuary and truly 
significant work needs to be done in collaboration. We need 
landowner support and voluntary cooperative means for the 
agencies to work with the NGOs and the landowners to ultimately 
implement restoration.
    So that document I did insert for the record, because it, 
too, provides numerous opportunities, with the right funding 
mechanism, for us to implement and begin restoring upwards, in 
this area, of around 50,000 acres of wetlands in the San 
Francisco Bay, which would be a phenomenal step.
    Lastly, just to move forward, Mike Davis, who testified 
earlier, because your legislation provides the Corps with the 
primary responsibility for ecosystem restoration here, we 
support that actually. It's been our experience that that new 
mission that they're moving into, contrary to what their old 
mission was, is one in which they are equipped to work.
    I have submitted a document called the San Pablo Bay 
Watershed Restoration Study. It's a currently authorized 
project that the Congress has had now for three years, going 
into its fourth year, and we are fortunate to be able to work 
with them in designing the restoration strategy.
    That means they have found a way, and I suggest that this 
could be your model for other estuaries and partnerships around 
the nation, where the Corps has the authorization for ecosystem 
restoration, but what's unique with the San Pablo Bay Area is 
they're providing what they do best; that is, technical 
assistance and implementation planning to state and local and 
non-government agencies and organizations working to implement 
projects.
    So if you have the scientific advisory panels put in place 
that would encompass groups like ours and the local, state and 
other agencies responsible for regulation, working with the 
Federal agencies under the Corps' leadership, I think you do 
have a model that can work. And what we heard today is that 
NOAA and EPA and U.S. Fish and Wildlife are prepared to operate 
under that rubric.
    So I think the theme today is collaboration, it's a major 
step forward, were you to be able to pass this out in a 
bipartisan manner. It's something that the Bay Institute, as 
well as the San Francisco Bay Joint Venture, which I currently 
am Vice Chair, wholeheartedly support, and if there is any work 
that we can do to help assist in moving this bill forward, one 
of the ways to do that would be to get additional co-sponsors 
and I plan to go back and do just that, to get the Bay area 
Congressional delegation to come on this bill and hopefully 
this will be the vehicle that we use this year.
    So thank you very much for the opportunity to testify.
    [The prepared statement of Mr. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] T8806.063
    
    [GRAPHIC] [TIFF OMITTED] T8806.064
    
    [GRAPHIC] [TIFF OMITTED] T8806.065
    
    [GRAPHIC] [TIFF OMITTED] T8806.066
    
    [GRAPHIC] [TIFF OMITTED] T8806.067
    
    [GRAPHIC] [TIFF OMITTED] T8806.068
    
    Mr. Gilchrest. Thank you, Mr. Davis. Could each of you 
comment on the structure, the regional structure we've created 
in this legislation, whether you think you can tap into that 
structure?
    Also, if you could comment on the question that was posed 
to the Corps, Fish and Wildlife, and NMFS about grants versus 
projects and how that is oriented. They seem to think that 
there could be some formula or some measure for grant projects 
as opposed to just having everything done through the Corps, 
through a project-oriented.
    I'm just wondering where do each of you think you might fit 
into that scheme. Mr. Ribb?
    I also want to thank--unless you really like to fly, I want 
to thank Mr. Ribb and Mr. Davis. I don't think Mike flew from 
Annapolis.
    Mr. Hirshfield. Although I wish I had. It would have been 
quicker.
    Mr. Gilchrest. It was a little stormy last Thursday. But I 
really want to thank both of you for coming back this week. 
It's very appreciated.
    Mr. Ribb. Well, I got to see the storm firsthand, so that 
was really interesting. I think the regional council concept is 
important. Our experience in our watershed is we have worked in 
collaboration with the Army Corps on a number of initiatives--
in fact, we have a couple of investigations going on where our 
estuary program is the point program of contact for them, and, 
through us, the Corps has been able to work with all of our 
local stakeholders.
    So I think a process that includes a diversity of interests 
work best having, experienced this on our watershed level. 
Diversity in the regional councils is important; to have the 
various governmental agencies, but to also have the other 
groups, like representation from RAE, which certainly is 
critical.
    I think it also builds broader support. And if the local 
people are involved it gets back to the question you asked, how 
do you restore and estuary and keep it that way. I think one of 
the critical ways is to have the public support for it and to 
build the kind of political will to do those things.
    In our state, we've been to bat three times on a state 
estuary habitat restoration bill that would use oil spill 
proceeds as a funding source and each time it was defeated for 
purely political reasons. Strong support, but not quite enough 
articulated at the citizen level to say to state legislators, 
hey, we want this to happen.
    So we're working very hard to try and get that to happen, 
but I think, as I said, if people feel connected to the 
Council, the people in the neighborhood down the street from 
you who want to restore their salt marsh, you're likely to have 
a connection to the Council that's very powerful.
    So I believe that's a critical component to the success of 
the Council. And I've forgotten the second question.
    Mr. Gilchrest. Projects v. grants.
    Mr. Ribb.I think the grant process, in my mind, would be 
better, because we have a lot of capacity right now at our 
regional and local level to do this kind of work. We have 
people who want to be involved in it.
    We have universities, we have state agencies, we have 
citizen groups who want to be involved and have some expertise. 
We think that's a real good way to go at it.
    Admittedly, I know a grant process, administratively, is 
more work, having spent a lot of time on administration myself, 
but I do believe that when people have the ability to do work 
themselves, in collaboration with the Federal, state and local 
groups, again, it's very powerful and it's long-lasting.
    Mr. Gilchrest. Thank you. Mike?
    Mr. Hirshfield. I think the regional council mechanism is 
the way to go. I think that I'd have to go back and look at the 
language and see how prescriptive it is about participation of 
groups like ours, but whether it's prescriptive or not, as long 
as everybody understands that we have a real stake in this and 
real interest in it and that we should have a seat at the table 
at the beginning, I think our folks would be satisfied.
    On grants or projects, I think Grant Davis really hit it 
right. It's figuring out--it's less about whether you call it a 
project or a grant than it is about figuring out the 
appropriate roles and responsibilities for all the 
participants.
    If we're going to be moving a culvert, I'm really not sure 
that we'd need a really long Corps analysis. If we're going to 
be moving an island, I'd probably want a little bit longer 
planning process.
    But just as in San Francisco Bay, a lot of work has gone 
into developing the plans, finding the sites, figuring out what 
the projects are, in many cases, with the collaboration of 
folks like the Corps, I'm not sure that going through what I 
seem to hear as being a checklist of a project approach is 
necessarily the way to go.
    We are using an old analogy from the movie MASH, where they 
talked about doing not hospital surgery, but doing meatball 
surgery. We're talking about meatball restoration. We don't 
have time to satisfy the purists and academia or perhaps the 
engineers who are counting everything. We need to get out there 
and get the job done.
    Mr. Gilchrest. Thank you. Grant?
    Mr. Davis. Briefly, never to pass up a moment. It might be 
the last time I get to testify here, and it is getting late.
    But again, there are two projects I wanted to call 
attention to in part of that. With all due respect to Mr. Davis 
with the Corps, his one item that I totally agree with is in 
his earlier testimony on this bill, he talked about another 
purpose for this legislation, which essentially was greater 
public appreciation and awareness for the value of the benefits 
of estuaries and our coastal resources.
    Adding that as one of the purposes gets to the point of 
gaining public awareness and appreciation, and part of that 
then is who is engaged in the implementation.
    So going back to our region, you mentioned the Sonoma Bay 
Lands project. That was a huge wetlands restoration, 400 acres, 
and it encompassed the reuse of dredge material, a beneficial 
reuse of material that came from the Port of Oakland that would 
have gone into the Bay or into the ocean. We reused it for 
wetland restoration. That's the model that I would like to 
point to.
    More importantly, you have a component in here for 
monitoring and we're learning from the Sonoma Bay Lands 
project, just down the way in Novato, California, at the 
Hamilton Army Air Field, and this is in my testimony. It's a 
700-acre wetland restoration, again, but what's unique is it's 
a cement runway that's four feet below sea level, and what 
we're going to do is take the valuable material that's coming 
out of the dredge projects, put them into beneficial reuse at 
that site. We'll take what we learned from the Sonoma Bay 
Lands.
    So what you've managed to do here is put the Corps into the 
proper place. They can move material and they can design 
projects and they can have the technical resources, but they 
require a local partner, a local cost-share, and a local 
vibrant community interest to help implement, and that's the 
power of this.
    What we're hoping to do there is with NOAA, you'll have a 
bank where you will learn, we'll be able to tap into NOAA's 
database for restoration and, quite frankly, that's the missing 
ingredient here. When I recommend who should go and how, it 
depends on the project.
    You can't just provide the authority to the Corps to give 
the opportunity to grant. If it's a grant-making project, I 
would concur with my colleague here that it makes sense for 
smaller projects to go to an NGO or a state or a local entity. 
For big projects, let's use the Corps, and contain it so it 
doesn't get out of hand.
    The cost-share is what you've given here. In a nutshell, 
we'd be happy to work with them on implementing projects.
    Mr. Gilchrest. Thank you very much, Mr. Davis. I yield now 
to the gentleman from American Samoa.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I do want to 
thank the three panelists for their excellent statements that 
have been presented before the Committee.
    Just a couple of questions, for the record, if I may. And I 
do appreciate the gentlemen's support and their endorsement of 
the proposed bill.
    Mr. Ribb, as you are aware, there are currently 28 national 
estuary programs administered by the EPA and one of the things 
that has really made the program so outstanding, as all of you 
have indicated earlier, the involvement of the local 
communities.
    Can you share with us any more elaboration on how this 
works within your Narragansett national estuary?
    Mr. Ribb. In particular, as an example, and it's included 
in my written testimony, our program has worked closely with 
local interests--we pulled together the habitat restoration 
stakeholders from across that whole spectrum, university, 
agency, local, citizen groups, last fall, and we held a 
symposium on coastal habitat restoration. Out of that we came 
up with policy directions, research needs, and legislation 
that's needed.
    We have a consistent team that meets on a regular basis and 
right now we've put together a GIS map of all of the sites, 
habitat restoration sites planned, proposed and completed, and 
we have this to work from.
    Now we're working on a prioritization scheme that is right 
for our estuary. We've also been doing the science behind it by 
analyzing what's been lost, where is our best bang for the 
buck, but also building in what Mr. Hirshfield is saying, 
recognition of a willingness to act. We need to recognize that 
and we need to take advantage of those people, programs and 
projects.
    So at the same time that we're building the science and the 
consensus, we want to get out there and act and do projects, 
and we're doing that now on a limited level. This bill would 
really help meet those local needs.
    In respect to the issue of the grants versus projects, we 
have been working closely with the Army Corps right now on a 
restoration planning, and they have also been involved in some 
of the smaller projects and I think that it's hard for them. 
They're not geared up for small projects, at least the way we 
work. So I think that they need to have that connection, as 
Grant said, but ned to determine the proper role of how they 
can work together with local intersts for these smaller 
projects. That's a critical component of their involvement.
    I think that we've built a support system that is ready to 
work with this process, if this bill becomes law. We have 
prioritized the list of projects, we have the players, we have 
people ready to go, we have local funding sources, and that is 
not an unusual situation for the NEPs. That is a model that all 
NEPs use.
    Mr. Faleomavaega. This is just testing the mettle of the 
proposed provisions of my good friend's bill here. As you all 
know, we've got the regional councils, but my question is that 
we've got 28 programs that are very successful. It seems that 
the key here is involvement of the local communities. I was 
wondering, do you think that putting the regions, like Florida, 
Alabama, Mississippi, Louisiana, Texas together, do you think 
that they have a commonality of their needs, where we put them 
together, or does this add another layer of more bureaucratic 
involvement in establishing a council or regional councils?
    Mr. Ribb. I think the needs are common across those 
estuaries, although some are different because of their 
ecological situation. The difference between Louisiana and 
Portland, Maine, for example. But recently things, the Estuary 
Programs did a report on common problems across the country of 
different estuaries and there were six or seven priority ones 
that come up in every estuary, issues like habitat loss, water 
quality degradation, and invasive species, nutrient 
overloading.
    So the programs, estuaries share these problems. I'm not so 
sure that its a big a problem, having a regional setup as ther 
bill describes.
    Mr. Faleomavaega. And, Mr. Hirshfield, I notice that you 
got your doctorate from the University of Michigan. Do you 
think I might have any problem with the Great Lakes connotation 
that we're trying to take on here?
    Mr. Hirshfield. Well, it's funny, we were talking about the 
Great Lakes a little bit earlier and, as a scientist, I do have 
a little bit of a definitional problem with including places 
that have no salt in their water in a program that is 
fundamentally about where the salt water meets the fresh water.
    But that's perhaps, in this context, a picky scientific 
distinction of no real importance.
    Mr. Faleomavaega. I wanted just to----
    Mr. Hirshfield. I appreciate it. I was raised near the 
coast and as fast as I could leave Michigan, I got back first 
to California, then back here to the east.
    Mr. Faleomavaega. How important do you think, Mr. 
Hirshfield, is the idea of monitoring the process? Maybe I'm 
kind of asking a leading question, but sometimes we tend to 
forget.
    Mr. Hirshfield. We are very happy to see the monitoring 
provisions in this legislation.
    Although I was just the person who said maybe we should 
perhaps even cut a few corners and get out there doing 
restoration projects, that's, in part, reflective of my belief 
that the best way that scientists learn about this new 
discipline is by doing it.
    And if you're not going to have good monitoring of the 
projects, then you're not going to be learning. We've all seen, 
over the years, lots of projects go back. The straightened 
rivers were, after all, designed for some, at that time, 
believed public good.
    So having a monitoring program that really does keep an eye 
on what's happening, and to make sure that the benefits that 
we're all looking for are actually achieved I think is 
essential.
    Mr. Faleomavaega. We've got a $280 billion military budget 
that we now have pending and we're only proposing $220 million 
for a five-year period to provide for the needs of 50 percent 
of our nation's population residing in the coastal areas and 
the 70 percent or whatever of the commercial fisheries, 90 
percent of the recreational fisheries.
    Maybe this is something, Mr. Chairman, that I would suggest 
that we ought to look at the investment, because $220 million 
for a five-year period is pittance. Probably not even the cost 
of one B-1 bomber. But to look at the difference of what this 
means in human needs and also our appreciation for the 
environment is just unbelievable.
    I want to ask Mr. Davis. You know, every time I go through 
San Francisco, I--and, by the way, we really appreciate your 
coming here twice now for the course of the span of one week. I 
know what it means to be on a five- hour flight between the 
west coast and here.
    But every time I come through San Francisco, I see this 
huge dirty area that is just absolutely muddy or whatever, 
clay, or whatever, and it looks like no organism lives or 
survives in this. It's about five miles away from the San 
Francisco Airport.
    Am I making any inroads into what an estuary is or 
shouldn't be?
    Mr. Davis. You are making the most relevant point. It's 
where the waters mix, and that's why I brought up fresh water 
flow. We have the Sacramento River and the San Joaquin that 
form the main tributaries that flow through the delta, out the 
bay, and you have the mixing zone, a nutrient zone where the 
animal life and the food web is really, really rich.
    So when you destroy that, the physical process, all of the 
the species that rely on that are threatened.
    My colleague here, Mr. Ribb, mentioned something about the 
real challenge being sedimentation and some of the non-point 
source pollutions and in my written testimony I talk about two 
other areas that we ought to look at this vehicle possibly 
being relevant.
    One of them is to help the collaborations of the 
municipalities that are responsible for keeping the non-point 
source pollution, this is human, that are contributing toward 
that, the folks that live in and around these estuaries, we're 
all part of the problem and all part of the solution.
    So addressing non-point source pollution through this 
vehicle may, in fact, be one other benefit that I see out of 
this.
    In addition, there is a great deal of work going on right 
now through the CalFed process and work that the Bay Institute 
is doing on industrial water use efficiency. I bring this up 
because it's important to note that you can combine economic 
incentives from municipalities and state and local government 
to provide more efficient use of our resources, and that would 
be reducing the discharge into our estuaries, that's the sewage 
and the municipal load that's added into our estuaries, and 
combine that with an incentive for water conservation, and 
we're showing some dramatic numbers, where the Congress could 
provide just an additional incentive to local governments that 
are responsible for heavy loads and reducing the discharge.
    This could be a vehicle, and I felt compelled to raise it 
because it's exciting pioneering work and, as Mr. Hirshfield 
said, this is an ongoing process.
    It's scientific in nature. It means it's evolving and we 
have to practice adaptive management. We need to learn as we 
restore, and that's why that data bank is so darn important, 
because that would be our resource to evolve our understanding 
of how best to restore our nation's estuaries.
    Mr. Faleomavaega. Gentlemen, I thank you. And, Mr. 
Chairman, again, I want to commend you for proposing a bill 
that I feel so comfortable and very confident that it will 
shortly have very strong bipartisan support. I want to commend 
you for this. And, gentlemen, thank you again for coming.
    Mr. Gilchrest. Thank you, Mr. Faleomavaega, for your 
support and for your questions.
    Gentlemen, once again, thank you for your testimony. It has 
been extremely helpful for us to formulate this piece of 
legislation and it is our hope, and I think you've done a great 
deal to help in that effort, to get it passed out of the House 
before we recess or adjourn, and passed out of the Senate.
    So we'll be working to that end. If there is any other 
member that you think you need to call in the country to 
encourage them to co-sponsor or vote for this, we would 
appreciate it.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 1:06 p.m., the Subcommittee was adjourned.]
    Additional material submitted for the record follows.]
    [GRAPHIC] [TIFF OMITTED] T8806.069
    
    [GRAPHIC] [TIFF OMITTED] T8806.070
    
    [GRAPHIC] [TIFF OMITTED] T8806.071
    
    [GRAPHIC] [TIFF OMITTED] T8806.072
    
    [GRAPHIC] [TIFF OMITTED] T8806.073
    
    [GRAPHIC] [TIFF OMITTED] T8806.074
    
    [GRAPHIC] [TIFF OMITTED] T8806.075
    
    [GRAPHIC] [TIFF OMITTED] T8806.076
    
    [GRAPHIC] [TIFF OMITTED] T8806.077
    
    [GRAPHIC] [TIFF OMITTED] T8806.078
    
    [GRAPHIC] [TIFF OMITTED] T8806.079
    
    [GRAPHIC] [TIFF OMITTED] T8806.080
    
    [GRAPHIC] [TIFF OMITTED] T8806.081
    
    [GRAPHIC] [TIFF OMITTED] T8806.082
    
    [GRAPHIC] [TIFF OMITTED] T8806.083
    
    [GRAPHIC] [TIFF OMITTED] T8806.084
    
    [GRAPHIC] [TIFF OMITTED] T8806.085
    
    [GRAPHIC] [TIFF OMITTED] T8806.086
    
    [GRAPHIC] [TIFF OMITTED] T8806.087
    
    [GRAPHIC] [TIFF OMITTED] T8806.088
    
    [GRAPHIC] [TIFF OMITTED] T8806.089
    
    [GRAPHIC] [TIFF OMITTED] T8806.090
    
    [GRAPHIC] [TIFF OMITTED] T8806.091
    
    [GRAPHIC] [TIFF OMITTED] T8806.092
    
    [GRAPHIC] [TIFF OMITTED] T8806.093
    
    [GRAPHIC] [TIFF OMITTED] T8806.094
    
    [GRAPHIC] [TIFF OMITTED] T8806.095
    
    [GRAPHIC] [TIFF OMITTED] T8806.096
    
    [GRAPHIC] [TIFF OMITTED] T8806.097
    
    [GRAPHIC] [TIFF OMITTED] T8806.098
    
    [GRAPHIC] [TIFF OMITTED] T8806.099
    
    [GRAPHIC] [TIFF OMITTED] T8806.100
    
    [GRAPHIC] [TIFF OMITTED] T8806.101
    
    [GRAPHIC] [TIFF OMITTED] T8806.102
    
    [GRAPHIC] [TIFF OMITTED] T8806.103
    
    [GRAPHIC] [TIFF OMITTED] T8806.104
    
    [GRAPHIC] [TIFF OMITTED] T8806.105
    
    [GRAPHIC] [TIFF OMITTED] T8806.106
    
    [GRAPHIC] [TIFF OMITTED] T8806.107
    
    [GRAPHIC] [TIFF OMITTED] T8806.108
    
    [GRAPHIC] [TIFF OMITTED] T8806.109
    
    [GRAPHIC] [TIFF OMITTED] T8806.110
    
    [GRAPHIC] [TIFF OMITTED] T8806.111
    
    [GRAPHIC] [TIFF OMITTED] T8806.112
    
    [GRAPHIC] [TIFF OMITTED] T8806.113
    
    [GRAPHIC] [TIFF OMITTED] T8806.114
    
    [GRAPHIC] [TIFF OMITTED] T8806.115
    
    [GRAPHIC] [TIFF OMITTED] T8806.116
    
    [GRAPHIC] [TIFF OMITTED] T8806.117
    
    [GRAPHIC] [TIFF OMITTED] T8806.118
    
    [GRAPHIC] [TIFF OMITTED] T8806.119
    
    [GRAPHIC] [TIFF OMITTED] T8806.120
    
    [GRAPHIC] [TIFF OMITTED] T8806.121
    
    [GRAPHIC] [TIFF OMITTED] T8806.122
    
    [GRAPHIC] [TIFF OMITTED] T8806.123
    
    [GRAPHIC] [TIFF OMITTED] T8806.124
    
    [GRAPHIC] [TIFF OMITTED] T8806.125
    
    [GRAPHIC] [TIFF OMITTED] T8806.126
    
    [GRAPHIC] [TIFF OMITTED] T8806.127
    
    [GRAPHIC] [TIFF OMITTED] T8806.128
    
    [GRAPHIC] [TIFF OMITTED] T8806.129
    
    [GRAPHIC] [TIFF OMITTED] T8806.130
    
    [GRAPHIC] [TIFF OMITTED] T8806.131
    
    [GRAPHIC] [TIFF OMITTED] T8806.132
    
    [GRAPHIC] [TIFF OMITTED] T8806.133
    
    [GRAPHIC] [TIFF OMITTED] T8806.134
    
    [GRAPHIC] [TIFF OMITTED] T8806.135
    
    [GRAPHIC] [TIFF OMITTED] T8806.136
    
    [GRAPHIC] [TIFF OMITTED] T8806.137
    
    [GRAPHIC] [TIFF OMITTED] T8806.138
    
    [GRAPHIC] [TIFF OMITTED] T8806.139
    
    [GRAPHIC] [TIFF OMITTED] T8806.140
    
    [GRAPHIC] [TIFF OMITTED] T8806.141
    
    [GRAPHIC] [TIFF OMITTED] T8806.142
    
    [GRAPHIC] [TIFF OMITTED] T8806.143
    
    [GRAPHIC] [TIFF OMITTED] T8806.144
    
    [GRAPHIC] [TIFF OMITTED] T8806.145
    
    [GRAPHIC] [TIFF OMITTED] T8806.146
    
    [GRAPHIC] [TIFF OMITTED] T8806.147
    
    [GRAPHIC] [TIFF OMITTED] T8806.148
    
    [GRAPHIC] [TIFF OMITTED] T8806.149
    
    [GRAPHIC] [TIFF OMITTED] T8806.150
    
    [GRAPHIC] [TIFF OMITTED] T8806.151
    
    [GRAPHIC] [TIFF OMITTED] T8806.152
    
    [GRAPHIC] [TIFF OMITTED] T8806.153
    

</pre></body></html>
